                                                         
 
 
 
 
 




                                                     
 
 
 
 

                  AUDIT OF THE

        DEPARTMENT OF JUSTICE PROCESSING 

             OF CLEMENCY PETITIONS

                                     
                                     
                   U.S. Department of Justice 

                 Office of the Inspector General 

                          Audit Division 


                         Audit Report 11-45 

                          September 2011

 
 
 
                              AUDIT OF THE DEPARTMENT OF JUSTICE 

                              PROCESSING OF CLEMENCY PETITIONS


                                                               EXECUTIVE SUMMARY


      The authority to grant clemency for federal criminal offenses vests
solely with the President of the United States.1 The President's clemency
power is authorized under Article II, Section 2, of the Constitution and can
take several forms depending on the petitioner’s sentence and whether or
not the petitioner has been released from incarceration. According to
28 Code of Federal Regulations (C.F.R.) § 1.1, the forms of clemency
include:

       	 Pardon - A Presidential pardon will restore certain rights lost as a
          result of the pardoned offense; it will not erase or expunge the record
          of conviction.

       	 Commutation of Sentence - A commutation of sentence reduces the
          sentence being served, but it does not have any impact upon the
          conviction itself. Commutation petitions can also include a request for:
          (1) a full or partial remission of any fines or restitution imposed by the
          court; and (2) a reprieve, which delays the impending punishment or
          sentence, including a temporary delay in the execution of capital
          punishment.2

      Since fiscal year (FY) 1900, 22 percent of the more than
95,000 clemency petitions received were granted.3 However, in recent years
the President has infrequently exercised clemency power. Between
FYs 2005 and 2010, only 177 (3 percent) of the 5,806 clemency decisions
made were granted, while the remaining 5,629 (97 percent) were denied.
In addition, the backlog of petitions has steadily increased since FY 1900 and



                                                            
              1
          Federal criminal offenses include all criminal violations of the United States Code,
the District of Columbia Code, and the Uniform Code of Military Justice.
              2
          Respite, a temporary delay in the execution of capital punishment, was formerly
included as a separate type of clemency. However, it is no longer used and petitions related
to a delay in capital punishment cases are now included in the reprieve category, which
would similarly be temporary in nature and designed to allow more time to review matters
related to the case.
              3
         The Office of the Pardon Attorney (OPA) does not report clemency statistics prior
to FY 1900.
 


escalated to more than 3,000 petitions in FY 2002, which corresponded to a
rapid increase in the number of petitions filed.4

      While the power to grant clemency is vested solely in the President,
according to 28 C.F.R. § 1.1, requests for executive clemency for federal
offenses are directed to the Office of the Pardon Attorney (OPA) for
processing, with the exception of petitions relating to military offenses.5 The
specific responsibilities of the OPA, in consultation with the Office of the
Deputy Attorney General (ODAG), include the following:

       	     receive and review all petitions for executive clemency, conduct the
              necessary investigations, and prepare recommendations for the
              President, which are reviewed and signed by the Deputy Attorney
              General;6

       	     provide policy guidance for the conduct of clemency proceedings and
              the standards for decision;

       	     confer with individual clemency petitioners, petitioners’
              representatives, public groups, members of Congress, various federal,
              state, and local officials, and others in connection with the disposition
              of clemency proceedings; and

       	     maintain contacts with Department of Justice (DOJ) officials, the
              Counsel to the President, and other government officials to advise
              them on clemency matters as requested.

      The OPA’s review may include referrals to the Federal Bureau of
Investigation (FBI) to conduct a background investigation of the petitioner,
as well as referrals to other entities, such as the Federal Bureau of
Prisons (BOP), U.S. Probation Office, federal prosecuting and law
                                                            
              4
          Throughout this audit report we define the term “backlog” to include all clemency
petitions that have been received by the OPA, but have not received a final decision by the
President or been administratively closed by the OPA.
              5
          A petitioner applying for executive clemency with respect to military offenses
should submit his or her petition directly to the Secretary of the military branch that had
original jurisdiction over the court-martial trial and conviction of the petitioner.
              6
          As mentioned previously, petitions for pardon of a military offense should first be
sent to the Secretary of the military branch that had original jurisdiction. Once the military
pardon petition has been reviewed by the appropriate Secretary, the petition along with any
required documentation is forwarded to the OPA for review and processing. By
long-standing convention, the President does not entertain petitions for commutation of a
military sentence, but rather defers to military authorities on such matters.


                                                               ii
 


enforcement agencies, sentencing judges, and identifiable victims, to obtain
appropriate information, comments, and recommendations.

       In FY 2010, the OPA consisted of six attorneys and six support staff,
and had a budget of $2.7 million.7 The OPA reviews and processes clemency
petitions using the guidelines outlined in the U.S. Attorneys’ Manual.8
Subsequently, the OPA provides a recommendation and report to the ODAG
for review and signature. The ODAG then performs its own assessment of
the report and recommendation. According to our interview with ODAG
officials, generally the ODAG does not overrule the OPA’s recommendation
but may suggest changes to the report, including the order of significant
factors supporting the recommendation. Once the recommendation is
approved and the report is signed by the Deputy Attorney General, the OPA
forwards the recommendation and report to the White House. Once the
President makes a final decision on the clemency petition, the OPA is notified
by the White House and the OPA completes the necessary documentation
and notifications.

Office of the Inspector General Audit Approach

      The objectives of this audit were to determine whether: (1) the OPA
has established effective procedures for processing and reducing the backlog
of clemency petitions, and (2) DOJ components have established effective
procedures to respond to the OPA's referrals in a timely manner.

       The scope of our audit generally included clemency petitions pending
at the beginning of FY 2005 and clemency petitions opened between
FYs 2005 and 2010.9 As a result, our audit included 12,897 clemency
petitions opened between November 1993 and September 2010, and
40,226 referral and status actions between December 1993 and
September 2010, reported in OPA’s Executive Clemency Tracking

                                                            
              7
         Over the past 5 fiscal years, OPA’s staffing has had little change above or below
the FY 2010 numbers. Therefore, we believe the improvements discussed in this report are
due to process improvements, not staffing. The Pardon Attorney is a career position
selected by the Attorney General and heads the OPA. The OPA’s website is
www.justice.gov/pardon.
              8
         U.S. Attorneys’ Manual § 1-2.112 Standards for Considering Pardon Petitions and
§ 1-2.113 Standards for Considering Commutation Petitions.
              9
        Throughout this audit report we use the term “pending” to indicate the status of
clemency petitions included in the backlog. Petitions are pending at the OPA, ODAG, or
White House. For example, a petition processed by the OPA that is awaiting review by the
ODAG would be considered “pending” at the ODAG.



                                                               iii
 


System (ECTS).10 However, we considered information outside this period if
it was relevant to the audit, and the instances in which we considered such
information are noted in the report.

      We conducted audit work at the OPA, ODAG, BOP, FBI, Executive
Office for U.S. Attorneys, and Criminal Division. We interviewed the Pardon
Attorney and OPA staff responsible for processing clemency petitions, as well
as ODAG officials regarding the review of clemency petitions. We also
interviewed officials responsible for responding to the OPA’s referrals
requesting information, comments, and recommendations related to
clemency petitions. Additionally, we obtained and analyzed information from
OPA’s ECTS and conducted a case file review of a statistical sample of
313 petitions to verify the accuracy of the information in the ECTS and
determine whether the case files contained any additional information
related to the OPA’s referrals.

      Finally, we sent questionnaires to six DOJ components, the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF); Drug Enforcement
Administration (DEA); Antitrust Division; Civil Division; Civil Rights Division;
and Tax Division, to obtain an understanding of the processes for responding
to the OPA’s referrals requesting information, comments, and
recommendations on clemency petitions. Questionnaires were also sent to a
sample of 30 U.S. Attorneys’ Offices (USAO) and 41 BOP institutions and
contract facilities.11 Appendix I contains a more detailed description of our
audit objectives, scope, and methodology.

Results in Brief

      Based on discussions with the OPA and our review of a sample of
clemency petition case files, we identified the procedures used to process
clemency petitions. In our judgment, based on the procedures identified, we
found that the OPA utilized a reasonable approach to investigate the merits
of clemency petitions and develop its recommendations. In addition, the
reports and recommendations undergo an extensive review by the Pardon
Attorney and the ODAG before being signed by the Deputy Attorney General
and provided to the President.
                                                            
              10
           The referral actions documented in ECTS track all OPA referrals to the petitioner,
petitioner’s attorney, and referral agencies, including the U.S. Attorneys’ Offices (USAO),
FBI, and BOP, for information, comments, and recommendations on clemency petitions.
Additionally, ECTS tracks the status of the report and recommendation during the time it is
at the ODAG or at the White House for review.
              11
          Not all of the USAOs and BOP institutions or contract facilities received referrals
from the OPA during the period covered by our audit. Referrals were sent to 90 of the
93 USAOs and 124 of the 129 BOP institutions or contract facilities.


                                                               iv
 



       However, we also found that the backlog of clemency petitions
increased by 92 percent over 6 years, from 2,459 petitions at the beginning
of FY 2005 to 4,714 petitions at the end of FY 2010. This increase in the
backlog was due in part to the fact that the number of clemency petitions
received by the OPA more than doubled from FY 2005 to FY 2010, and the
President did not make any decisions on clemency petitions from the time he
took office in January 2009 through FY 2010. However, we note that during
the first 5 months of FY 2011 (October 1, 2010 through February 28, 2011),
the President granted 9 pardons while denying 131 pardon petitions and
1,157 commutation petitions. These Presidential decisions resulted in a
slight decrease in the backlog of clemency petitions to 4,194 as of the end of
February 2011. In May 2011, the President then granted 8 more pardons
and denied 741 pardon and 1,947 commutation petitions. This most recent
Presidential action reduced the total backlog to 2,064 petitions as of the end
of August 2011.

      Although the backlog increased from FY 2005 to FY 2010, we also
found that the number of petitions processed by the OPA increased by
61 percent during that time.12 As of the end of FY 2010, 29 percent of the
4,714 petitions in the backlog were at the OPA, 18 percent were at the
ODAG, and 52 percent were at the White House. Therefore, more than half
of the backlog was outside of DOJ’s control at this time.13

       We found that during our audit scope, on average it took almost
2 years to process clemency petitions from the OPA’s receipt of the petition
to the President’s final decision, which may have contributed to the growing
backlog. During the time that a petition is at the OPA, the petition may be
referred to various entities for information regarding the petitioner, the
petitioner’s offense, or for an opinion on whether clemency should be
granted. The OPA typically requests a response within 30 days from the
date of the referral, but does not follow up with the component on
outstanding referrals until 60 days past the date of the referral.

                                                            
              12
        Petitions are considered processed by the OPA when the first report and
recommendation is sent to the ODAG for review and signature.
              13
            Due to the Presidential decisions made during the first 5 months of FY 2011 and
in May 2011, the percentage of the backlog residing at the OPA, ODAG, and White House
shifted. According to the OPA, as of the end of August 2011, 47 percent of the 2,064
backlogged petitions were at the OPA, 31 percent were at the ODAG, and 21 percent were
at the White House. Due to the timing of these Presidential decisions we did not audit these
statistics. Therefore, the remaining sections of this Executive Summary generally cover our
audit scope which ended at the close of FY 2010.



                                                               v
 


       We found that a significant cause of the delay in processing clemency
petitions was that the entities receiving referrals did not always respond to
the OPA’s referrals within the period of time required by the entities’ internal
guidelines or the period of time requested by the OPA. We determined that
according to ECTS, during the period covered by our audit, the average
response time for an entity receiving a referral was 124 days (4.1 months)
per petition, ranging from 30 days (1 month) to more than 489 days
(16.3 months). In addition, the entities receiving referrals generally did not
notify the OPA if additional time was required to provide a response. We
also found that the OPA often did not follow up on outstanding referrals
within the 60 days required by its internal policy.

      We identified 10 DOJ components that received referrals from the OPA
during the period covered by our audit: (1) ATF; (2) BOP Headquarters and
Wardens; (3) DEA; (4) FBI; (5) USAOs; (6) Antitrust Division; (7) Civil
Division; (8) Civil Rights Division; (9) Criminal Division; and (10) Tax
Division. Eight of the 10 DOJ components have established internal
guidelines that require them to respond to the OPA within 30 days or less, or
to advise the OPA if an unusual delay is anticipated. The FBI has longer
internal deadlines because of its role in performing background
investigations and translation services. The FBI’s timeframes are
120 calendar days for background investigations and 1 month for translation
services. ATF did not have established timeframes for responding to the
OPA’s referrals.

       We found that according to ECTS, DOJ components that received
referrals from the OPA took an average of 112 days (3.7 months) per
petition to provide a response to the OPA.14 On average, the response times
of five components, the DEA, Antitrust Division, ATF, Tax Division, and Civil
Division, did not materially exceed their own established timeframes or the
OPA’s requested response time. The average response time per petition for
these components ranged between 30 and 49 days. However, we found that
on average, the response times for the remaining five components, the BOP
institutions or contract facilities, all USAOs that received OPA referrals, Civil
Rights Division, FBI, and Criminal Division, materially exceeded the
established timeframes for responding to OPA referrals.15 The average
                                                            
              14
          We excluded the FBI from our calculation of the average response time for DOJ
components because full background investigations may take significantly longer than the
other types of requests included in the OPA’s referrals.
              15
           OPA referrals to the FBI included requests for limited background investigations,
full background investigations, and translation services. However, we found that ECTS does
not track these services separately. Therefore, we were unable to separate this information
and instead could only determine the average amount of time a petition is at the FBI.



                                                               vi
 


response time per petition for these components ranged from 105 days
(3.5 months) to 489 days (1.3 years), and exceeded the established time
frames by a range of 90 days (3 months) to 459 days (1.3 years).

       Further, we found that during the time period covered by our audit,
petitions were at the ODAG for an average of 142 days (4.7 months)
pending review of the report and recommendation. Finally, petitions were
pending at the White House for an average of 282 days (9.4 months) before
a decision was made by the President. Thus, the timeframe that petitions
were pending at the White House, while outside the control of DOJ,
significantly contributed to the increased backlog of clemency petitions.

       In our report, we make 10 recommendations to assist the OPA, DOJ
components, and the ODAG in processing clemency petitions in a more
efficient manner, which we believe may facilitate further reduction of the
backlog.

      Our report contains detailed information on the full results of our
review of DOJ’s processing of clemency petitions. The remaining sections of
this Executive Summary summarize in more detail our audit findings.

Analysis of Clemency Petitions and the Backlog

Processing Clemency Petitions

      At each stage in the processing of a clemency petition, the OPA
assesses the merit of the petition using the standards set forth in the
U.S. Attorneys’ Manual, § 1-2.112 through § 1-2.113.16 The review
approach varies based on whether the petition appears to be of sufficient
merit.

      To ensure consistency in assessments and recommendations, the
Pardon Attorney reviews each report and recommendation to ensure that the
recommendation complied with the established standards. In addition, all
OPA reports and recommendations are reviewed by ODAG and White House
personnel. However, ultimately the power to grant clemency is vested solely
in the President.

     Based on discussions with the OPA and our review of a sample of
clemency petition case files, we identified the procedures used to process
clemency petitions. As noted previously, in our judgment, based on the

                                                            
              16
          Clemency petitions include both pardons and commutations. Commutations
include requests for reduction of sentence, remission of fine, and reprieve.


                                                               vii
 


procedures identified, we found that the OPA utilized a reasonable approach
to investigate the merit of clemency petitions and develop its
recommendations. In addition, the reports and recommendations undergo
an extensive review before they are provided to the President. The
procedures for processing clemency petitions are detailed in Appendix IV.

Clemency Petition Backlog

      We found that the backlog of clemency petitions increased by
92 percent from the beginning of FY 2005 to the end of FY 2010, as shown
in Exhibit 1.

                                EXHIBIT 1 

            BACKLOG OF CLEMENCY PETITIONS BY FISCAL YEAR END

                        FISCAL YEARS 2005 – 2010 


    5,000                                                                       4,714
    4,000
                         2,650                  3,055                 3,007
    3,000      2,459               2,224                  2,172
    2,000
    1,000
       0
             Beginning   FY 2005   FY 2006     FY 2007   FY 2008      FY 2009   FY 2010
              FY 2005


Source: Office of the Inspector General (OIG) analysis of ECTS data

      The increased backlog from FY 2005 to FY 2010 was due, in part, to
the increased number of clemency petitions received by the OPA during that
time, while the number of petitions decided by the President decreased
during FYs 2009 through 2010, as shown in Exhibit 2.




                                             viii
 


                                             EXHIBIT 2 

                             PETITIONS RECEIVED, DECIDED, AND CLOSED17

                                     FISCAL YEARS 2005 - 2010 



    3,000                                                                             2,741
                                                                                                2,620
                                                                                  2,325                        2,162
    2,000                                                                                           1,438
                    1,059          1,071                           1,259
                              1,013
    1,000               539                                                 411                                        455
                          329          368                                               467            347
                                                                       17                                          0
             0
                          FY 2005                     FY 2006        FY 2007        FY 2008       FY 2009       FY 2010

                            Received by OPA                     Decided by the President       Closed by OPA

Source: OIG analysis of ECTS data

      Despite the increased backlog, we found that the number of petitions
processed by the OPA increased from 1,075 in FY 2005 to 1,733 in FY 2010.
Although our audit scope ended at the end of FY 2010, we observed that
during the first 5 months of FY 2011, the President granted 9 pardons while
denying 131 pardon and 1,157 commutation petitions. The Presidential
decisions resulted in a slight decrease in the backlog of clemency petitions to
4,194 as of the end of February 2011. Further, we found that at this time
over half of the backlog was outside DOJ’s control because the petitions had
been forwarded to the White House for Presidential decision, as shown in
Exhibit 3.




                                                            
              17
           Petitions decided by the President and petitions closed by the OPA include
petitions that may have been received in a previous fiscal year.



                                                                            ix
 


                                                                 EXHIBIT 3 

                                                           BACKLOG OF PETITIONS18


                                                        BACKLOG   PERCENTAGE    BACKLOG   PERCENTAGE
      LOCATION OF                                         ECTS DATA AS OF         ECTS DATA AS OF
       PETITIONS                                            9/30/2010              2/28/201119
     OPA                                                 1,386        29%        1,280       31%
     ODAG                                                  860        18%          464       11%
     White House                                         2,468        52%        2,450       58%
     Total Backlog                                       4,714      100%         4,194      100%
    Source: OIG analysis of ECTS data

      An aging schedule of the backlog of petitions as of the end of FY 2010
is shown in Exhibit 4.




                                                            
              18
           The sum of the individual numbers prior to rounding may differ from the sum of
the individual numbers rounded.
              19
          As previously noted, in May 2011, the President granted 8 pardons while denying
an additional 741 pardon and 1,947 commutation petitions. According to the OPA, this
most recent Presidential action reduced the total backlog to 2,064 petitions as of the end of
August 2011, with 47 percent of those petitions at OPA, 31 percent at the ODAG, and
21 percent pending at the White House. Due to the timing of these Presidential decisions
we did not audit these statistics. Therefore, the remaining sections of this Executive
Summary generally cover our audit scope which ended at the close of FY 2010.



                                                                     x
 


                                                  EXHIBIT 4 

                                    AGING SCHEDULE OF BACKLOG PETITIONS 

                                          AS OF THE END OF FY 2010 


          900
                                                                                                  796
          800

          700                                                                      649

          600

          500                                                                                 460
                                                    434

          400
                                 282                                    307
          300
                                           201                                                                      198         240
                     190                                                                    206
                                        174                                   158
          200                                                                    133                    137
                            66                                 83
          100
                                                                    0                                         0 0         0 0         0 0
              0
                       0 to 30            31 to 60             61 to 90 91 to 180 181 days              1 to 1.5    1.5 to 2    2+ years
                        days                days                 days     days    to 1 year              years       years

                                 Petitions at OPA                       Petitions at ODAG           Petitions at White House

       Source: OIG analysis of ECTS data

      As shown in Exhibit 4, at the end of FY 2010 the oldest petitions
resided at the OPA, with 12 percent of the total backlog being over 1 year
old.

      As a result of our audit, the OPA implemented new procedures
designed to decrease the length of time a petition is at the OPA and further
reduce the backlog. In June 2010, the OPA began generating a monthly
report that identifies pardon petitions that have been at the OPA for more
than 1 year and commutation petitions that have been at the OPA for more
than 9 months prior to being sent to the ODAG. OPA attorneys are currently
using this report as a management tool for prioritizing the OPA’s efforts in
processing petitions, to correct any incorrect information, and to assist in
monitoring delayed responses to referrals.

      We also found that of the 12,897 petitions included in our audit scope,
5,806 petitions had a final clemency decision signed by the President as of
the end of FY 2010.20 Of the 5,806 clemency decisions made during

                                                            
              20
          Presidential clemency decisions do not include petitions that were administratively
closed by the OPA.



                                                                                       xi
 


FYs 2005 through 2010, 177 clemency requests were granted (3 percent),
including 169 pardons, 7 commutations, and 1 commutation and remission.

Clemency Petition Processing Times

      During our audit scope, we found that on average, it took 721 days
(nearly 2 years) from the time the OPA received a petition until a final
clemency decision was made by the President, as shown in Exhibit 5.

                            EXHIBIT 5 

               AVERAGE NUMBER OF YEARS BETWEEN 

                OPA’S RECEIPT OF A PETITION AND 

         THE FINAL CLEMENCY DECISION BY FORM OF RELIEF 

                    FISCAL YEARS 2005 – 2010 


                                                AVERAGE TIME BETWEEN THE
                                               OPA’S RECEIPT OF A PETITION
                                                   AND FINAL CLEMENCY
               FORM OF RELIEF                          DECISIONS
      Pardon                                     1,194 days (3.27 years)
      Commutation                                  573 days (1.57 years)
      Commutation and Remission                    791 days (2.17 years)
      Remission Only                               795 days (2.18 years)
           For All Forms of Relief               721 days (1.98 years)
     Source: OIG analysis of ECTS data

      We also found that the average clemency petition processing time
improved between FYs 2005 through 2009, from over 3 years to less than
1 year. However, we anticipate that the average processing time will
increase in FY 2011 because no decisions were made by the President during
FYs 2009 through 2010. Therefore, for the petitions decided by the
President in FY 2011, there will be a corresponding increase in the average
processing time related to the fact that 2,468 petitions were pending at the
White House as of the end of FY 2010.

      We found that during our audit scope, the total processing time for a
clemency petition while at DOJ was an average of 423 days (1.16 years).
This processing time included the period from the OPA’s receipt of a petition
to the time the first report and recommendation were sent to the White
House.

      Because of the length of time it takes to process a clemency petition
on average, petitions may be administratively closed prior to a decision by
the President due to the petitioner’s release from imprisonment, the death of


                                         xii
 


the petitioner, or withdrawal of the petition. During our audit scope,
729 petitions (11 percent) were administratively closed by the OPA after the
report and recommendation had been sent to the White House, but before
the President made a final clemency decision.

      We found that during our audit scope, clemency petitions, on average,
were pending longest at the OPA (293 days, or 9.8 months) as compared to
the ODAG (142 days, or 4.7 months) and the White House (282 days, or
9.4 months). We believe that this was due to the fact that the OPA is
responsible for reviewing and investigating the petitions, including referrals
to other entities, and for preparing the report and recommendation for the
Deputy Attorney General. In addition, a significant portion of the OPA’s
investigation of clemency petitions depends on information and comments
provided by outside individuals and agencies. The timeliness of responses to
the OPA’s referrals from other DOJ components and other entities greatly
impacts the length of time petitions are pending at the OPA. In fact, when
we removed the time that referrals were pending at various entities, we
found that the average OPA processing time was actually 197 days
(6.6 months).

      We found that the failure of the entities receiving referrals to respond
to the OPA within the period of time required by the entities’ guidelines, or
the period of time requested by the OPA significantly contributed to the
delays in processing clemency petitions. In its referral requests, the OPA
typically requests a response within 30 days from the date of the referral,
with the exception of referrals to the FBI for background investigations.
However, under its current process, the OPA does not follow up on
outstanding referrals until 60 days after the initial referral.

      We determined that during the period covered by our audit, according
to ECTS, the average response time for an entity receiving a referral was
124 days (4.1 months), ranging from 30 days (1 month) to more than
489 days (16.3 months). However, some of the entities receiving referrals
are outside of DOJ’s control, such as the petitioner, petitioner’s attorney,
U.S. Probation Office, Sentencing Judge, U.S. Immigration and Customs
Enforcement, Internal Revenue Service, and the Secretary of the military
branch that had original jurisdiction over the court-martial trial and
conviction of the petitioner. Excluding these entities and the FBI, we
determined that referrals were at DOJ components for an average of
112 days (3.7 months) before a response was provided to the OPA.

      We also found that the OPA did not always follow up on outstanding
referrals or did not follow up within its own prescribed timeframes. During
our case file review of a statistical sample of 313 petitions, we found that the


                                      xiii
 


OPA failed to follow up on 43 percent of the referrals for which a response
was not provided within 60 days. Further, for the referrals for which the
OPA did follow up, the average follow-up time was 168 days (5.6 months)
after the initial referral.

       In June 2010, in response to our audit, the Pardon Attorney
implemented a monthly report that lists petitions with a referral outstanding
for more than 60 days, which should enhance the timeliness of follow-up on
referrals. OPA attorneys are currently using this report as a management
tool for policing delayed responses. However, our report also contains
additional recommendations to improve the timeliness and tracking of
referrals, and to enhance follow-up.

      We also found that in June 2010, the OPA established a separate
e-mail address to request and receive documentation from the BOP
electronically. Previously, all referrals to the BOP were processed through
the mail.21 This new procedure should improve the timeliness for requesting
and receiving information from the BOP. In 2011, the OPA also began
sending referrals electronically to the USAOs, FBI, and U.S. Probation Office,
but the remaining referrals to other entities are still sent through regular
mail. Therefore, we recommend that the OPA process all future referrals
electronically.22

      As we described previously on page vi, we identified 10 DOJ
components that received referrals from the OPA during the period covered
by our audit.23 Eight of the 10 DOJ components have set internal guidelines
that require them to respond to the OPA within 30 days or less. For
example, the BOP requires its Wardens to respond within 15 working days,
while the USAOs and DOJ’s litigating divisions fall under the guidelines
established in the U.S. Attorneys’ Manual or internal guidelines to respond
within 30 days or advise the OPA if an unusual delay is anticipated. As we
previously noted, because of its unique role of performing background
                                                            
              21
           According to the Pardon Attorney, with the implementation of electronic referrals
for all BOP requests, the cost for mail services was reduced by approximately $15,000 as of
the spring of 2011.
              22
           The only documents that cannot be transmitted electronically are documents that
require original signatures, such as the petition, the report and recommendation transmitted
to the ODAG for review and signature, and the signed report and recommendation
transmitted to the White House.
              23
            The 10 DOJ components included the USAOs and BOP institutions or contract
facilities. Not all of the USAOs and BOP institutions or contract facilities received referrals
from the OPA during the period covered by our audit. Referrals were sent to 90 of the
93 USAOs and 124 of the 129 BOP institutions or contract facilities.


                                                               xiv
 


investigations and language translation services for the OPA, the FBI has
developed longer timeframes for the services it provides. During the scope
of our audit, the FBI’s internally established deadlines were 120 calendar
days for background investigations, and about 1 month for translation
services. However, in November 2010, the FBI reduced its internal deadline
for background investigations to 60 days. ATF officials told us that ATF
strives to meet the OPA’s 30 day timeframe but it did not have established
internal timeframes for responding to the OPA’s referrals.

       As we also noted previously, of the 10 identified DOJ components, we
found that 5 of them (DEA, Antitrust Division, ATF, Tax Division, and Civil
Division) did not materially exceed established timeframes, or the OPA’s
requested response time. According to ECTS, the average response time for
these components ranged between 30 days (1 month) and 49 days
(1.6 months) per petition. However, as we describe more fully in our report,
we found that on average the response times, as shown in ECTS, for the
remaining five components (BOP institutions and contract facilities, USAOs,
Civil Rights Division, FBI, and Criminal Division) ranged from 105 days
(3.5 months) to 489 days (1.3 years) per petition, which materially
exceeded established timeframes, as shown in Exhibit 6.




                                    xv
 


                                        EXHIBIT 6 

                       AVERAGE REFERRAL RESPONSE TIME PER PETITION 

                                 FISCAL YEARS 2005 - 2010 


                                                                                    ESTABLISHED
                                                               AVERAGE TIME AT   TIMEFRAME AT EACH
           REFERRAL AGENCY                                      EACH AGENCY            AGENCY
    BOP (Referrals to Wardens Only)                              105 days             15 days
    USAOs                                                        153 days             30 days
    DOJ Civil Rights Division                                    263 days             30 days
    FBI                                                          343 days            120 days24
    DOJ Criminal Division                                        489 days25           30 days
Source: OIG analysis of ECTS data

       As shown above, for OPA referrals to BOP Wardens the average
response time was 105 days (3.5 months), which materially exceeded
established timeframes. Although the BOP as a whole did not respond to
OPA referrals in a timely manner, it should be noted that for referrals which
were required to be sent to BOP Headquarters, the average response time
was only 45 days, which did not materially exceed established timeframes.
Additionally, during our audit FBI officials stated that the FBI utilizes an
internal tracking database to monitor the progress of all background
investigations. According to the FBI’s database, background investigations
for clemency petitions conducted from FY 2005 to May 2010 averaged
232 days (7.7 months) per referral. Therefore, even when we use the
232 days, the FBI materially exceeded its 120 day timeframe.

       Based on interviews and questionnaires sent to DOJ components that
received referrals from the OPA, we found that common reasons provided as
to why the components took so long to respond included: (1) other
workload demands, (2) management and staff changes, (3) time spent
locating and reviewing files, (4) difficulty in locating the information because
the inmate and the inmate’s files were transferred from the facility receiving
                                                            
              24
           For the FBI we used the established deadline for background investigations
(120 days) because it was the longest period of time established for the three types of
referrals sent to the FBI.
              25
           The average time includes three petitioners who were prosecuted by the Criminal
Division’s former Counterespionage Section, which is now part of the National Security
Division. We found these to be valid referrals because the referrals occurred during the
time that the Counterespionage Section was a part of the Criminal Division and the Criminal
Division was the primary prosecuting agency. Nonetheless, if these petitions were removed
from our calculation, the average response time for the Criminal Division would be 233 days
(7.8 months) per petition.



                                                                xvi
     


    the request, (5) time spent contacting or coordinating with other
    components that might have information related to the petitioner, and
    (6) the component lacked a system to track and monitor the request. As a
    result, our report includes recommendations to ensure that these DOJ
    components respond to OPA referrals in a more timely manner.

           We further analyzed specific OPA referrals for which, according to
    ECTS, the referral was pending at the BOP Wardens, USAOs, or FBI for a
    significant period of time, to determine the reasons why the referrals were
    shown as pending in ECTS for a significant period of time, as shown in
    Exhibit 7.

                                             EXHIBIT 7 

                            CLEMENCY PETITION REFERRALS PENDING IN ECTS

                                  FOR SIGNIFICANT PERIODS OF TIME


                                                                       ECTS
                                                                     RESPONSE
                                                                      DATE OR
                                                            ECTS       DATE
                                                           INITIAL    CLOSED
                              DOJ                         REFERRAL   WITH NO    ECTS TOTAL              DOJ COMPONENT
OPA CASE NO.               COMPONENT                        DATE     RESPONSE      TIME                REASON FOR DELAY
                                                                                1,965 days      Monitoring procedures were
2000-11-0247                       BOP                    12/07/00   04/25/06
                                                                                (5.4 years)     not effective.
                                                                                                No records or inmate file to
                                                                                1,188 days      review regarding the
2004-09-1060                       BOP                    09/08/04   12/10/07
                                                                                (3.3 years)     non-response. Inmate was
                                                                                                released 04/25/05.
                                                                                                USAO does not know reason
                                                                                2,541 days      for no response due to passed
2000-01-0330                     USAO                     03/07/00   02/20/07
                                                                                (6.9 years)     time and movement of
                                                                                                personnel.
                                                                                                USAO responded on 12/19/08.
                                                                                 1,661 days     The delay resulted from
2001-08-1682                     USAO                     11/09/05     ---
                                                                                (4.6 years)26   misplacement of the petition
                                                                                                and file.27




                                                                
                  26
              This referral was outstanding as of the May 28, 2010, OIG data query that
    included petitions pending at the beginning of FY 2005 and clemency petitions opened
    between FY 2005 and May 28, 2010. The referral was still outstanding as of the
    September 30, 2010, data query.
                  27
                         According to the OPA, the response was not received until February 20, 2009.



                                                                         xvii
       


                                                                         ECTS
                                                                       RESPONSE
                                                                        DATE OR
                                                              ECTS       DATE
                                                             INITIAL    CLOSED
                                DOJ                         REFERRAL   WITH NO     ECTS TOTAL            DOJ COMPONENT
 OPA CASE NO.                COMPONENT                        DATE     RESPONSE       TIME              REASON FOR DELAY
                                                                                                 First request was returned
                                                                                                 unopened - unable to conduct
                                                                                                 background investigation
                                                                                   1,431 days    because petitioner was not a
 2005-10-0002                         FBI                   11/04/05     ---
                                                                                   (3.9 years)   U.S. citizen. A subsequent
                                                                                                 request was received 01/17/08
                                                                                                 and the FBI returned a
                                                                                                 response on 03/10/08.28
                                                                                                 First request returned
                                                                                                 unopened. A subsequent
                                                                                   1,479 days
 2005-11-0087                         FBI                   05/10/06     ---                     request was received 08/25/09
                                                                                   (4.1 years)
                                                                                                 and the FBI returned a
                                                                                                 response on 02/02/10.29
Source: OIG analysis of ECTS data, sampled BOP institution or contract facility Wardens, sampled USAOs,
        the FBI, and the OPA

            We also found that petitions spent an average of 142 days
      (4.7 months) at the ODAG pending review of the OPA’s report and
      recommendation. The ODAG officials told us that timeliness in processing
      the reports and recommendations can be impacted by an administration
      change or the lack of a confirmed Deputy Attorney General. However, we
      found that during the 11-month period for which there was an Acting Deputy
      Attorney General, from February 2010 through December 2010, the Acting
      Deputy Attorney General processed more than 90 percent of the reports and
      recommendations provided by the OPA. Further, ODAG officials also stated
      that the ODAG does not have any timelines or any documented policies or
      procedures for reviewing the OPA’s reports and recommendations regarding
      clemency petitions. Therefore, our report includes a recommendation that
      the ODAG should develop policies, procedures, and timeframes for reviewing
      the OPA’s clemency reports and recommendations in order to help ensure
      that the ODAG reviews the OPA’s reports and recommendations in a timelier
      manner. In addition, we recommended that the OPA provide the ODAG with
                                                                  
                    28
                According to the OPA, its case file confirmed the FBI’s response. The Pardon
      Attorney stated that the OPA should have closed the referral after determining the FBI was
      unable to conduct the background investigation.
                    29
                  According to the OPA, the case file documented that the FBI incorrectly closed the
      initial background investigation request. When the OPA discovered the error on July 31,
      2009, it issued a subsequent referral on August 25, 2009. The Pardon Attorney stated that
      the OPA should have closed the initial referral after determining the FBI’s error, or at the
      very least upon issuing the subsequent referral.


                                                                           xviii
 


a monthly aging report listing clemency petitions that are currently pending
at the ODAG. As a result, beginning in March 2011, the OPA began
providing the ODAG with a monthly aging report that lists clemency petitions
pending at the ODAG and the date the reports and recommendations were
provided to the ODAG.

      Finally, we found that petitions were at the White House for an
average of 282 days (9.4 months) before a decision was made by the
President. This average, while outside the control of DOJ, significantly
contributed to the increased backlog of clemency petitions from FY 2005 to
FY 2010.

Conclusion and Recommendations

      We found that the backlog of clemency petitions almost doubled from
FY 2005 to FY 2010, although it began to decrease in FY 2011. Further, we
found during our audit scope that it took an average of almost 2 years from
the time the OPA received a petition until a final clemency decision was
made by the President, which we believe contributed to the growing backlog
during that time period. In our judgment, a significant factor related to the
length of time it took to process a clemency petition is that the entities
receiving referrals did not always respond to the OPA within the established
timeframes. We also found that the OPA did not always follow up on
outstanding referrals or did not follow up within its established timeframes.
Furthermore, it took the ODAG an average of 142 days (4.7 months) to
review OPA’s reports and recommendations, and it took the White House an
average of 282 days (9.4 months) to make a decision on clemency petitions
during this timeframe.

      Our audit work and findings resulted in 10 recommendations to assist
the OPA, DOJ components, and the ODAG in processing clemency petitions
in a more efficient manner. For example, we recommend that:

    	 The OPA implement procedures to ensure that follow-up is conducted
       on outstanding referrals within its established timeframes; process all
       future referrals electronically; include an aging report detailing all open
       referrals when following up with the USAOs; and develop procedures
       that ensure that its case management system is updated to document
       changes in the status of referrals.

    	 DOJ components implement procedures to ensure they respond to the
       OPA’s referrals in accordance with established internal guidelines.




                                       xix
 


    	 The ODAG develop policies, procedures, and timeframes for reviewing
       the OPA’s clemency reports and recommendations to help ensure that
       it responds to the OPA in a timely manner.




                                     xx
 


               AUDIT OF THE DEPARTMENT OF JUSTICE 

               PROCESSING OF CLEMENCY PETITIONS


                                TABLE OF CONTENTS


INTRODUCTION ................................................................................. 1 


       OPA Responsibilities and Functions ................................................ 4 


       Filing of Clemency Petitions & Administrative Closures ..................... 6 


       Processing Clemency Petitions ...................................................... 7 


       Executive Clemency Tracking System .......................................... 10 


       OIG Audit Approach .................................................................. 10 


FINDINGS AND RECOMMENDATIONS ................................................... 13 


I. 	   ANALYSIS OF CLEMENCY PETITIONS AND THE BACKLOG................ 13 


       Processing Petitions................................................................... 13 


       Clemency Petition Backlog.......................................................... 15 


       Clemency Decisions................................................................... 21 


       Conclusion ............................................................................... 25 


II.    TIMELINESS OF PROCESSING CLEMENCY PETITIONS..................... 27 


       Overall Clemency Petition Processing Time ................................... 27 


       OPA’s Clemency Petition Processing Time ..................................... 30 


       DOJ’s Clemency Petition Processing Time ..................................... 32 


       OPA Referrals and Follow-up....................................................... 32 


       DOJ Component Referrals .......................................................... 37 


           DOJ Components Generally Meeting Established Timeframes ...... 38 





 
 


             Drug Enforcement Administration........................................ 38 


             Antitrust Division .............................................................. 39 


             Bureau of Alcohol, Tobacco, Firearms and Explosives ............. 39 


             Tax Division ..................................................................... 40 


             Civil Division .................................................................... 40 


          DOJ Components Materially Exceeding Established Timeframes ... 40 


             Federal Bureau of Prisons .................................................. 41 


             U.S. Attorneys’ Offices ...................................................... 46 


             Civil Rights Division .......................................................... 50 


             Federal Bureau of Investigation .......................................... 51 


             Criminal Division .............................................................. 55 


      Office of the Deputy Attorney General.......................................... 57 


      White House ............................................................................ 61 


      Conclusion ............................................................................... 61 


      Recommendations..................................................................... 62 


STATEMENT ON INTERNAL CONTROLS ................................................. 65 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 66 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 67 


APPENDIX II - LAWS AND REGULATIONS.............................................. 73 


APPENDIX III - CLEMENCY DEFINITIONS AND GUIDELINES .................... 83 


APPENDIX IV - CLEMENCY PETITION RECEIPT AND PROCESSING............. 87 


APPENDIX V – OPA’S RESPONSE ......................................................... 93 




 
 


APPENDIX VI – BOP’S RESPONSE ........................................................ 95 


APPENDIX VII – EOUSA’S RESPONSE ................................................... 96 


APPENDIX VIII – CIVIL RIGHTS DIVISION’S RESPONSE .......................... 97 


APPENDIX IX – FBI’S RESPONSE ......................................................... 99 


APPENDIX X – CRIMINAL DIVISION’S RESPONSE................................. 102 


APPENDIX XI – ODAG’S RESPONSE ................................................... 105 


APPENDIX XII - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

               CLOSE THE REPORT .................................................. 106 





 
 
 
 
 
 
 
 
 
 
    This page intentionally left blank.
 




 
                                                               INTRODUCTION

       The Office of the Pardon Attorney (OPA), in consultation with the
Attorney General or his designee, assists the President in the exercise of
executive clemency as authorized under Article II, Section 2, of the
Constitution. Specifically, Article II, Section 2 states that the President
“shall have Power to Grant Reprieves and Pardons for Offenses against the
United States, except in Cases of Impeachment.” Under the Constitution,
the President's clemency power applies to federal criminal offenses, which
include all criminal violations of the U.S. Code and the District of Columbia
Code as well as violations of the Uniform Code of Military Justice.30
According to 28 Code of Federal Regulations (C.F.R.) § 1.1, the forms of
clemency include:

       	 Pardon - A pardon is an indication of forgiveness. A Presidential
          pardon will restore certain rights lost as a result of the pardoned
          offense, such as the right to vote and bear firearms. It also should
          lessen to some extent the stigma arising from a conviction. However,
          it will not erase or expunge the record of conviction. Under
          Department of Justice (DOJ) rules governing petitions for executive
          clemency, there is a minimum waiting period of 5 years after
          completion of sentence before petitioners are eligible to apply for a
          Presidential pardon.

       	 Commutation of Sentence - A commutation of sentence reduces the
          sentence being served, but it does not imply forgiveness of the
          offense, does not have any impact upon the conviction itself, and does
          not remove disabilities attendant to the conviction. Requests for
          commutation of a prison sentence generally are not accepted unless
          the petitioner has begun serving the sentence. In addition,
          commutation requests are generally not accepted from a petitioner
          who is currently challenging his or her conviction or sentence through
          appeal or other court proceeding. A commutation petition may
          include:

                                    o	 Remission of Fine or Restitution – A remission of fine
                                       or restitution includes a full or partial remission of any
                                       fines or restitution imposed by the court.


                                                            
              30
          The President’s clemency power does not extend to state criminal offenses.
Clemency for state criminal convictions falls under the authority of the Governor or other
appropriate authorities for the state where the conviction occurred (e.g., the state board of
pardons and paroles).
 


                                    o	 Reprieve – A reprieve delays the impending punishment
                                       or sentence, including a temporary delay in the execution
                                       of capital punishment. A reprieve is temporary in nature,
                                       designed to allow more time to review matters related to
                                       the case. A request for reprieve may be included in the
                                       commutation petition.

      The OPA reports clemency statistics from fiscal year (FY) 1900 to the
present on its website. During FY 1900 through August 2011, the Presidents
of the United States have granted 22 percent of the more than
95,000 clemency petitions received, including 14,296 pardons,
4,955 commutations, 1,097 remissions of fines, and 336 respites, as shown
in Exhibit 1.31




                                                            
              31
           Respite, a temporary delay in the execution of capital punishment, was formerly
included as a separate type of clemency. However, respite is no longer used and petitions
related to a delay in capital punishment cases are now included in the reprieve category,
which would similarly be temporary in nature and designed to allow more time to review
matters related to the case.



                                                               2

 


                                               EXHIBIT 1 

                                  CLEMENCY GRANTED BY U.S. PRESIDENTS32

                                        FISCAL YEARS 1900 - 2011 


                                                        FISCAL
                                                       YEARS OF                              REMISSION
                                                      PRESIDENCY    PARDONS   COMMUTATIONS    OF FINES   RESPITE
                                                               33
           PRESIDENT                                                GRANTED     GRANTED       GRANTED    GRANTED
     William McKinley34                                1900-1901        291        123            26        6
     Theodore Roosevelt                                1902-1909        668        363            59        9
     William Taft                                      1910-1913        383        361            72       15
     Woodrow Wilson                                    1914-1921      1,087      1,366           148      226
     Warren Harding                                    1922-1923        300        386            39       48
     Calvin Coolidge                                   1924-1929        773        773           126       19
     Herbert Hoover                                    1930-1933        672        405           120        1
     Franklin D. Roosevelt                             1934-1945      2,819        488           477       12
     Harry S. Truman                                   1945-1953      1,913        118            13      N/A
     Dwight D. Eisenhower                              1953-1961      1,110         47             0      N/A
     John F. Kennedy                                   1961-1964        472        100             3      N/A
     Lyndon B. Johnson                                 1964-1969        960        226             1      N/A
     Richard M. Nixon                                  1969-1975        863         60             3      N/A
     Gerald E. Ford                                    1975-1977        382         22             5      N/A
     Jimmy Carter                                      1977-1981        534         29             3      N/A
     Ronald Reagan                                     1981-1989        393         13             0      N/A
     George H.W. Bush                                  1989-1993         74          3             0      N/A
     William J. Clinton                                1993-2001        396         61             2      N/A
     George W. Bush                                    2001-2009        189         11             0      N/A
     Barack H. Obama                                   2009-             17          0             0      N/A
                                                       201135
                   Total                                            14,296       4,955        1,097       336
    Source: OPA




                                                            
              32
           Cases in which multiple forms of relief were granted are counted in only one
category. The figures for commutations exclude one reprieve granted in FY 2000 and one
reprieve granted in FY 2001. Also excluded from this exhibit are individual members of a
class of persons granted pardons by proclamation, such as President Carter’s proclamation
granting clemency to certain Vietnam-era offenders, and persons granted clemency after
action by President Ford’s Presidential Clemency Board.
              33
                     Prior to 1976, the federal fiscal year was defined as July 1 to June 30.
              34
         President McKinley’s presidential term was from March 4, 1897, through
September 14, 1901; however, the OPA does not report clemency statistics prior to
FY 1900.
              35
           Clemency statistics for President Obama are through August 2011. We did not
audit the statistics for FY 2011.



                                                                        3

 


      The backlog of petitions has steadily increased since FY 1900 and
escalated to more than 3,000 petitions in FY 2002, which corresponded to a
rapid increase in the number of petitions filed, as shown in Exhibit 2.36

                            EXHIBIT 2 

     CLEMENCY PETITIONS RECEIVED AND BACKLOG BY FISCAL YEAR 

                    FISCAL YEARS 1900 – 2010 


                                                         Petitions Received    Petitions Backlog
    3500


    3000


    2500


    2000


    1500


    1000


    500


         0


                                         Fiscal Year
Source: Office of the Inspector General (OIG) analysis of OPA statistics

      Although the OPA processes petitions related to requests of full
pardons resulting from military convictions, by long-standing convention, the
President does not entertain petitions for commutation of a military
sentence, but rather defers to military authorities on such matters.
Appendix III provides additional detail regarding clemency definitions and
guidelines.

OPA Responsibilities and Functions

      The mission of the OPA is “to assist the President in the exercise of his
constitutional pardoning power by providing him with the best information
                                                            
              36
           Throughout this audit report we define the term “backlog” to include all clemency
petitions that have been received by the OPA, but have not received a final decision by the
President or been administratively closed by the OPA.


                                                                          4

 


available on which to base a fair and just decision in cases in which
applicants seek clemency.” According to 28 C.F.R. § 1.1, requests for
executive clemency for federal offenses should be directed to the OPA for
processing, with the exception of petitions relating to military offenses.37 In
FY 2010, the OPA consisted of six attorneys and six support staff, and had a
budget of $2.7 million.38

       The power to grant clemency is vested solely in the President. No
hearing is held on the clemency petition by either DOJ or the White House.
The OPA reviews clemency petitions and prepares a report and
recommendation, which is reviewed and signed by the Deputy Attorney
General and provided to the White House to assist the President in making
clemency decisions. The OPA also notifies the petitioner and any other
parties included in the petition process when a final decision is made on the
petition. As a matter of well established policy, the specific reasons for the
President's decision to grant or deny clemency are not disclosed by either
the White House or DOJ. There is no appeal from the President's decision to
deny a clemency petition. However, if a pardon petition is denied, a
petitioner may submit a new petition for consideration no earlier than
2 years from the date of denial. If a commutation petition is denied, a
petitioner may submit a new petition for consideration 1 year from the date
of denial.

      The OPA does not publicly disclose information regarding the nature or
results of any investigation undertaken to process a clemency petition, or
the exact point in the process at which a particular petition is pending at a
given time. In addition, documents reflecting deliberative communications
pertaining to Presidential decision-making, such as DOJ’s recommendations
to the President in clemency matters, are not available under the Freedom of
Information Act.

     The procedures governing the duties of the OPA are set forth in the
Code of Federal Regulations, which also provides that the OPA is subject to

                                                            
              37
           According to 28 C.F.R § 1.1, a petitioner applying for executive clemency with
respect to military offenses is directed to submit his or her petition directly to the Secretary
of the military branch that had original jurisdiction over the court-martial trial and
conviction of the petitioner.
              38
          Over the past 5 fiscal years, OPA’s staffing has had little change above or below
the FY 2010 numbers. Therefore, we believe the improvements discussed in this report are
due to process improvements, not staffing. The Pardon Attorney is a career position
selected by the Attorney General and heads the OPA. The OPA’s website is
www.justice.gov/pardon.



                                                               5

 


the direction of the Deputy Attorney General.39 The regulations “are
advisory only and for the internal guidance of DOJ Personnel. They create
no enforceable rights in persons applying for executive clemency, nor do
they restrict the authority granted to the President under Article II, Section 2
of the Constitution.” However, the regulations help ensure that there is an
accurate and adequate factual basis for DOJ’s recommendations to the
President on clemency petitions. The primary functions of the OPA are to:

       	     receive and review all petitions for executive clemency, conduct the
              necessary investigations, and prepare recommendations for the
              President, which are reviewed and signed by the Deputy Attorney
              General;40

       	     provide policy guidance for the conduct of clemency proceedings and
              the standards for decision;

       	     confer with individual clemency petitioners, petitioners’
              representatives, public groups, members of Congress, various federal,
              state, and local officials, and others in connection with the disposition
              of clemency proceedings; and

       	     maintain contacts with DOJ officials, the Counsel to the President, and
              other government officials, to advise them on clemency matters as
              requested.

Filing of Clemency Petitions & Administrative Closures

        Petitions for executive clemency for federal, non-military offenses
should be sent directly to the OPA. The petitions for pardons and
commutations are available on the OPA’s website, by mail from the OPA, and
from the Federal Bureau of Prison’s (BOP) case manager at each BOP
facility. A majority of petitioners complete the clemency petition without the
assistance of an attorney. Completed clemency petitions must be submitted
through the mail or by registered courier, because the petition must have
the petitioner’s original signature.


                                                            
              39	
                     28 C.F.R § 1.1 to 1.11 is detailed in Appendix II.
              40
           As mentioned previously, petitions for pardon of a military offense should first be
sent to the Secretary of the military branch that had original jurisdiction. Once the military
pardon petition has been reviewed by the appropriate Secretary, the petition along with any
required documentation is forwarded to the OPA for review and processing. By
long-standing convention, the President does not entertain petitions for commutation of a
military sentence, but rather defers to military authorities on such matters.


                                                               6

 


       The OPA may administratively close a clemency petition for a number
of reasons, including a failure to satisfy the 5-year waiting period in a
pardon petition, a petitioner’s release from prison before the petition was
decided upon, and the pursuit of a judicial remedy by a petitioner in a
commutation petition.41 An administrative closure may also occur due to the
death of a petitioner, withdrawal of the petition, or repeated failure of the
petitioner to provide requested information related to the petition.

Processing Clemency Petitions

       The OPA has few written policies and procedures for processing
clemency petitions. However, through interviews, memoranda, and our
review of a sample of clemency petition case files, we were able to identify
the procedures used by the OPA in processing clemency petitions. Based on
our interviews with the OPA and our review of clemency petition files, we
developed flowcharts illustrating the OPA’s procedures for processing pardon
petitions and commutation petitions, as shown in Exhibits 3 and 4.




                                                            
              41
           If a pardon petition is received prior to the end of the 5-year waiting period, it is
entered into the OPA’s Executive Clemency Tracking System (ECTS), described in greater
detail later in this report, with a notation that a waiver of the 5-year waiting period is
required. Further, the OPA does not process clemency petitions while a petitioner is
currently challenging his or her conviction or sentence through appeal or other court
proceeding.


                                                               7

       


                             EXHIBIT 3 

                          PARDON PROCESS 





Source: DOJ OIG and OPA




                                 8

       


                                    EXHIBIT 4 

                               COMMUTATION PROCESS 





Source: DOJ OIG and OPA

            Findings I and II of this report provide greater detail about DOJ’s role
      in the processing of clemency petitions. In addition, Appendix IV provides
      details on the specific processes used for processing pardon and
      commutation petitions.




                                             9

 


Executive Clemency Tracking System

       The OPA uses the Executive Clemency Tracking System (ECTS) to
track the progress of clemency petitions through the OPA, any referrals to
other entities, the Office of the Deputy Attorney General (ODAG), and the
White House. The system is also used to track correspondence. In addition,
the OPA utilizes two electronic logs that are maintained outside of ECTS for
data verification. These logs are the “cases filed” log, which is used to verify
petitions that are received by the OPA and the “cases closed” log, which is
used to track petitions that are administratively closed. At the end of each
month the information in each log is compared to a report generated from
ECTS to confirm the accuracy of the information in ECTS.

       OPA officials estimated that ECTS was created in 1990. However,
ECTS is labor intensive and the OPA’s ability to query the system for
statistical information is limited. As a result, in September 2010 the OPA
began system development for IQ, a new case tracking system designed to
replace ECTS. IQ is expected to be operational in November 2011 and will
run on the Justice Consolidated Office Network (JCON).42

OIG Audit Approach

      The objectives of this audit were to determine whether: (1) the OPA
has established effective procedures for processing and reducing the backlog
of clemency petitions, and (2) DOJ components have established effective
procedures to respond to the OPA's referrals in a timely manner.

       The scope of our audit generally included clemency petitions pending
at the beginning of FY 2005 and clemency petitions opened between
FYs 2005 and 2010.43 We tested the validity of all ECTS data included in the
scope of our audit, covering clemency petitions pending at the beginning of
FY 2005 and clemency petitions opened between FYs 2005 and 2010 to
identify any data entry errors, such as referral dates that occurred before
the petition was filed or referral response dates that occurred before the
referral was sent. We found that this ECTS data included 31 data entry
                                                            
              42
           At the time our audit was initiated, the OPA’s Information Technology services
were provided by a local contractor. However, in September 2010, the OPA replaced the
local contractor and transitioned to JCON, an IT system which provides interoperability
between DOJ components.
              43
         Throughout this audit report we use the term “pending” to indicate the status of
clemency petitions included in the backlog. Petitions are pending at the OPA, ODAG, or
White House. For example, a petition processed by the OPA that is awaiting review by the
ODAG would be considered “pending” at the ODAG.



                                                               10 

 


errors, which are detailed in the Objectives, Scope, and Methodology in
Appendix I.

      Our audit included 12,897 clemency petitions opened between
November 1993 and September 2010, and 40,226 referral and status
actions referred between December 1993 and September 2010, reported in
OPA’s ECTS.44 However, we considered information outside this period if it
was relevant to the audit, and the instances in which we considered such
information are noted in the report.

      As part of our audit approach, we analyzed the ECTS data in our scope
to determine various averages and percentages regarding the backlog,
processing times, response times, and clemency decisions. As of the end of
FY 2010, of the 12,897 petitions included in our audit scope, the President
made a clemency decision on 5,806 petitions, the OPA administratively
closed 2,377 petitions, and 4,714 petitions were pending at the OPA, ODAG,
or the White House.

      We conducted audit work at the OPA, ODAG, BOP, Federal Bureau of
Investigation (FBI), Executive Office for U.S. Attorneys, and Criminal
Division. We interviewed the Pardon Attorney and OPA staff responsible for
processing clemency petitions, as well as ODAG officials regarding the review
of clemency petitions. We also interviewed officials responsible for
responding to the OPA’s referrals for information, comments, and
recommendations related to clemency petitions. Additionally, we obtained
and analyzed the information from OPA’s ECTS and conducted a case file
review of a statistical sample of 313 petitions to verify the accuracy of the
information in ECTS and determine whether the case files contained any
additional information related to the OPA’s referrals, including
documentation of referrals sent and responses received from the entities
receiving OPA referrals that were not documented in ECTS.45

      Finally, questionnaires were sent to 10 DOJ components, the FBI,
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); Drug
Enforcement Administration (DEA); Antitrust Division; Civil Division; Civil
                                                            
              44
           The referral actions documented in ECTS track all OPA referrals to the petitioner,
petitioner’s attorney, and referral agencies, including the U.S. Attorneys’ Offices (USAO),
FBI, and BOP, for information, comments, and recommendations on clemency petitions.
Additionally, ECTS tracks the status of the report and recommendation during the time it is
at the ODAG or the White House for review.
              45
           A statistical sample of 313 petitions was selected to provide effective coverage of
audit relevant characteristics that include relief type, the number of referrals per petition,
referral dates, and petition date through stratified sample designs.



                                                               11 

 


Rights Division; Criminal Division; Tax Division, and samples of 30 of the
93 U.S. Attorneys’ Offices (USAO) and 41 of the 129 BOP institutions and
contract facilities.46 We sent the questionnaires to obtain an understanding
of the processes for responding to the OPA’s referrals requesting
information, comments, and recommendations on clemency petitions.




                                                            
              46
            Our sampling methodology is described in Appendix I, the Objectives, Scope, and
Methodology section of this report. Not all of the USAOs and BOP institutions or contract
facilities received referrals from the OPA during the period covered by our audit. Referrals
were sent to 90 of the 93 USAOs and 124 of the 129 BOP institutions or contract facilities.


                                                               12 

 


                                    FINDINGS AND RECOMMENDATIONS 


I.	           ANALYSIS OF CLEMENCY PETITIONS AND THE
              BACKLOG

              The OPA has few written policies and procedures for processing
              clemency petitions. However, based on discussions with the OPA
              and our review of a sample of clemency petition case files, we
              identified the procedures used to process clemency petitions.
              Based on the procedures identified, we found that the OPA
              utilizes a reasonable approach to investigate the merit of
              clemency petitions and develop its recommendations. In
              addition, the reports and recommendations provided to the
              President undergo an extensive review.

              We also found that despite the fact that the number of petitions
              processed by the OPA increased by 61 percent, from 1,075 in
              FY 2005 to 1,733 in FY 2010, the backlog of clemency petitions
              increased during that time by 92 percent, from 2,459 petitions at
              the beginning of FY 2005 to 4,714 petitions at the end of
              FY 2010. We believe that the backlog of clemency petitions as of
              the end of FY 2010 was due in part to the increased number of
              petitions received by the OPA during our audit scope. During
              this time the number of petitions received by the OPA more than
              doubled, while no decisions were made on clemency petitions
              between the time the current President took office in
              January 2009 to the end of FY 2010. As of the end of FY 2010,
              over 50 percent of the backlog was at the White House, pending
              review.47

Processing Petitions

     As noted above, we found that the OPA has few written policies and
procedures for processing clemency petitions. However, as a result of our
                                                            
              47
          During the first 5 months of FY 2011, the President granted 9 pardons while
denying 131 pardon and 1,157 commutation petitions. In May 2011, the President granted
an additional 8 pardons and denied 741 pardon and 1,947 commutation petitions. Due to
these Presidential decisions, the percentage of the backlog residing at the OPA, ODAG, and
White House shifted. According to the OPA, as of the end of August 2011, 47 percent of the
2,064 backlogged petitions were at the OPA, 31 percent were at the ODAG, and 21 percent
were at the White House. Due to the timing of these Presidential decisions we did not audit
these statistics. Therefore, the remaining sections of this report generally cover our audit
scope which ended at the close of FY 2010.



                                                               13 

 


audit we were able to identify and detail the procedures used by the OPA in
processing clemency petitions.48

       Requests for executive clemency for federal offenses are directed to
the OPA for investigation and review. At every stage in the processing of a
clemency petition the merit of a petition is assessed using the standards set
forth in the U.S. Attorneys’ Manual.49 For pardons, the principal factors
taken into account include: (1) post-conviction conduct, character,
reputation, and involvement in community service, or charitable or other
meritorious activities; (2) the nature, seriousness, and relative recentness of
the offense; (3) acceptance of responsibility, remorse, and atonement;
(4) need for relief; and (5) official recommendations and reports. Further,
the grounds for considering commutation have traditionally included
disparity or undue severity of sentence, critical illness or old age, and
meritorious service rendered to the government by the petitioner, such as
cooperation with investigative or prospective efforts that has not been
adequately rewarded by other official action. If at any time during the
process it is determined that the petition is not of sufficient merit to warrant
further investigation, a report recommending denial is prepared and
submitted to the ODAG for review and signature.

      Pardon petitions are reviewed and investigated by OPA attorneys
under the supervision of the Pardon Attorney. If a pardon petition is found
to have sufficient merit based on the initial review, a full background
investigation of the petitioner is conducted by the FBI. If the results of the
background investigation do not indicate any adverse information related to
the petitioner, the OPA refers the matter to the USAO in the district where
the petitioner was convicted and sentenced for comments and
recommendation.50 If applicable, comments and recommendations are also
requested from the sentencing judge and any identifiable victims through
the USAOs, DOJ litigating divisions, and other federal government
components involved in the investigation of the petitioner’s offense. After
the OPA receives relevant information pertaining to the petition, OPA
attorneys assess the merit of the petition and prepare a report and
recommendation for the review and signature of the Deputy Attorney
General.

                                                            
              48
                     Appendix IV details the OPA’s procedures for processing pardon and commutation
petitions.
              49
         U.S. Attorneys’ Manual, § 1-2.112 Standards for Considering Pardon Petitions and
§ 1-2.113 Standards for Considering Commutation Petitions.
              50
            The OPA may also request the view and recommendation of the USAO in the
district in which the petitioner currently resides.


                                                               14 

 



      Commutation petitions, including petitions for remission of fine, are
processed by the Pardon Attorney with the assistance of two OPA support
staff members. Initially, the merit of the petition is assessed using the
presentence report, order of judgment and conviction, and the most recent
BOP progress report. If it appears that the commutation petition has merit,
the OPA may refer the matter to other related parties for additional
information, comment, and recommendation.

       To ensure consistency in determining the merit of petitions and
making recommendations to the President, the OPA bases its
recommendations on the standards included in the U.S. Attorneys’ Manual.
The Pardon Attorney reviews each report and recommendation to ensure
that the recommendation complies with the established standards. In
addition, all OPA reports and recommendations are reviewed by ODAG staff
and by the Deputy Attorney General, as it is the Deputy Attorney General’s
recommendation that is presented to the White House. Finally, the
recommendation is reviewed by the White House and a decision is made by
the President. If at any time during the process the entity conducting the
review believes that the recommendation should be reconsidered, the report
is returned to the OPA for additional review and an updated report is
submitted.

      Based on discussions with the OPA and our review of a sample of
clemency petition case files, we identified the procedures used to process
clemency petitions. In our judgment, based on the procedures identified, we
found that the OPA utilizes a reasonable approach to investigate the merit of
clemency petitions and develop its recommendations. In addition, the
reports and recommendations provided to the President undergo an
extensive review.

Clemency Petition Backlog

     We found that the backlog of clemency petitions increased by
92 percent, from 2,459 petitions at the beginning of FY 2005 to
4,714 petitions at the end of FY 2010, as shown in Exhibit 5.




                                     15 

 


                                            EXHIBIT 5 

                              BACKLOGGED PETITIONS BY FISCAL YEAR END 

                                     FISCAL YEARS 2005 - 2010 


    5,000                                                                                                            4,714
    4,000
                                                  2,650                        3,055                    3,007
    3,000                 2,459                                  2,224                      2,172
    2,000
    1,000
             0
                     Beginning                  FY 2005         FY 2006        FY 2007     FY 2008      FY 2009     FY 2010
                      FY 2005


Source: OIG analysis of ECTS data

       We analyzed clemency petitions over time and found that the increase
in the backlog was, in part, a result of: (1) the increased number of
petitions received by the OPA from 1,059 in FY 2005 to 2,162 in FY 2010
(104 percent increase); and (2) the fact that no decisions were made by the
current President from January 2009 through the end of FY 2010, as shown
in Exhibit 6.

                                             EXHIBIT 6 

                             PETITIONS RECEIVED, DECIDED, AND CLOSED51

                                     FISCAL YEARS 2005 - 2010 



    3,000                                                                               2,741
                                                                                                    2,620
                                                                                    2,325                         2,162
    2,000                                                                                              1,438
                    1,059          1,071                           1,259
                              1,013
    1,000               539                                                   411                                         455
                          329          368                                                 467              347
                                                                         17                                           0
             0
                          FY 2005                     FY 2006        FY 2007           FY 2008       FY 2009       FY 2010

                            Received by OPA                     Decided by the President         Closed by OPA

Source: OIG analysis of ECTS data


                                                            
              51
           Petitions decided by the President and petitions closed by the OPA include
petitions that may have been received in a previous fiscal year. In addition, all Presidential
decisions in FY 2009 were made by the prior administration during October 2008 through
January 19, 2009.



                                                                           16 

 


      However, it should be noted that during the first 5 months of FY 2011,
which was outside of our audit scope, the President granted 9 pardons while
denying 131 pardon and 1,157 commutation petitions. The Presidential
decision resulted in a slight decrease in the backlog of clemency petitions to
4,194 as of the end of February 2011. We further analyzed the backlog of
clemency petitions as of the end of FY 2010 and for the first 5 months of
FY 2011, as shown in Exhibit 7.

                                                                 EXHIBIT 7 

                                                           BACKLOG OF PETITIONS52


                                                        BACKLOG   PERCENTAGE    BACKLOG   PERCENTAGE
      LOCATION OF                                         ECTS DATA AS OF         ECTS DATA AS OF
       PETITIONS                                            9/30/2010              2/28/201153
     OPA                                                 1,386        29%        1,280       31%
     ODAG                                                  860        18%          464       11%
     White House                                         2,468        52%        2,450       58%
     Total Backlog                                       4,714      100%         4,194      100%
    Source: OIG analysis of ECTS data

      As shown above, only 47 percent of the backlog was in DOJ’s control
at the end of FY 2010. This number decreased through the first 5 months of
FY 2011 with only 42 percent of the backlog in DOJ’s control. An aging
schedule of the backlog of petitions as of the end of FY 2010 is shown in
Exhibit 8.




                                                            
              52
           The sum of the individual numbers prior to rounding may differ from the sum of
the individual numbers rounded.
              53
          As previously noted, in May 2011, the President granted 8 pardons while denying
an additional 741 pardon and 1,947 commutation petitions. According to the OPA, this
most recent Presidential action reduced the total backlog to 2,064 petitions as of the end of
August 2011, with 47 percent of those petitions at the OPA, 31 percent at the ODAG, and
21 percent pending at the White House. Due to the timing of these Presidential decisions
we did not audit these statistics. Therefore, the remaining sections of this report generally
cover our audit scope which ended at the close of FY 2010.



                                                                     17 

 


                                     EXHIBIT 8 

                       AGING SCHEDULE OF BACKLOG PETITIONS 

                             AS OF THE END OF FY 2010 


     900
                                                                       796
     800

     700                                                   649

     600
                                                                   460
     500                         434

     400
                      282                       307
     300
                               201                                                       198         240
           190                                                   206
                            174                       158
     200                                                 133                 137
                 66                    83
     100
                                            0                                      0 0         0 0         0 0
       0
            0 to 30         31 to 60   61 to 90 91 to 180 181 days           1 to 1.5    1.5 to 2    2+ years
             days             days       days     days    to 1 year           years       years

                      Petitions at OPA          Petitions at ODAG        Petitions at White House

    Source: OIG analysis of ECTS data

       As shown above, at the end of FY 2010 the oldest petitions resided at
the OPA. We believe this was primarily due to the fact that the OPA is
responsible for reviewing and investigating the petitions, and preparing the
report and recommendation. In addition, as discussed in greater detail in
Finding II, a significant portion of the OPA’s investigation of clemency
petitions is dependent on information and comments provided by outside
individuals and agencies, including the petitioner. The timeliness of the
responses to the OPA’s referrals greatly impacts the length of time petitions
are pending at the OPA.

     Additionally, we measured the backlog over 6 fiscal years, FYs 2005 to
2010 and the number of petitions pending at the OPA, ODAG, and White
House, as shown in Exhibit 9.




                                                           18 

 


                                 EXHIBIT 9 

                    AGING SCHEDULE OF BACKLOG PETITIONS 

                          FISCAL YEARS 2005 - 2010 



                                             FY        FY      FY      FY      FY      FY
    Organization              Backlog       2005      2006    2007    2008    2009    2010
                   Average Age of Backlog    509       515     441     341     372     402
                   0-30                        48       81      90      265     131     190
                   31-60                       44       64      100     118      86     174
                   61-90                       27       25      75      121      50     83
                   91-180                      91       119     198     283     152     158
        OPA
                   181-365                    199       152     231     431     389     206
                   366-548                    219        96     100     208     170     137
                   549-730                     99       109      55      97      75     198
                   over 730                   210       257     231     205     160     240
                   Total Backlog             937       903    1,080   1,728   1,213   1,386
                   Average Age of Backlog    205        97      44      12     133     131
                   0-30                       181       190      72      28     155      66
                   31-60                       69         5     117       0     168     201
                   61-90                       99         0      45       0     183       0
                   91-180                     262        28       0       0     602     133
       ODAG
                   181-365                    227         8       1       0     521     460
                   366-548                     76         7       1       0       0       0

                   549-730                     63         9       1       0       0       0
                   over 730                    26         8       1       0       0       0
                   Total Backlog            1,003      255     238      28    1,629    860
                   Average Age of Backlog    227       153     350      61     246     154
                   0-30                           0      82       2     264       0     282
                   31-60                          0     139      32     114       0     434
                   61-90                       19       152     173       6       0     307
                   91-180                     375       214     239      14       0     649
    White House
                   181-365                    143       464     408       5     165     796
                   366-548                    172         7     529       3       0       0
                   549-730                        1       0     344       1       0       0
                   over 730                       0       8      10       9       0       0
                   Total Backlog             710      1,066   1,737    416     165    2,468
    OVERALL BACKLOG                         2,650     2,224   3,055   2,172   3,007   4,714
Source: OIG analysis of ECTS data




                                             19
 


      As shown in Exhibit 9, there was a significant decrease in the number
of petitions pending at the ODAG as of the end of FY 2008 and a
corresponding increase in the number of petitions pending at the OPA as of
the end of FY 2008. This decrease resulted, in part, from a significant
decrease in the number of petitions processed by the OPA and forwarded to
the ODAG for review during the period that the Pardon Attorney position was
vacant from January 2008 through April 2008. We also noted that the total
backlog of clemency petitions pending at the OPA increased from FYs 2005
through 2010. However, the increasing backlog at the OPA corresponds to
the fact that the number of petitions received increased by 104 percent from
FYs 2005 through FY 2010. Further, we found that the number of petitions
pending at the White House significantly increased in FYs 2009 and 2010. In
addition to the increase in the number of petitions received, the increase in
the number of petitions pending at the White House was due to the fact that
no decisions were made by the current President from January 2009 through
the end of FY 2010.

      We also found that although the backlog increased during our audit
scope, the number of petitions processed by the OPA increased by
658 (61 percent) from 1,075 in FY 2005 to 1,733 in FY 2010, as shown in
Exhibit 10.54

                                          EXHIBIT 10 

                         PETITIONS PROCESSED BY THE OPA TO THE ODAG 

                                   FISCAL YEARS 2005 - 2010 


    3,000                                                                             2,796
    2,500
                                                                                               1,733
    2,000
    1,500                                                                  1,342
                            1,075                         895    854
    1,000
      500
        0
                         FY 2005                      FY 2006   FY 2007    FY 2008   FY 2009   FY 2010





Source: OIG analysis of ECTS data




                                                            
              54
        Petitions are considered processed by the OPA when the first report and
recommendation are sent to the ODAG for review and signature.


                                                                    20 

 


       As a result of our audit, the OPA implemented new procedures
designed to decrease the length of time a petition is at the OPA and further
reduce the backlog. In June 2010, the OPA began generating a monthly
report that identifies older petitions that have not yet been sent to the
ODAG. This report is intended to be used as a management tool for
prioritizing the OPA’s efforts in processing petitions, to correct any incorrect
information, and to assist in monitoring delayed responses to referrals. At
the time of our audit, the OPA defined older petitions as those received by
the OPA prior to January 1, 2009, and that have not yet been sent to the
ODAG. Currently, the OPA runs the report for pardon petitions that have
been at the OPA for more than 1 year and for commutations petitions that
have been at the OPA for more than 9 months prior to being sent to the
ODAG. OPA attorneys are using this report as a management tool for
prioritizing their efforts in processing petitions, to correct any incorrect
information, and to assist in monitoring delayed responses to referrals.

Clemency Decisions

      We analyzed clemency decisions and trends, including the percentage
of clemency petitions granted, favorable and adverse clemency decisions
over time, and the types of offenses for which clemency was granted.

       Of the 12,897 petitions included in our audit scope, 5,806 petitions
had a final clemency decision signed by the President as of the end of
FY 2010.55 Of the 5,806 clemency decisions made during FYs 2005 through
2010, 5,629 clemency petitions were denied, while only 177 clemency
petitions (3 percent) were granted. The number of favorable and adverse
clemency decisions made during FYs 2005 to 2010 is shown in Exhibit 11.




                                                            
              55
          Presidential clemency decisions do not include petitions that were administratively
closed by the OPA.


                                                               21 

 


                           EXHIBIT 11 

         PRESIDENTIAL CLEMENCY DECISIONS BY FISCAL YEAR 

                    FISCAL YEARS 2005 - 2010


                     3,000




                     2,500



                     2,000



                     1,500



                     1,000



                      500




                        0
                              Grant Deny Grant Deny Grant Deny Grant Deny Grant Deny Grant Deny
                               FY 2005    FY 2006      FY 2007   FY 2008      FY 2009      FY 2010
    Remission Only             0     9    0     5      0    0    0     12     0     14     0    0
    Commutation & Remission    0    41    0    62      0    0    0    199     1    121     0    0
    Commutation                0    361   0    711     1    0    2    1,971   4    1,073   0    0
    Pardon                     39   89    39   254     16   0    44   513     31   194     0    0

Source: OIG analysis of ECTS data

      We further analyzed the 177 favorable clemency decisions granted
during FYs 2005 through 2010 and found that the types of clemency granted
included 169 pardons, 7 commutations, and 1 commutation and remission,
as shown in Exhibit 12.




                                                22 

 


                                   EXHIBIT 12 

                          CLEMENCY PETITIONS GRANTED 

                            FISCAL YEARS 2005 - 2010 


                                        PETITIONS WITH
                                         FINAL WHITE            PETITIONS     PERCENTAGE
          FORM OF RELIEF                HOUSE DECISION          GRANTED        GRANTED
    Pardon                                    1,219                169         13.86%
    Commutation                               4,123                  7          0.17%
    Commutation and Remission                   424                  1          0.24%
    Remission Only                               40                  0             0%
         Total                               5,806                177          3.05%
Source: OIG analysis of ECTS data

      We also analyzed the number and types of clemency granted over
time during FYs 2005 through 2010, as shown in Exhibit 13.

                                  EXHIBIT 13 

                       CLEMENCY GRANTED BY FISCAL YEAR 

                           FISCAL YEARS 2005 - 2010 


      50


      45
                                                 44
               39
      40
                       39
      35


      30
                                                                31

      25


      20


      15
                                    16

      10


       5
                                                              4
                                             1             2           1
       0
         0              0           0             0           0            0
            FY 2005        FY 2006     FY 2007       FY 2008     FY 2009      FY 2010
                      Pardon                           Commutation
                      Commutation and Remission        Remission Only


     Source: OIG analysis of ECTS data


       Finally, we analyzed the 177 favorable clemency decisions using the
petitioner’s first offense to identify any trends related to the type of offense,
as shown in Exhibit 14.


                                              23 

 



                                             EXHIBIT 14 

                               FAVORABLE CLEMENCY DECISION BY OFFENSE 

                                      FISCAL YEARS 2005 – 2010 


                                                                                                    PERCENTAGE OF
                                                               NO. OF PETITIONS       NO. OF          PETITIONS
                                                                   GRANTED           PETITIONS        GRANTED
                                                               CLEMENCY BY THE     DECIDED BY THE    CLEMENCY BY
                     OFFENSE                                    WHITE HOUSE          PRESIDENT         OFFENSE
                   56
     Liquor                                                             7                   8           87.50%
     Customs57                                                          3                  11           27.27%
     Military58                                                         2                   8           25.00%
     Escape                                                             1                   5           20.00%
     False Statements                                                  15                  81           18.52%
     Bail Jump                                                          1                   6           16.67%
     Embezzlement                                                       9                  54           16.67%
     Misprision of Felony59                                             5                  32           15.63%
     Theft                                                             18                116            15.52%
     Assault                                                            5                  37           13.51%
     Environment                                                        2                  15           13.33%
     Tax                                                               14                108            12.96%
     Gambling                                                           1                   8           12.50%
     Mail60                                                             2                  17           11.76%
     Other61                                                            6                  54           11.11%
     Counterfeiting                                                     3                  33            9.09%
     Arson                                                              1                  12            8.33%
     Explosives                                                         2                  24            8.33%
     Bribery                                                            2                  33            6.06%
     Bank Fraud                                                         6                117             5.13%



                                                            
              56
          “Liquor” offenses included crimes involving bootlegging, possession of untaxed
liquor, making moonshine, illicit distillery, and violation of Internal Revenue Service liquor
laws.
              57
          “Customs” offenses included crimes involving importing merchandise, trafficking
counterfeit products, and selling migratory birds.
              58
                     “Military” offenses were crimes related to being “away without leave.”
              59
                     Misprision of a felony is the withholding of information on a crime.
              60
          “Mail” offenses included crimes involving theft of U.S. government mail, and
unlawful detention and delay of mail.
              61
         “Other” offenses included crimes involving animals, forgery, and violation of the
Archaeological Resources Act.


                                                                            24 

 


                                                                                                    PERCENTAGE OF
                                                               NO. OF PETITIONS       NO. OF          PETITIONS
                                                                   GRANTED           PETITIONS        GRANTED
                                                               CLEMENCY BY THE     DECIDED BY THE    CLEMENCY BY
                     OFFENSE                                    WHITE HOUSE          PRESIDENT         OFFENSE
     Fraud62                                                           18                 387            4.65%
     Firearms                                                           9                 272            3.31%
     Money Laundering                                                   2                  65            3.08%
     Robbery                                                            1                  42            2.38%
     Narcotics                                                         40               3,031            1.32%
     Bank Robbery                                                       1                 185            0.54%
     Alien                                                              1                 711            0.14%
             Total                                                   177               5,80663          3.05%
    Source: OIG analysis of ECTS data

      As shown in Exhibit 14, with the exception of liquor offenses, in which
87.5 percent of clemency decisions were favorable, there does not appear to
be any significant trends related to the types of crimes for which clemency is
granted.

Conclusion

       We found that the OPA has few written policies and procedures for
processing clemency petitions. Based on discussions with the OPA and our
review of a sample of clemency petition case files, we identified the
procedures used to process clemency petitions. Based on the procedures
identified, we concluded that the OPA utilizes a reasonable approach to
investigate the merit of clemency petitions and develop its
recommendations. In addition, the reports and recommendations provided
to the President undergo an extensive review.

      We found that the backlog of clemency petitions increased by
92 percent, from 2,459 petitions at the beginning of FY 2005 to
4,714 petitions at the end of FY 2010. We believe that the increased
backlog during this time was primarily a result of more clemency petitions
                                                            
              62
           “Fraud” offenses included crimes involving mail fraud, wire fraud, food stamp
fraud, conspiracy to defraud the U.S. government, false claims, falsified loan documents,
transfer of false securities title, and concealment.
              63
            The column “Number of Petitions Decided by the President” only includes the
numbers related to the types of offenses for which favorable decisions were granted.
However, there were an additional 334 denied petitions related to offenses for which no
favorable decisions were granted during FYs 2005 through 2010. Therefore, the total
reflects all 5,806 petitions decided by the President during FYs 2005 through 2010. As a
result, the sum of the individual numbers in the “Number of Petitions Decided by the
President” column does not equal the total reported in the table.


                                                                            25 

 


being received than were being decided by the President or administratively
closed by the OPA. The average length of time, 142 days (4.7 months), it
took the ODAG to review OPA reports and recommendations may have also
contributed to the backlog. Thus, even though the OPA has been recently
successful in increasing the number of petitions processed to the ODAG, the
backlog will likely continue to grow if petitions, recommendations, and
reports await review by the ODAG and the President for extended periods of
time.




                                    26 

 


II.   TIMELINESS OF PROCESSING CLEMENCY PETITIONS

           During our audit scope, on average, it took nearly 2 years
           from the time the OPA received a petition until a final
           clemency decision was made by the President. We
           concluded the delay in processing a clemency petition was
           caused in part by the failure of the entities receiving OPA
           referrals to consistently respond to the referrals within
           their own established timeframes or the period of time
           requested by the OPA. DOJ components, excluding the
           FBI, are generally requested to respond to the OPA within
           30 days. However, we found that for petitions included in
           our audit scope, clemency petitions pending at the
           beginning of FY 2005, and clemency petitions opened
           between FYs 2005 and 2010, referrals were at DOJ
           components, excluding the FBI, for an average of 112 days
           (3.7 months) before a response was provided to the OPA.
           We also found that the OPA did not always follow up on
           outstanding referrals or did not follow up within its own
           prescribed timeframes.

           We identified 10 DOJ components that received referrals
           from the OPA during the period covered by our audit. We
           found that five components - the Drug Enforcement
           Administration (DEA), Antitrust Division, Bureau of Alcohol,
           Tobacco, Firearms and Explosives (ATF), Tax Division, and
           Civil Division - had an average referral response time that
           did not materially exceed their own established timeframes
           or the OPA’s requested response time. However, we found
           that the average response times for the remaining five
           components - the BOP institutions and contract facilities,
           USAOs, Civil Rights Division, FBI, and Criminal Division -
           materially exceeded the established timeframes.

Overall Clemency Petition Processing Time

     We found that for clemency petitions pending at the beginning of
FY 2005 and clemency petitions opened between FYs 2005 and 2010, it took
an average of 721 days (nearly 2 years) from the time the OPA received a




                                    27 

 


petition until a final clemency decision was made by the President, as shown
in Exhibit 15.64

                                         EXHIBIT 15 

                                   AVERAGE TIME BETWEEN 

                            THE OPA’S RECEIPT OF A PETITION AND

                       THE FINAL CLEMENCY DECISION BY THE PRESIDENT 

                                     BY FORM OF RELIEF 

                                  FISCAL YEARS 2005 - 2010 


                                                                       AVERAGE TIME BETWEEN THE
                                                                      OPA’S RECEIPT OF A PETITION
                                                                          AND FINAL CLEMENCY
                                    FORM OF RELIEF                            DECISIONS
               Pardon                                                   1,194 days (3.27 years)
               Commutation                                                573 days (1.57 years)
               Commutation and Remission                                  791 days (2.17 years)
               Remission Only                                             795 days (2.18 years)
                    For All Forms of Relief                             721 days (1.98 years)
            Source: OIG analysis of ECTS data

      We further analyzed the average processing time for the petitions
included in our audit scope by fiscal year and type of relief, as shown in
Exhibit 16.




                                                            
              64
           Presidential clemency decisions do not include petitions that were administratively
closed by the OPA. Our audit scope included four clemency petitions related to
commutation of capital punishment, which might take longer to process than non-capital
cases. However, all four cases were administratively closed because the petitioner or the
petitioner’s attorney withdrew the petition, within an average of 799 days (2.2 years). As a
result of the administrative closures, the petitions involving capital punishment were not
included in our average.



                                                               28 

 


                                          EXHIBIT 16 

                                    AVERAGE TIME BETWEEN 

                            THE OPA’S RECEIPT OF A PETITION AND

                       THE FINAL CLEMENCY DECISION BY THE PRESIDENT 

                             BY FISCAL YEAR AND FORM OF RELIEF65

                                   FISCAL YEARS 2005 - 2010 


                                                                                     FORM OF RELIEF
                                                                                                             COMMUTATION
       FISCAL                         ALL                        PARDON       COMMUTATION      REMISSION     & REMISSION
        YEAR                  PETITIONS                         PETITIONS       PETITIONS      PETITIONS       PETITIONS
                              1,198 days                        1,536 days      1,074 days     1,428 days      1,177 days
      FY 2005                (3.28 years)                      (4.21 years)    (2.94 years)   (3.91 years)    (3.22 years)
                               963 days                         1,340 days       794 days       780 days       1,146 days
      FY 2006                (2.64 years)                      (3.67 years)    (2.18 years)   (2.14 years)    (3.14 years)
                              1,471 days                        1,497 days      1,042 days
      FY 2007                (4.03 years)                      (4.10 years)    (2.85 years)       N/A            N/A
                               743 days                         1,189 days       597 days       898 days       926 days
      FY 2008                (2.04 years)                      (3.26 years)    (1.64 years)   (2.46 years)   (2.54 years)
                               312 days                          799 days        216 days       306 days       260 days
      FY 2009                (0.85 years)                      (2.19 years)    (0.59 years)   (0.84 years)   (0.71 years)
      FY 2010                    N/A                               N/A             N/A            N/A            N/A
    Source: OIG analysis of ECTS data

       As shown above, the average processing time significantly decreased
in FY 2009. However, we anticipate that the average processing time will
increase in FY 2011 because the President did not make any decisions on
clemency petitions from the time he took office in January 2009 through
FY 2010, meaning that the 2,468 petitions sent to the White House during
this time were still pending a presidential decision as of the end of FY 2010.
Therefore, for any petitions decided by the President in FY 2011, there will
be a corresponding increase in the average processing time related to the
fact that 2,468 petitions were pending at the White House as of the end of
FY 2010.

       We also found that delays in processing petitions frequently create
additional work for DOJ because the OPA is often required to send additional
referrals to re-verify facts related to the petition and to confirm that there is
no new information that would affect the petitioner’s merit. In addition,
delays in processing petitions, including delays resulting from entities that
do not respond to OPA referrals within prescribed timeframes, as discussed
later in this report, may result in changes of the petitioner’s status, including
                                                            
              65
          These averages do not include cases that were administratively closed by the
OPA. N/A is used when no decisions were made by the President related to this fiscal year
or no decisions were made related to this form of relief.



                                                                              29 

 


death of the petitioner or the petitioner’s release from incarceration,
resulting in an administrative closure of the case. During the scope of our
audit, we identified 2,377 petitions that were administratively closed before
receiving a final decision, of which 729 petitions (31 percent) were
administratively closed by the OPA after the report and recommendation had
been sent to the White House but before the President made a final
clemency decision. We identified two instances in which petitions with
favorable recommendations were sent to the White House, but because of
changes in the petitioners’ status, were subsequently administratively closed
before a decision was made by the President. One of the petitioners was
released from incarceration and the other petitioner died while the petitions
were pending at the White House.

OPA’s Clemency Petition Processing Time

      We determined that of the 12,897 petitions in our audit scope, the
OPA had made at least one referral to an entity for additional information for
12,586 petitions (97.6 percent) within an average of 60 days after its receipt
of the petition. For the remaining 311 petitions in which no action had been
taken as of the end of FY 2010, we determined that 82 petitions were
related to crack or cocaine cases that the OPA had put on hold due to
possible changes in the sentencing guidelines. For the remaining
229 petitions, the average amount of time these petitions had been at the
OPA without at least one referral was 81 days (2.7 months).

       We also determined that the total processing time for a clemency
petition by the OPA during our audit scope was an average of 293 days
(9.8 months). However, we recognized that while a petition is being
processed by the OPA, referrals may be sent to various outside entities. The
referrals may include requests for information on the petitioner, the
petitioner’s offense, or for an opinion on whether clemency should be
granted. When we removed the time that these referrals were pending with
the various entities, we found that the petition was actually at the OPA for
an average of 197 days (6.6 months).

       As discussed in Finding I, we found that the number of petitions
processed by the OPA increased from FY 2005 to FY 2010. Despite the
increased workload, we found significant improvement in the average
petition processing time between the OPA’s receipt of a petition and the first
time a report and recommendation were sent to the ODAG for review and
signature. Specifically, the OPA reduced its average total processing time by
188 days (6.3 months), from 381 days (12.7 months) in FY 2005 to
193 days (6.4 months) in FY 2010, as shown in Exhibit 17.



                                     30 

 


                                  EXHIBIT 17 

                              AVERAGE TIME FROM 

                THE OPA’S RECEIPT OF A PETITION AND THE FIRST 

             REPORT AND RECOMMENDATION WERE SENT TO THE ODAG 

                           FISCAL YEARS 2005 - 2010 


                          FISCAL YEAR THE REPORT AND
                            RECOMMENDATION WERE                           AVERAGE TOTAL
                          INITIALLY SENT TO THE ODAG                    PROCESSING TIME66
                                    FY 2005                           381 days (12.7 months)
                                    FY 2006                           374 days (12.5 months)
                                    FY 2007                           328 days (10.9 months)
                                    FY 2008                           253 days (8.4 months)
                                    FY 2009                           223 days (7.4 months)
                                    FY 2010                           193 days (6.4 months)
                   Source: OIG analysis of ECTS data

       The current Pardon Attorney implemented several changes between
2008 and 2010 to increase the timeliness of processing clemency petitions.
Since the fall of 2008, the OPA has increased the number of unpaid law
student interns that it utilizes each semester from one to between two and
four interns. The interns assist the Pardon Attorney in reviewing and making
preliminary recommendations as to whether commutation petitions should
be denied or whether they have sufficient merit to warrant further
investigation, such as contacting the USAOs and sentencing judges for
comments and recommendations. The Pardon Attorney reviews all the case
files, and then makes the final determination of what action should be taken
on the commutation petitions.

       Additionally, in April 2010, the OPA hired two new support staff
members, which brought the OPA support staff to six, in addition to the
six attorneys. The two new support staff, with the assistance of interns,
perform the initial reviews for commutation petitions and provide
recommendations to the Pardon Attorney. The Pardon Attorney reviews all
recommendations and the supporting case files and makes the final decision
on the recommendation that will be sent to the ODAG. According to the
Pardon Attorney, having the two support staff dedicated to commutations
has greatly improved the timeliness of processing commutation petitions
because these responsibilities were mainly handled by the Pardon Attorney
in the past.

                                                            
              66
          This includes the time that referrals for these petitions were pending with the
various entities.


                                                               31 

 


DOJ’s Clemency Petition Processing Time

       We determined that during our audit scope the total processing time
for a clemency petition by DOJ before the petition was sent to the White
House was an average of 423 days (1.16 years). As shown in Exhibit 18,
processing time at DOJ by fiscal year ranged from 669 days (1.83 years) in
FY 2005 to 356 days (0.97 year) in FY 2010.

                            EXHIBIT 18 

                        AVERAGE TIME FROM 

          THE OPA’S RECEIPT OF A PETITION AND THE FIRST 

    REPORT AND RECOMMENDATION WERE SENT TO THE WHITE HOUSE 

                     FISCAL YEARS 2005 - 2010 


                     FISCAL YEAR THE REPORT AND
                   RECOMMENDATION WERE INITIALLY                         AVERAGE TOTAL
                      SENT TO THE WHITE HOUSE                           PROCESSING TIME67
                               FY 2005                                669 days (1.83 years)
                               FY 2006                                556 days (1.52 years)
                               FY 2007                                519 days (1.42 years)
                               FY 2008                                285 days (0.78 year)
                               FY 2009                                226 days (0.62 year)
                               FY 2010                                356 days (0.98 year)
            Source: OIG analysis of ECTS data

      Similar to the OPA’s processing time shown previously in Exhibit 17,
the processing time at DOJ decreased from FY 2005 to FY 2010. The
exception was an increase in the processing time at DOJ in FY 2010. We
believe that the increase may be because in February 2010, nearly
1,400 cases were returned from the ODAG to the OPA to change the
signature block on the cover page because there had been a change in the
person serving as Deputy Attorney General. Due to the length of time that
had passed since their original transmittal to the ODAG in 2009 and 2010,
the OPA decided it was necessary to review and update all of the clemency
cases. The OPA stated that this event had a great effect on the workload of
OPA attorneys and staff.

OPA Referrals and Follow-up

     As stated previously, during the time a petition is at the OPA, the case
may be referred to various entities for information regarding the petitioner,
                                                            
              67
          This includes the time that the petitions were at the OPA and the time referrals for
these petitions were pending with the various entities.


                                                               32 

 


the petitioner’s offense, or for an opinion as to whether clemency should be
granted. The OPA typically requests a response within 30 days from the
date of the referral, with the exception of referrals to the FBI for background
investigations. The OPA then allows an additional 30 days before following
up on the referral with the entity. Therefore, under its current process, the
OPA does not follow up on a referral until at least 60 days after the initial
referral. We determined the entities’ average time for responding to the
OPA’s referrals is 124 days (4.1 months), as shown in Exhibit 19.




                                      33 

 


                                             EXHIBIT 19 

                               AVERAGE NUMBER OF DAYS A PETITION IS AT 

                                   AN ENTITY RECEIVING REFERRALS 

                                      FISCAL YEARS 2005 – 2010 


                                                                       NUMBER OF
                                                                        PETITIONS
                                                                      REFERRED FOR   AVERAGE NUMBER
                                                                       ADDITIONAL    OF DAYS AT EACH
             ENTITY RECEIVING REFERRAL                                INFORMATION        ENTITY68
    Petitioner                                                            2,011             81
    Petitioner's Attorney                                                   413            112
    Federal Bureau of Prisons (Wardens)                                   4,375            105
    U.S. Probation Officer                                                2,335             78
    USAOs                                                                   788            153
    Sentencing Judge                                                        148             59
    Drug Enforcement Administration                                           2             30
    Federal Bureau of Prisons (Headquarters)                                 25             45
    Bureau of Alcohol, Tobacco, Firearms and
    Explosives                                                               4              38
    DOJ Antitrust Division                                                   7              34
    DOJ Civil Division                                                       1              49
    DOJ Criminal Division                                                   19             48969
    DOJ Civil Rights Division                                                2             263
    DOJ Tax Division                                                        28              44
    U.S. Immigration and Customs
    Enforcement70                                                          69             450
    Internal Revenue Service                                               68              87
    Military                                                               48             189
    Other Field Agency71                                                   49             142
    FBI                                                                 1,110             343
           Overall                                                     11,502             124
Source: OIG analysis of ECTS data
                                                            
              68
                     The average number of days column only includes referrals that were closed.
              69
          The average number of days includes three petitioners who were prosecuted by
Criminal Division’s former Counterespionage Section, which is now part of the National
Security Division. We found these to be valid referrals; nonetheless, if these petitions were
removed from our calculation, the average response time for the Criminal Division would be
233 days (7.8 months) per petition.
              70
         Prior to the Homeland Security Act of 2002, referrals were made to the
Immigration and Naturalization Services.
              71
          According to OPA officials, the “Other Field Agency” would be used for any agency
not already listed with a particular code in ECTS, and may include the U.S. Parole
Commission, U.S. District Courts, and DOJ offices located in Territories of the United States.


                                                               34 

 


      Additionally, we analyzed the average entity response time per petition
across the 6 fiscal years, based on the last fiscal year the entity responded
to the OPA, as shown in Exhibit 20.

                                             EXHIBIT 20 

                               AVERAGE NUMBER OF DAYS A PETITION IS AT 

                                   AN ENTITY RECEIVING REFERRALS 

                                          BY FISCAL YEAR72

                                      FISCAL YEARS 2005 – 2010


                                                                  AVERAGE NUMBER OF DAYS AT EACH ENTITY
          ENTITY RECEIVING                                      FY     FY     FY      FY       FY      FY
              REFERRAL                                         2005   2006   2007    2008     2009    2010
    Petitioner                                                   72     102     70       89      77     125
    Petitioner's Attorney                                        66     208    156     138       82     162
    Federal Bureau of Prisons
    (Wardens)                                                    89     196      92      94      74    143
    U.S. Probation Officer                                       74      64      66      76      79    116
    USAOs                                                       168     220     198     154      99    167
    Sentencing Judge                                             26      59      25      21      37    228
    Drug Enforcement
    Administration                                              N/A      12     N/A     N/A     N/A    N/A
    Federal Bureau of Prisons
    (Headquarters)                                               48     N/A      36      30      19     98
    Bureau of Alcohol, Tobacco,
    Firearms and Explosives                                     N/A       32    N/A     N/A     N/A     38
    DOJ Antitrust Division                                      N/A      N/A     37      30      19     47
    DOJ Civil Division                                          N/A      N/A     49     N/A     N/A    N/A
    DOJ Criminal Division                                       N/A    1,025     72     334     120    N/A
    DOJ Civil Rights Division                                   N/A      N/A    N/A     N/A     N/A    N/A
    DOJ Tax Division                                             40       45     74      21      36    N/A
    U.S. Immigration and
    Customs Enforcement                                          40      75     110     412       9    572
    Internal Revenue Service                                     51      84      73      50      52    118
    Military                                                    192     253      56     258     159    178
    Other Field Agency                                          190     421     149      68      80    187
    FBI                                                         394     437     383     376     251    291
Source: OIG analysis of ECTS data

      As shown above, the average number of days petitions were at entities
receiving OPA referrals varies among fiscal years. However, there does not
appear to be any trends among fiscal years related to a steady increase or
                                                            
              72
           The average number of days presented is for the year that the agency receiving
the referral provided its most recent response. Therefore, the original referral may have
been made in a prior fiscal year.


                                                                      35 

 


decrease in the amount of time, with the exception of FY 2010. In FY 2010,
the ODAG returned nearly 1,400 cases to the OPA because there had been a
change in the person serving as Deputy Attorney General. Due to the length
of time that had passed since the OPA originally transmitted these cases to
ODAG, the OPA decided it was necessary to review and update all the
clemency cases, including its referrals. This may have had an impact on the
increased number of days petitions were at the referral entities in FY 2010 in
instances where the OPA’s review determined it was necessary to issue
additional referrals to obtain updated information on a petition.

       Also as shown in Exhibits 19 and 20, entities receiving referrals can
take a significant amount of time to respond to the OPA’s referral, which
creates a delay in the OPA’s processing of the clemency petitions. However,
we also found that the OPA often did not follow up on outstanding referrals
within its own prescribed timeframes. During our case file review of
313 petitions, we found that the OPA failed to follow up on 85 (43 percent)
of the 198 referrals for which a response was not provided to the OPA within
60 days. Further, for 130 referrals for which the OPA did conduct follow-up,
the average follow-up time was 168 days (5.6 months).73 We concluded
that untimely responses by the entities receiving referrals and the OPA’s lack
of follow-up in certain instances contributed to the increased backlog of
clemency petitions.

       During our audit we brought the lack of timely follow-up on referrals to
the attention of the Pardon Attorney, who promptly implemented a new
policy in June 2010 to address the timeliness of referrals and the OPA’s lack
of follow-up. The new procedures consist of running two monthly reports
from ECTS. The first report identifies older cases and is discussed in
Finding I. The second report, referred to as the “Field Check Tickler Report,”
details all petitions that, according to ECTS have a referral outstanding for
more than 60 days. Originally, this report only included outstanding
referrals at the following five entities for pardon petitions: (1) U.S.
Immigration and Customs Enforcement, (2) petitioner, (3) U.S. Probation
Office, (4) USAOs, and (5) FBI, because these were the only entities that
had overdue responses at that time. However, the “Field Check Tickler
Report” now covers all referrals older than 60 days for both pardon and
commutation petitions.

       OPA attorneys now use these reports as a management tool for
prioritizing their efforts in processing petitions, correcting incorrect
information, and assisting them in policing delayed responses. According to

                                                            
              73
         This average includes instances in which the OPA conducted follow-up prior to its
60-day deadline.


                                                               36 

 


the Pardon Attorney, although these reports indicated that there were many
referrals that were overdue, there were also many erroneous entries
identified in the reports because of docketing mistakes. For example, an
attorney received a reply to a referral directly from the USAOs via e-mail
and failed to docket the reply in ECTS. The OPA stated that the automatic
docketing function of the new IQ system should help to reduce these sorts of
inaccuracies. Overall, we commend the OPA’s effort to implement a policy
that will assist OPA staff in identifying referrals that have been outstanding
for longer than 60 days and require follow-up. However, we recommend
that the OPA establish and implement a policy and procedure ensuring
follow-up is conducted within established timeframes for outstanding
referrals.

DOJ Component Referrals

      We identified 10 DOJ components to which the OPA made referrals
requesting information or an opinion on a petition during the time period
covered by our audit. These components are the: (1) ATF; (2) BOP
Headquarters and Wardens; (3) DEA; (4) FBI; (5) USAOs; (6) Antitrust
Division; (7) Civil Division; (8) Civil Rights Division; (9) Criminal Division;
and (10) Tax Division. Based on OPA’s ECTS data obtained as of May 28,
2010, we interviewed and sent questionnaires to these 10 components,
including a sample of BOP Wardens and USAOs.74

        We found that referrals were at DOJ components, excluding the FBI,
for an average of 112 days (3.7 months) before a response was provided to
the OPA.75 As noted above, we identified 10 DOJ components that received
referrals from the OPA during the period covered by our audit.76 Eight of the
10 DOJ components have set internal guidelines that require them to
respond to the OPA within 30 days or less. For example, the BOP requires
its Wardens to respond within 15 working days, while the USAOs and DOJ’s
litigating divisions fall under the guidelines established in the U.S. Attorneys’
                                                            
              74
           Our interview and questionnaire questions were specific to the OPA’s referrals, the
components’ responses, and any outstanding referrals or referrals that were closed without
a response for clemency petitions pending at the beginning of FY 2005 and clemency
petitions opened between FY 2005 and May 28, 2010.
              75
          We excluded the FBI from our calculation of the average response time for DOJ
components because full background investigations may take significantly longer than the
other types of requests included in the OPA’s referrals.
              76
            The 10 DOJ components also included USAOs and BOP institutions or contract
facilities. Not all of the USAOs and BOP institutions and contract facilities received referrals
from the OPA during the period covered by our audit. Referrals were sent to 90 of the
93 USAOs and 124 of the 129 BOP institutions or contract facilities.


                                                               37 

 


Manual or internal guidelines to respond within 30 days or inform the OPA if
an unusual delay is anticipated. Because of its unique role of performing
background investigations and language translation services for the OPA, the
FBI has developed longer timeframes for the services it provides. During the
scope of our audit, the FBI’s internally established deadlines were
120 calendar days for background investigations and about 1 month for
translation services. However, in November 2010, the FBI reduced its
internal deadline for background investigations to 60 days. ATF officials
stated that it strived to meet the OPA’s 30 day timeframe but did not have
established internal timeframes for responding to the OPA’s referrals.

DOJ Components Generally Meeting Established Timeframes

       As discussed in the following sections, we found that on average
five components - the DEA, Antitrust Division, ATF, Tax Division, and Civil
Division - did not materially exceed their own established timeframes or the
OPA’s requested response time. The average response time per petition, as
shown in ECTS, for these components ranged between 30 days (1 month)
and 49 days (1.6 months), as shown in Exhibit 21.

                                        EXHIBIT 21 

                       AVERAGE REFERRAL RESPONSE TIME PER PETITION 

                                 FISCAL YEARS 2005 - 2010 


                                                                                         ESTABLISHED
                                                               AVERAGE TIME AT EACH   TIMEFRAME AT EACH
         REFERRAL AGENCY                                             AGENCY                AGENCY
      DEA                                                            30 days              30 days
      DOJ Antitrust Division                                         34 days              30 days
      ATF                                                            38 days                N/A77
      DOJ Tax Division                                               44 days              30 days
      DOJ Civil Division                                             49 days              30 days
    Source: OIG analysis of ECTS data

              Drug Enforcement Administration

     According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent two referrals to the DEA. We determined that the DEA
responded to the OPA, or the OPA closed the referral without a response, for

                                                            
              77
          ATF has not established internal timeframes for responding to OPA referrals.
However, ATF officials stated that it strives to meet the OPA’s 30 day timeframe and will ask
for an extension if the timeframe is not feasible.


                                                                      38 

 


both petitions within an average of 30 days per petition.78 Additionally,
there were no outstanding OPA referrals and there were no referrals for
which the case was closed without a response.79 According to the
information in ECTS as of the September 30, 2010, data query, no additional
referrals had been sent to the DEA since the May 28, 2010, ECTS data
query.

              Antitrust Division

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent six referrals to the Antitrust Division. We determined
that the Antitrust Division responded to the OPA, or the OPA closed the
referral without a response, for all 6 petitions within an average of 32 days
per petition. Additionally, there were no outstanding OPA referrals and there
were no referrals for which the case was closed without a response.
According to the information in ECTS as of the September 30, 2010, data
query, we determined that the Antitrust Division responded to OPA referrals
within an average of 34 days per petition and had no outstanding referrals.

              Bureau of Alcohol, Tobacco, Firearms and Explosives

       According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent two referrals to ATF. We determined that ATF
responded to the OPA, or the OPA closed the referral without a response, for
both petitions within an average of 38 days per petition. Additionally, there
were no outstanding OPA referrals and there were no referrals for which the
case was closed without a response. According to the information in ECTS
as of the September 30, 2010, data query, ATF received and responded to
two additional referral requests since the May 28, 2010, ECTS data query.
However, with these responses the ATF’s average response time remained
38 days per petition.



                                                            
              78
           The OPA may close a referral without a response when the referral is no longer
relevant, for example a commutation petitioner is released from incarceration. Additionally,
due to the limitations of ECTS in documenting follow-up, the OPA may close the initial
referral without a response and initiate a subsequent referral to illustrate a comprehensive
record of follow-up activities in ECTS.
              79
           Outstanding referrals are related to open cases for which the OPA has not yet
received a response to its request. Therefore, a response to the referral is still necessary.
Referrals that are closed without a response are related to cases that have been closed
because of a final decision by the President or administratively closed by the OPA.
Therefore, a response to the referral is no longer needed or relevant.



                                                               39 

 


              Tax Division

       According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent 28 referrals to the Tax Division. We determined that
the Tax Division responded to the OPA, or the OPA closed the referral
without a response, for 27 petitions within an average of 44 days per
petition. Additionally, there was one outstanding OPA referral for 1,750 days
(4.8 years) and there were no referrals for which the case was closed
without a response. According to the information in ECTS as of the
September 30, 2010, data query, no additional referrals had been sent to
the Tax Division since the May 28, 2010, ECTS data query; however, there
was still one referral outstanding for 1,875 days (5.1 years).80

              Civil Division

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent one referral to the Civil Division. We determined that
the Civil Division responded to the OPA, or the OPA closed the referral
without a response, within an average of 49 days per petition. Therefore,
there were no outstanding OPA referrals and there were no referrals for
which the case was closed without a response. According to the information
in ECTS as of the September 30, 2010, data query, no additional referrals
had been sent to the Civil Division since the May 28, 2010, ECTS data query.

DOJ Components Materially Exceeding Established Timeframes

      As discussed in the following sections, we found that on average the
response times for the remaining five components - the BOP institutions or
contract facilities, USAOs, Civil Rights Division, FBI, and Criminal Division -
materially exceeded the established timeframes and the OPA’s requested
response time. The average response time per petition, as shown in ECTS,
for these components ranged between 105 days (3.5 months) and 489 days
(16.3 months), as shown in Exhibit 22.




                                                            
              80
          Tax Division officials stated a response related to the one outstanding referral was
provided to the OPA in a memorandum dated September 27, 2005. The OPA confirmed the
Tax Division’s response.



                                                               40 

 


                                        EXHIBIT 22 

                       AVERAGE REFERRAL RESPONSE TIME PER PETITION 

                                 FISCAL YEARS 2005 - 2010 


                                                                                    ESTABLISHED
                                                               AVERAGE TIME AT   TIMEFRAME AT EACH
           REFERRAL AGENCY                                      EACH AGENCY           AGENCY
    BOP (Referrals to Wardens Only)                               105 days            15 days
    USAOs                                                         153 days            30 days
    DOJ Civil Rights Division                                     263 days            30 days
    FBI                                                           343 days           120 days81
    DOJ Criminal Division                                         489 days82          30 days
Source: OIG analysis of ECTS data

              Federal Bureau of Prisons

      We found that the information in ECTS separately tracks the OPA’s
referrals made to the BOP Headquarters and BOP Wardens. Therefore, the
BOP Headquarters and BOP Wardens are discussed separately.

      BOP Headquarters. According to the information in ECTS as of the
May 28, 2010, data query, the OPA sent 23 referrals to the BOP
Headquarters.83 We determined that the BOP Headquarters responded to
the OPA, or the OPA closed the referral without a response, for 18 petitions
within an average of 28 days per petition.84 Additionally, there was
                                                            
              81
           Referrals to the FBI include limited background investigations, full background
investigations, and translation services. We used the established deadline for full and
limited background investigations (120 days) because it was the longest period of time
established for the three types of referrals sent to the FBI.
              82
          The average number of days includes three petitioners who were prosecuted by
Criminal Division’s former Counterespionage Section, which is now part of the National
Security Division. As stated previously, and as discussed in detail in this section, we found
these to be valid referrals.
              83
           Throughout our review of DOJ components, there may be instances in which the
number of referrals exceeds the number of petitions because the OPA sent more than one
referral to a component regarding the same petition. Multiple referrals to a component
regarding the same petition occur because the referrals are for additional information or are
used to document the OPA’s follow-up on a previous referral that was unanswered.
              84
           The OPA may close a referral without a response when the referral is no longer
relevant, such as a commutation petitioner who is released from incarceration. Additionally,
due to the limitations of ECTS in documenting follow-up, the OPA may close the initial
referral without a response and initiate a subsequent referral to illustrate a comprehensive
record of follow-up activities in ECTS.


                                                               41 

 


one outstanding OPA referral for 396 days (1.1 years) and there were
four referrals for which the case was closed without a response for an
average of 793 days (2.2 years) per referral.85 During our interview we
discussed the OPA requests for which the BOP Headquarters did not
respond. BOP Headquarters officials explained that one petitioner received a
court-ordered shortened sentence and was released the day after the OPA
sent the request, while another petitioner requested a stay of execution and
the OPA closed the petition due to the petitioner’s requested stay. Finally,
the third petitioner was involved in the Witness Security Program and the
BOP could not provide any details on why there was no response. However,
during our exit conference the BOP provided documentation supporting a
response that was faxed to the OPA within 43 days for one of the
two referrals related to the Witness Security Program petitioner. Even
though the BOP Headquarters did not respond to the previously mentioned
OPA referrals, we believe that the response and documentation provided to
us by BOP Headquarters explained the referrals that were closed without a
response. According to the information in ECTS as of the September 30,
2010, data query, we determined that the BOP Headquarters responded to
OPA referrals within an average of 45 days per petition and had no
outstanding referrals.

      BOP Wardens. According to the information in ECTS as of the May 28,
2010, data query, the OPA sent 4,684 referrals to BOP Wardens. We
determined that BOP Wardens responded to the OPA, or the OPA closed the
referral without a response, for 3,683 petitions within an average of
112 days (3.7 months) per petition. Additionally, there were
363 outstanding OPA referrals for an average of 91 days (3 months) per
referral, and there were 152 referrals for which the case was closed without
a response for an average of 336 days (11.2 months) per referral.
According to the information in ECTS as of the September 30, 2010, data
query, we determined that the BOP Wardens responded to OPA referrals
within an average of 105 days (3.5 months) per petition, and had
134 outstanding referrals for an average of 126 days (4.2 months) per
referral.

      We further analyzed specific OPA referrals for which, according to
ECTS the referral was pending with BOP Wardens for a significant period of
time, to determine the reasons why the referrals were pending, as shown in
Exhibit 23.


                                                            
              85
          Two of the referrals that the BOP Headquarters did not respond to were for the
same petitioner. Therefore, the four non-responses related to three petitioners.



                                                               42 

 


                                     EXHIBIT 23 

                    CLEMENCY PETITION REFERRALS TO BOP WARDENS 

                   PENDING IN ECTS FOR SIGNIFICANT PERIODS OF TIME


                                                                 ECTS
                                                               RESPONSE
                                                                DATE OR
                                        ECTS                     DATE
                                       INITIAL                  CLOSED
                                      REFERRAL                 WITH NO    ECTS TOTAL           BOP WARDEN REASON FOR
    OPA CASE NO.                        DATE                   RESPONSE      TIME                       DELAY
                                                                          1,965 days       Monitoring procedures were not
    2000-11-0247                      12/07/00                 04/25/06
                                                                          (5.4 years)      effective.
                                                                                           No records or inmate file to
                                                                           1,188 days      review regarding the
    2004-09-1060                      09/08/04                 12/10/07
                                                                           (3.3 years)     non-response. Inmate was
                                                                                           released 04/25/05.
                                                                                           No record of receiving an OPA
                                                                            857 days
    2008-01-0462                      01/22/08                   ---                       request by the inmate or
                                                                          (2.3 years) 86
                                                                                           institution.
Source: OIG analysis of ECTS data and sampled BOP institution or contract facility Wardens

      BOP Headquarters officials could not address our questions specific to
the BOP Wardens and the Wardens’ processes for responding to the OPA’s
requests. Therefore, we selected a sample of 37 BOP institutions and 4 BOP
contract facilities and sent questionnaires regarding their procedures for
responding to the OPA’s referrals. The sampled BOP institutions and
contract facilities are listed in the Objectives, Scope, and Methodology in
Appendix I.

      We received responses from all 41 facilities sampled. Based on the
responses received, none of the institutions and contract facilities indicated
any local written procedures for responding to the OPA’s referrals. However,
BOP Program Statement 1330.15 requires that when the OPA needs
additional information, a referral will be forwarded directly to the Warden of
the institution housing the inmate, with a copy to BOP Headquarters. In
these cases, the Warden must ensure the requested documents are
forwarded to the OPA within 15 working days and a copy of the transmittal
memorandum is provided to BOP Headquarters.

     According to the responses to our questionnaire, OPA referrals are
generally received by the Warden or the Warden's Office, and are assigned
                                                            
              86
          This referral was outstanding as of the May 28, 2010, OIG data query that
included petitions pending at the beginning of FY 2005 and clemency petitions opened
between FY 2005 and May 28, 2010. The referral was still outstanding as of the
September 30, 2010, data query.


                                                                           43 

 


to an institution or contract facility staff member, usually a case manager or
Unit Manager, to compile a response. The staff member is responsible for
compiling the documents and a response. The information is then routed for
the Warden's signature before being sent to the OPA. For the OPA’s
referrals, some of the institutions and contract facilities indicated that they
did not have any procedures for monitoring or tracking these referrals, while
other institutions and contract facilities indicated that referrals were
monitored by the Warden’s Office or Secretary, the Unit Manager, Case
Management Coordinator, or the Executive Assistant. Monitoring was
conducted electronically or using log sheets.

       In our questionnaire, we asked, “What factors can contribute to a
delayed response?” The common responses for the BOP institutions and
contract facilities that responded to our questionnaire were: (1) the
institution did not receive the initial OPA referral; (2) the institution lacks a
designated tracking system or management oversight; (3) some OPA
referrals may require more time, possibly due to medical or mental
evaluations of the inmate; (4) the inmate was transferred or released from
the institution; (5) the institution’s responsible staff was on extended leave,
such as military leave, or transferred to a different institution; and (6) the
OPA’s referrals are not sent consistently by either mail, e-mail, or fax, or to
a consistent recipient at the institution.

        Next, our questionnaire asked, “Why do some petitions take longer
than others?” The common responses for the institutions and contract
facilities that responded to our questionnaire were: (1) differing staff
workloads and priorities; (2) some of the OPA’s referrals may require more
time, including requests for medical records or progress reports, which are
not always readily available; (3) the institution’s lack of tracking or
monitoring system; and (4) the inmate was transferred from the institution.

       Finally, our questionnaire asked, “For the petitions that this institution
did not respond to OPA’s referral, why did this institution not respond? What
factors can contribute to a non-response?” The common responses for the
institutions and contract facilities that responded to our questionnaire were:
(1) the institution did not receive the OPA’s referral; (2) the inmate was
transferred or released from the institution; and (3) the institution’s lack of
tracking or monitoring system.

      At the end of our questionnaire, we provided the 41 BOP institutions
and contract facilities with an opportunity to provide any suggestions for
improving the process. Many institutions and contract facilities suggested
that the OPA send all referrals electronically rather than by mail or fax.
Doing this would eliminate mail delays and would produce easier tracking


                                       44 

 


and monitoring by both the OPA and the BOP institutions and contract
facilities. In June 2010, the OPA established a separate e-mail address to
request and receive documentation electronically from the BOP; previously
all referrals were processed through the mail.87 We believe that this new
procedure should reduce the amount of time for requesting and receiving
reports, improve tracking of outstanding referrals, and enhance follow-up.88
However, as of the date of this audit, the electronic processing of the OPA’s
referrals has only been implemented for the BOP.89 Therefore, we
recommend that the OPA process all future referrals electronically.90 The
OPA noted during our audit that its new case management system will
directly facilitate the electronic transmittal of referrals, so when the case
management system is implemented, all referrals will be transmitted
electronically.

      As mentioned previously, BOP Program Statement 1330.15 governs
the responsibilities and timelines for processing clemency petitions and
responding to the OPA’s referrals. Overall, we believe that the procedures
for processing clemency petitions in Program Statement 1330.15 are
adequate to respond to the OPA’s referrals in a timely manner. However, we
found that the BOP Wardens were not consistently adhering to the
timeframes outlined in the Program Statement and that the average
response time per petition was 105 days (3.5 months). Therefore, we
recommend that the BOP issue additional guidance to ensure that its
Wardens comply with Program Statement 1330.15. The additional guidance
should include procedures for monitoring or tracking these referrals.




                                                            
              87
           According to the Pardon Attorney, with the implementation of electronic referrals
for all BOP requests, the cost for mail services was reduced by approximately $15,000 as of
the spring of 2011.
              88
          According to the Pardon Attorney, with the implementation of electronic requests,
the BOP has tremendously improved its timeliness for responding to the OPA. As of
July 2011, the Pardon Attorney estimated that the BOP responds timely to 85 percent of the
OPA’s requests in accordance with the BOP’s own policies.
              89
          In 2011, the OPA began sending referrals electronically to the USAOs, FBI, and
U.S. Probation Office, but the remaining referrals to other entities are still sent through
regular mail.
              90
           The only documents that cannot be transmitted electronically are documents that
require original signatures, such as the petition, the report and recommendation transmitted
to the ODAG for review and signature, and the signed report and recommendation
transmitted to the White House.


                                                               45 

 


     U.S. Attorneys’ Offices

      We interviewed staff from the Executive Office for United States
Attorneys (EOUSA) to obtain an understanding of any EOUSA and USAOs
procedures for responding to OPA referrals. EOUSA officials explained that
EOUSA does not receive referrals from the OPA, nor does EOUSA monitor
the USAOs’ responses. However, EOUSA staff referred us to the U.S.
Attorneys’ Manual which states that the OPA generally requests a response
within 30 days and when the U.S. Attorney expects an unusual delay in
responding to the OPA, the U.S. Attorney should advise the OPA accordingly.

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent 882 referrals to USAOs. We determined that USAOs
responded to, or the OPA closed the referral without a response, for
684 petitions within an average of 152 days (5.1 months) per petition.
Additionally, there were 72 outstanding OPA referrals for an average of
293 days (9.8 months) per referral, and there were 32 referrals for which
the case was closed without a response for an average of 854 days
(2.3 years) per referral. According to the information in ECTS as of the
September 30, 2010, data query, we determined that USAOs responded to
OPA referrals within an average of 153 days (5.1 months) per petition and
had 45 outstanding referrals for an average of 305 days (10.2 months) per
referral.

      We further analyzed specific OPA referrals for which, according to
ECTS, the referral was pending at the USAOs for a significant period of time,
to determine the reasons why the referrals were pending, as shown in
Exhibit 24.




                                     46 

 


                                     EXHIBIT 24 

                      CLEMENCY PETITION REFERRALS TO THE USAOS

                   PENDING IN ECTS FOR SIGNIFICANT PERIODS OF TIME


                                                                 ECTS
                                                               RESPONSE
                                                                DATE OR
                                      ECTS                       DATE
                                     INITIAL                    CLOSED
                                    REFERRAL                   WITH NO    ECTS TOTAL
    OPA CASE NO.                      DATE                     RESPONSE      TIME              USAOS REASON FOR DELAY
                                                                                          USAO believes the original request
                                                                                          was received April 2008 and a
                                                                          2,479 days      response was filed in August 2009.
    2002-09-1239                    06/02/03                   03/16/10
                                                                          (6.8 years)     However, the office was
                                                                                          undergoing several personnel
                                                                                          transitions during that time.91
                                                                                          USAO does not know reason for no
                                                                          2,541 days
    2000-01-0330                    03/07/00                   02/20/07                   response due to passed time and
                                                                          (6.9 years)
                                                                                          movement of personnel.
                                                                                          USAO responded to a previous and
                                                                                          a subsequent OPA request. After
                                                                          1,947 days
    2000-05-0798                    09/14/00                   01/13/06                   USAO responded to a subsequent
                                                                          (5.3 years)
                                                                                          request, it considered the previous
                                                                                          request closed.92
                                                                                          USAO responded on 12/19/08.
                                                                           1,661 days
    2001-08-1682                    11/09/05                     ---                      Delay resulted from misplacement
                                                                          (4.6 years)93
                                                                                          of the petition and file.94
Source: OIG analysis of ECTS data and sampled USAOs

       The OPA sends referrals directly to the relevant USAOs and each USAO
is responsible for its own procedures and responses to the OPA. Therefore,
we selected a sample of 30 USAOs to which we sent a questionnaire
regarding the procedures for responding to the OPA’s referrals. The sampled
USAOs are included in the Objectives, Scope, and Methodology in
Appendix I.
                                                            
              91
          According to the OPA, the case file does not have any record of a response in 

August 2009. The Pardon Attorney also explained that approximately nine additional

follow-up requests were made by the OPA. 

              92
           According to the OPA, the case file confirmed the USAO’s response and the

referral should have been closed with no response required. 

              93
          This referral was outstanding as of the May 28, 2010, OIG data query that 

included petitions pending at the beginning of FY 2005 and clemency petitions opened 

between FY 2005 and May 28, 2010. The referral was still outstanding as of the

September 30, 2010, data query. 

              94
                     According to the OPA, the response was not received until February 20, 2009.


                                                                            47 

 



       We received responses from all of the 30 USAOs sampled. Based on
the responses received, we found that none of the 30 USAOs had
district-specific written policies or procedures for responding to the OPA’s
referrals. According to the questionnaire responses, the U.S. Attorney
generally receives the OPA’s referrals. Draft responses are generally the
responsibility of either the Assistant U.S. Attorney involved with the original
prosecution, another Assistant U.S. Attorney if the prosecuting attorney is no
longer at the district, or a supervisory Assistant U.S. Attorney. Using the
petitioner’s case file, a draft response is prepared and forwarded to the
U.S. Attorney for review and signature and then sent to the OPA. As a result
of this audit, two USAOs, the Eastern District of Kentucky and the District of
Massachusetts, created memoranda describing the district’s guidelines for
responding to the OPA’s referrals.

      Of the 30 USAOs that responded to our questionnaire, most offices
indicated that they follow the OPA's timeline and request extensions as
needed. However, four offices told us their goals were to respond within 30,
45, and 60 days. Eight of the offices responded that they monitor responses
to the OPA’s referrals using an individual or the district calendar. The offices
responded that monitoring typically occurs by supervisors, including the
Criminal Chief or First Assistant U.S. Attorney; by the supervisor's personal
assistant; or during regular district file reviews. However, most offices
indicated that they do not have a formal process for monitoring the OPA’s
referrals or are implementing a process as a result of this audit.

      In our questionnaire, we asked, “For the petitions that took this district
longer to respond, what factors can contribute to a delayed response?” The
30 USAOs had the following common responses for factors that can
contribute to a delayed response: (1) demands of the responding official’s
workload and priority of other cases; (2) time needed to become familiar
with the original prosecution; (3) coordination with other components;
(4) time to contact officials involved with the original prosecution; and
(5) time to locate, retrieve, or recreate files.

       Next, our questionnaire asked, “Why do some petitions take longer
than others?” The 30 USAOs had the following common responses as
reasons that some of OPA’s referrals take longer than others to respond to:
(1) age and complexity of the case; (2) workload demands; (3) time spent
locating and reviewing files; (4) attorney from original prosecution is no
longer in the USAO; (5) management changes; and (6) time spent
contacting the original judge, investigator, probation officer, and victim.




                                      48 

 


       Finally, our questionnaire asked, “For the petitions that this district did
not respond to OPA's referral, why did this district not respond?” The
30 USAOs had the following common responses for reasons that the district
did not respond to the OPA’s referral: (1) internal delay, including a staff
issue or a delay during an information request to another component;
(2) ECTS was inaccurate and the “non-response” was handled by another
DOJ component; (3) the present U.S. Attorney for the district office was
unable to explain why the office did not respond because the referral
occurred when a previous U.S. Attorney was in that office; and (4) the
district did not have a record of receiving the OPA’s referral.

      At the end of our questionnaire, we provided the 30 USAOs with an
opportunity to provide suggestions for improving the process. The USAOs
noted the following suggestions: (1) the OPA could send referrals to the
USAOs electronically with PDF attachments; (2) the OPA’s follow-up on
referrals in which the response timelines were not met could include a
spreadsheet of open referrals at each USAO; (3) the OPA could allow longer
response times for older prosecutions; and (4) the OPA could contact the
USAOs prior to sending information to allow the district additional time to
research the prosecution and prepare its recommendation.95

        With regard to the first suggestion offered by the USAOs, this audit
recommends that the OPA process all future referrals electronically.96
According to the OPA, the new case management system will directly
facilitate the electronic transmittal of referrals, so at that point all referrals
will be transmitted electronically.

      Regarding the USAOs’ second suggestion that the OPA’s follow-up
regarding referrals include a list of all open referrals, the OPA agreed with
the suggestion and is presenting it to its contractor to add this capability to
the new case management system. Therefore, we recommend that the OPA
include an aging report detailing all open referrals when following up with
the USAOs.


                                                            
              95
           We discussed the third suggestion with the Pardon Attorney, who disagreed, since
the OPA presently requests a response within 30 days and adds an additional 30 days
before following up (60 days). Further, according to the U.S. Attorneys’ Manual, the OPA
generally requests a response within 30 days. When the U.S. Attorney expects an unusual
delay in responding to the OPA, the U.S. Attorney should advise the OPA accordingly.
However, we found that the USAOs were not always complying with the U.S. Attorneys’
Manual by notifying the OPA of any delays.
              96
                     In the spring of 2011, the OPA began sending referrals electronically to the
USAOs.


                                                               49 

 


      As mentioned earlier in this report, the U.S. Attorneys’ Manual states
that the OPA generally requests a response within 30 days, and when the
U.S. Attorney expects an unusual delay in responding to the OPA, the
U.S. Attorney should so advise the OPA. Overall, we believe that these
procedures are adequate to respond to the OPA’s referrals in a timely
manner. However, we found that the USAOs have not always complied with
the U.S. Attorneys’ Manual by responding to the OPA’s referrals within
30 days, nor have the USAOs always complied with the manual by notifying
the OPA of expected delays. Therefore, we recommend that EOUSA issue
additional guidance to the USAOs reminding them to comply with the
timeframes in the U.S. Attorneys’ Manual and to notify the OPA of expected
delays in responding to the OPA within the 30 day request. The additional
guidance should include examples of policies and procedures developed by
the U.S. Attorneys in the Eastern District of Kentucky and the District of
Massachusetts.

      Civil Rights Division

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent two referrals to the Civil Rights Division. We
determined that the Civil Rights Division responded to the referral for
1 petition in 263 days (8.8 months). For the other referral, the Civil Rights
Division did not respond and the case was closed without a response after
2,267 days (6.2 years). According to the information in ECTS as of the
September 30, 2010, data query, no additional referrals had been sent to
the Civil Rights Division since the May 28, 2010, ECTS data query.

      Civil Rights Division officials explained that the petition that took
263 days (8.8 months) to respond was handled in 2002 by the Section Chief
and the Deputy Assistant Attorney General, who both have left DOJ.
Further, the documents referencing this matter do not disclose any reason
for the period of time it took to recommend against pardon. Therefore, Civil
Rights Division Officials could not explain the delayed response. Regarding
the other OPA referral that was outstanding for 2,267 days (6.2 years), Civil
Rights Division officials stated that it had no record of prosecuting this case,
the petitioner, or receiving the request.

       Also, Civil Rights Division officials stated the Assistant Attorney
General for the Civil Rights Division is responsible for responding to the
OPA’s requests and does so based on a recommendation made by the Chief
of the Criminal Section. The Chief of the Criminal Section follows the
standards and procedures as defined in the U.S. Attorneys’ Manual,
§ 1-2.112, Standards for Considering Pardon Petitions. Civil Rights Division
officials stated that they seek to meet any timing requests made by the OPA.


                                       50 

 



       We note that the Civil Rights Division only received two referrals
during the scope of our audit, and the most recent referral was sent in
FY 2002.97 Nevertheless, we believe it is important that the Civil Rights
Division timely respond to any referrals it receives in the future. As a result,
we recommend that the Civil Rights Division develop procedures to ensure
that it complies with the U.S. Attorneys’ Manual in responding to the OPA’s
referrals within the established timeframes. The procedures should be
developed in collaboration with components that generally respond to the
OPA within the established timeframes, including the Antitrust Division and
the Civil Division.

              Federal Bureau of Investigation

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent 1,359 referrals to the FBI. We determined that the FBI
responded to, or the OPA closed the referral without a response, for
1,012 petitions within an average of 342 days (11.4 months). Additionally,
there were 99 outstanding OPA referrals for an average of 238 days
(7.9 months) per referral, and there were 19 referrals for which the case
was closed without a response for an average of 346 days (11.5 months) per
referral. According to the information in ECTS as of the September 30,
2010, data query, we determined that the FBI responded to OPA referrals
within an average of 343 days (11.4 months) per petition and had
47 outstanding referrals for an average of 311 days (10.4 months) per
referral.

      We further analyzed specific OPA referrals for which, according to
ECTS, the referral was pending at the FBI for a significant period of time, to
determine the reasons why the referrals were pending, as shown in
Exhibit 25.




                                                            
              97
         Our interviews and questionnaires were specific to the OPA’s referrals related to
clemency petitions pending at the beginning of FY 2005 and clemency petitions opened
between FYs 2005 and May 28, 2010. As a result, our audit scope included referrals prior to
FY 2005 related to clemency petitions pending at the beginning of FY 2005.



                                                               51 

 


                                     EXHIBIT 25 

                       CLEMENCY PETITION REFERRALS TO THE FBI

                   PENDING IN ECTS FOR SIGNIFICANT PERIODS OF TIME


                                                                 ECTS
                                                               RESPONSE
                                                                DATE OR
                                       ECTS                      DATE
                                      INITIAL                   CLOSED      ECTS
                                     REFERRAL                  WITH NO      TOTAL
    OPA CASE NO.                       DATE                    RESPONSE     TIME                FBI REASON FOR DELAY
                                                                                        FBI response was sent on
                                                                          2,692 days    02/05/01. A subsequent request
    2000-07-1008                    10/23/00                   03/07/08
                                                                          (7.4 years)   was sent on 2/22/07 and the FBI
                                                                                        returned a response on 03/07/08.98
                                                                                        First request was returned
                                                                                        unopened - unable to conduct
                                                                                        background investigation because
                                                                          1,431 days
    2005-10-0002                    11/04/05                     ---                    petitioner was not a U.S. citizen. A
                                                                          (3.9 years)
                                                                                        subsequent request was received
                                                                                        01/17/08 and the FBI returned a
                                                                                        response on 03/10/08.99
                                                                                        First request was returned
                                                                                        unopened. A subsequent request
                                                                          1,479 days
    2005-11-0087                    05/10/06                     ---                    was received 08/25/09 and the FBI
                                                                          (4.1 years)
                                                                                        returned a response on
                                                                                        02/02/10.100
Source: OIG analysis of ECTS data and the FBI

      Referrals requesting assistance from the FBI are often more complex
than referrals to other DOJ law enforcement agencies like the DEA and ATF.
While referrals to agencies like the DEA and ATF generally seek an opinion
on the clemency petition, the FBI also performs background investigations
and translation services on behalf of the OPA. However, we found that ECTS
does not separately track these services. Therefore, we were unable to
separate this information and instead could only determine the average

                                                            
              98
         According to the OPA, the case file confirmed the FBI’s response and it should
have been docketed in ECTS.
              99
          According to the OPA, its case file confirmed the FBI’s response. The Pardon
Attorney stated that the OPA should have closed the referral after determining the FBI was
unable to conduct the background investigation.
              100
             According to the OPA, the case file documented that the FBI incorrectly closed
the initial background investigation request. When the OPA discovered the error on July 31,
2009, it issued a subsequent referral on August 25, 2009. The Pardon Attorney stated that
the OPA should have closed the initial referral after determining the FBI’s error, or at the
very least upon issuing the subsequent referral.


                                                                            52 

 


amount of time a petition is at the FBI. As a result, the FBI averages noted
previously may include both background investigations and translations
services.

      During our audit we interviewed FBI officials from its Special Inquiry
and General Background Investigations Unit (SIGBIU), while officials from
the Language Services Section completed our questionnaire. The SIGBIU
handles OPA requests for background investigations, while the Language
Services Section provides translation services for the OPA. Based on
discussions with the OPA, SIGBIU, and the Language Services Section we
determined that a majority of OPA’s referrals to the FBI are for background
investigations.

      The FBI stated that pardon-related background investigations are a
lower priority, with the priority going to investigations for Presidential
appointments and Senate confirmations. According to the FBI, the
administration change in January 2009 caused a backlog in pardon
background investigations because the FBI was required to conduct
background investigations on new Presidential appointees. As of our
interview with FBI officials on September 23, 2010, the FBI officials stated it
was conducting 43 background investigations related to pardon applicants,
with the oldest being from May 2009.

       According to the FBI, during the scope of our audit it had an
established internal deadline of 120 calendar days for background
investigations related to pardon petitions. In November 2010, the FBI
reduced its deadline for background investigations to 60 days. FBI officials
stated that it utilizes an internal tracking database to monitor the progress
of all background investigations. According to this database, background
investigations for clemency petitions conducted from FY 2005 to May 2010
averaged 232 days (7.7 months), which materially exceeded its established
timeframe. According to the FBI statistics in its database, the average time
to conduct background investigations for clemency petitions by fiscal year,
for FYs 2005 to 2010, ranged from a low of 174 days (5.8 months) in
FY 2009, to a high of 286 days (9.5 months) in FY 2005, as shown in
Exhibit 26.




                                      53 

 


                                             EXHIBIT 26 

                             FBI BACKGROUND INVESTIGATION STATISTICS 

                                      FOR CLEMENCY PETITIONS 

                                     FISCAL YEARS 2005 - 2010101


                                                               AVERAGE TIME TO CONDUCT A
                                   FISCAL YEAR                 BACKGROUND INVESTIGATION
                                    FY 2005                      286 days (9.5 months)
                                    FY 2006                      249 days (8.3 months)
                                    FY 2007                      224 days (7.5 months)
                                    FY 2008                      213 days (7.1 months)
                                    FY 2009                      174 days (5.8 months)
                                   FY 2010102                    248 days (8.3 months)
                  Source: FBI

      According to the FBI officials, the reason for the variance in the
processing time for pardon-related background investigations is due to the
FBI’s shifting priorities and as mentioned previously, pardon-related
background investigations are a lower priority.

      We also sent a questionnaire related to translation services that were
completed by the Language Services Section. FBI officials stated that once
the materials that require translating are routed to the Language Services
Section, the appropriate Translation and Deployment Unit responsible for the
language requested is assigned to the referral. According to the FBI, the
OPA requested 92 translation services between FYs 2005 through 2010,
primarily for pardon petitions in Spanish. The FBI completed the translation
services in 14 days on average, which was within established timeframes.

      Overall, we believe that the FBI’s procedures for responding to
referrals requesting translation services are adequate. However, we found
that the FBI is not meeting its internal deadlines and responding to the
OPA’s referrals requesting background investigations on pardon petitions
within established timeframes. Therefore, we recommend that the FBI
evaluate its established timeframe to process clemency petitions and
establish an internal deadline that is attainable based on prioritizations and
resources.



                                                            
              101
          The FBI statistics from its database are based on the fiscal year the FBI
completed the background investigation and returned the information to the OPA.
              102
                      The FY 2010 statistics provided by the FBI are through September 22, 2010.


                                                               54 

 


              Criminal Division

      According to the information in ECTS as of the May 28, 2010, data
query, the OPA sent 19 referrals to the Criminal Division. We determined
that the Criminal Division responded to, or the OPA closed the referral
without a response, for 13 petitions within an average of 485 days
(1.3 years). Additionally, there were no outstanding OPA referrals but there
were six referrals for which the case was closed without a response for an
average of 1,054 days (2.9 years) per referral. According to the information
in ECTS as of the September 30, 2010, data query, we determined that the
Criminal Division responded to OPA referrals within an average of 489 days
(1.3 years) per petition and had no outstanding referrals.

      According to Criminal Division officials, the Criminal Division uses the
same procedures to track OPA referrals that it uses for any other
correspondence addressed to the Assistant Attorney General for the Criminal
Division. Additionally, the Criminal Division falls under the guidelines
established in the U.S. Attorneys’ Manual, which establishes guidance for
responding to OPA referrals. Criminal Division officials also stated that it
strives to respond to all referrals promptly.

      In response to our questionnaire and subsequent discussions, Criminal
Division officials stated that in their opinion, the ECTS data does not
accurately reflect its efforts to respond to OPA referrals as discussed below.

      Criminal Division officials stated that the average should not include
two cases that were prosecuted by its former Counterespionage Section,
(now part of the National Security Division) for which the OPA closed the
referrals without a response after more than 5 years on average.103 We
disagree that these two cases should not be included in the Criminal
Division’s average because the OPA referrals related to these petitions were
made when the Counterespionage Section was part of the Criminal Division.
Further, the referrals were closed by the OPA without a response within
5 months after the section became part of the National Security Division;
therefore, we found these to be valid referrals to the Criminal Division. In
addition, the Criminal Division was the primary prosecuting agency for these

                                                            
              103
            We followed up with the National Security Division regarding these two referrals.
According to National Security Division officials, it did not have a record of responding to the
OPA for either referral. However, the National Security Division Counterespionage Section’s
chronological files for the years 2000 and 2001 (when it was part of the Criminal Division)
included correspondence with other agencies regarding the OPA referrals. National Security
Division officials stated that at that time, regular procedures would have been to provide
oral responses to the OPA.



                                                               55 

 


cases. We also note that the Criminal Division did not dispute one case that
was included in our average, which was also prosecuted by its former
Counterespionage Section, while it was still part of the Criminal Division. In
this case, a response was provided in 40 days, during the time that it was
part of the Criminal Division. Nonetheless, if we excluded all three of these
petitions from our calculation, according to ECTS, as of September 30, 2010,
the average response time for the Criminal Division would be 233 days
(7.8 months) per petition.

      Criminal Division officials also stated that a written response was
provided to the OPA for one OPA petition that was not reflected in the ECTS
data, which we confirmed with the OPA. If we included this petition in our
calculation, as of September 30, 2010, the average response time for the
Criminal Division would be 458 days (15.3 months) or slightly less than the
Criminal Division average per the ECTS data. Criminal Division officials also
indicated that they verbally communicated with the OPA regarding an
additional four petitions. If we included all petitions for which written or
verbal responses were provided in our calculations, as of September 30,
2010, the average response time for the Criminal Division would be
417 days (13.9 months).

       In addition, Criminal Division officials stated that in all but seven
cases, the Criminal Division only had an ancillary role and that it would have
no basis to opine on any clemency matters related to these cases. Criminal
Division officials further stated the response times for the cases in which it
only had an ancillary role should not be included in its average response
time. We disagree with the Criminal Division’s assertions related to the
cases for which it states that it was not the primary prosecuting agency.
The OPA’s goal is to obtain opinions and information from all components
that may have information regarding the petitioner, not just the primary
prosecuting agency. In fact, in most instances the OPA sent referrals to the
other prosecuting agencies at the same time the referrals were sent to the
Criminal Division. In our judgment, the Criminal Division should have
provided a written response to the OPA for those cases for which it received
an OPA referral, including those cases for which the Criminal Division was
not the primary prosecuting agency. The OPA’s referrals were based on the
fact that the Criminal Division had a role in each case, even if it was not the
primary prosecuting agency. As a result, the Criminal Division should have
provided a written response to all OPA referrals, even if only to inform the
OPA that the Criminal Division had a limited role in the case, and therefore
believed that it had no basis to opine on clemency matters related to the
case. Additionally, despite stating that our calculations should not include
cases for which the Criminal Division was not the primary prosecuting
agency because it would have no basis to opine on clemency matters, we


                                      56 

 


found that the Criminal Division provided a formal response to the OPA for
seven cases that, according to the Criminal Division, it was not the primary
prosecuting agency. Nonetheless, if we remove the petitions for which the
Criminal Division stated that it only had an ancillary role, from our
calculation, according to ECTS, as of September 30, 2010, the Criminal
Division responded to, or the OPA closed the referral without a response,
within an average of 612 days (20.4 months).

      In sum, the Criminal Division would prefer that its average response
time included in this report only include those cases for which it was the
primary prosecuting agency, except for those cases prosecuted by its former
Counterespionage Section. As a result, the Criminal Division believes that
its average response time, as of September 30, 2010, should be reported as
66 days (2.2 months). We disagree with the Criminal Division’s assertion for
the reasons stated previously.

      Finally, Criminal Division officials also stated that we should not
include older cases in calculating our averages. However, as stated
previously, our audit included clemency petitions pending at the beginning of
FY 2005 and clemency petitions opened between FYs 2005 and 2010. As a
result, our audit included clemency petitions and referrals from FYs 1994
through 2010, which is the same scope we used to analyze the efforts of all
DOJ components included in this report. In addition, the Criminal Division’s
average response times for each fiscal year from FYs 2005 through 2010, as
shown in Exhibit 20, indicate that although the Criminal Division’s response
time decreased from FYs 2006 to 2007, its response time increased from
FYs 2007 to 2009.

       Overall, we concluded that the Criminal Division did not respond to the
OPA’s referrals within established timeframes. As a result, we recommend
that the Criminal Division develop procedures to ensure that it formally
responds to all OPA referrals in accordance with established timeframes,
including those cases for which Criminal Division’s role is ancillary, even if
the only response provided is to inform the OPA that based on its limited
role in the case, the Criminal Division has no basis to opine on clemency
matters related to the case.

Office of the Deputy Attorney General

       The ODAG has a significant role in reviewing the OPA’s clemency
recommendations and reports before they are provided to the White House.
We interviewed ODAG officials to obtain an understanding of any procedures
it has for reviewing the OPA’s reports and recommendations regarding
clemency petitions. Our interviews with ODAG officials covered clemency


                                     57 

 


petitions pending at the beginning of FY 2005 and clemency petitions opened
between FYs 2005 and May 28, 2010.

       According to the information in ECTS as of the May 28, 2010, data
query, we found that the OPA sent 10,972 reports to the ODAG for review
that related to 9,493 clemency petitions.104 We determined that the average
amount of time a petition was pending at the ODAG during this time period
was 135 days (4.5 months) per petition. Additionally, according to the
information in ECTS as of the May 28, 2010, data query, 1,419 petitions
were at the ODAG awaiting review of the corresponding reports. However,
according to the information in ECTS as of the September 30, 2010, data
query, we determined that petitions were at the ODAG for an average of
142 days (4.7 months) per petition and 860 petitions were at the ODAG
awaiting review. Further, we found that the average amount of time a
petition was at the ODAG fluctuated over the 6 fiscal years in our scope, as
shown in Exhibit 27.

                                                         EXHIBIT 27 

                                               ODAG REVIEW TIME PER PETITION 

                                                 FISCAL YEARS 2005 - 2010105


                                   FISCAL YEAR                 AVERAGE TOTAL REVIEW TIME
                                     FY 2005                        223 days
                                     FY 2006                        210 days
                                     FY 2007                        134 days
                                     FY 2008                         22 days
                                     FY 2009                          6 days
                                     FY 2010                        193 days
                  Source: OIG analysis of ECTS data

     As shown above, there was a significant decrease in the average
number of days petitions were pending at the ODAG as of the end of
FYs 2008 and 2009. This decrease resulted, in part, from a significant
decrease in the number of petitions processed by the OPA and forwarded to
                                                            
              104
                      More than one report may be sent to the ODAG for a single petition.
              105
            The average number of days presented are for the most recent year that the
ODAG reviewed and returned the recommendation and report to the OPA. Therefore, the
original report and recommendation may have been sent to ODAG in a prior fiscal year.
Accordingly, because the nearly 1,400 cases returned to the OPA in February 2010 were
returned to the ODAG after FY 2009 for further processing, the average processing time at
ODAG for FY 2009 did not include the cases affected by the February 2010 transfer. This
transfer is discussed in more detail later in this section.



                                                               58 

 


the ODAG for review during the period that the Pardon Attorney position was
vacant from January 2008 through April 2008.

     As stated previously, as of the end of FY 2010, 860 petitions were
pending at the ODAG. However, subsequent to our review, the ODAG
processed almost half of the petitions in the backlog resulting in a decrease
in number of petitions pending at the ODAG to 464 as of February 28, 2011.

      During our interviews, ODAG officials stated that it does not have any
written policies or procedures for reviewing the OPA’s reports and
recommendations regarding clemency petitions. ODAG officials explained
that overall the process is the same for all petitions, but the petitions may
be handled slightly differently depending on the type of report they receive
from the OPA.106 ODAG officials stated that once ODAG receives the reports,
the reports are logged and assigned to the designated official for review.
During the scope of our audit, the ODAG periodically may have had more
than one staff member assigned to clemency petitions, but since
January 2009, there has been only one reviewer at any given time. In
addition, reviewing clemency applications is just one of several duties
assigned to the designated official. Other duties include overseeing
programs, such as the Office of Justice Programs, United States Trustee
Program, and the Office of Tribal Justice. A control sheet is used to log the
date a report was received at the ODAG and the date it is returned to the
OPA. ODAG officials stated that there are no established timelines for
reviewing reports and the ODAG does not track timeliness.

       At the time of our interview, ODAG officials stated that the designated
official assigned to review clemency petitions assesses the reports and
prepares a memorandum with a recommendation to the Deputy Attorney
General. ODAG officials stated that they typically do not override the OPA’s
recommendations. The reviewer generally looks for unusual cases to
highlight for the Deputy Attorney General’s attention, such as cases
involving excessive sentences for the crime. The ODAG reviewer may also
suggest changes to the report before sending it to the White House, in which
case the report is sent back to the OPA. The Deputy Attorney General
reviews all petitions and makes the final determination on whether to
approve the recommendation by signing the report. However, ODAG
officials stated that the process can vary based on who is reviewing the OPA
reports and the Deputy Attorney General in office. Therefore, the process
previously described may not be representative of the process used at any
given time.
                                                            
              106
          The OPA may prepare a summary report, short report, or a long report for the
ODAG to review. Additional information regarding these reports and their uses can be found
in Appendix IV.


                                                               59 

 



       During our interview with ODAG officials, we discussed the 135-day
average. ODAG officials stated that timeliness in processing the reports and
recommendations can be impacted by an administration change or the lack
of a confirmed Deputy Attorney General. However, we found that during the
11-month period for which there was an Acting Deputy Attorney General,
from February 2010 through December 2010, the Acting Deputy Attorney
General processed more than 90 percent of the reports and
recommendations provided by the OPA. Additionally, reports may be
returned to the OPA because significant time has passed while the report has
been awaiting review at the ODAG, and the OPA must redo its review to
determine if the information in the report is still accurate and the
recommendation is still valid. For example, in February 2010, nearly
1,400 cases were returned to the OPA to change the signature block on the
cover page because there had been a change in the person serving as
Deputy Attorney General. Due to the length of time that had passed since
its original transmittal to the ODAG in 2009 and 2010, the OPA decided it
was necessary to review and update all the clemency cases. The OPA stated
that this event had a great effect on the workload of OPA attorneys and
staff.

       Overall, we believe the lack of policies, procedures, and timeframes for
reviewing clemency recommendations and reports contributes to the ODAG’s
lengthy reviews, which further increases a petition’s processing time and
contributes to the overall backlog of clemency petitions. Therefore, we
recommend that the ODAG develop policies, procedures, and timeframes for
reviewing the OPA’s clemency reports and recommendations to help ensure
that it responds to the OPA in a timely manner.

       We also discussed the use of an aging report with ODAG officials,
which would allow the OPA to consolidate the follow-up and provide the
ODAG with information regarding the OPA reports that are at the ODAG, by
length of time. At the time of our audit, the OPA did not follow up with the
ODAG regarding outstanding reports and recommendations. During our
audit the OPA concurred with this suggestion and ODAG officials thought
that a monthly aging report would be useful. We recommended that the
OPA provide the ODAG with a monthly aging report listing clemency petitions
that are currently pending at the ODAG. As a result, beginning in
March 2011, the OPA implemented our recommendation and began
providing the ODAG with a monthly aging report listing the clemency
petitions that were at the ODAG and the date the reports and
recommendations were provided to the ODAG.




                                      60 

 


White House

      According to the information in ECTS as of the September 30, 2010
data query, we found that petitions were pending at the White House an
average of 282 days (9.4 months) before a decision was made by the
President. Further, we found that the average amount of time a petition was
at the White House fluctuated over the 6 fiscal years in our scope, as shown
in Exhibit 28.

                                                EXHIBIT 28 

                                   WHITE HOUSE REVIEW TIME PER PETITION 

                                        FISCAL YEARS 2005 - 2010107


                                   FISCAL YEAR                 AVERAGE TOTAL REVIEW TIME
                                     FY 2005                    502 days (16.7 months)
                                     FY 2006                    307 days (10.2 months)
                                     FY 2007                    348 days (11.6 months)
                                     FY 2008                    323 days (10.8 months)
                                     FY 2009                     60 days (2.0 months)
                                     FY 2010                    335 days (11.2 months)
                  Source: OIG analysis of ECTS data

      The petitions sent to the White House that await decision further
increase the backlog because new petitioners continue to file petitions with
the OPA.108

Conclusion

      We found that during our audit scope it took almost 2 years on
average from the time the OPA received a petition until a final clemency
decision was made by the President, which we believe contributed to the
growing backlog during that time. In our judgment, a significant factor
related to the length of time it takes to process a clemency petition is that
the entities receiving referrals did not always respond to the OPA in a timely
manner. We also found that the OPA does not always follow up on
outstanding referrals or does not follow up within the OPA’s prescribed
timeframe of 60 days. During our case file review of 313 petitions, we found
                                                            
              107
           The average number of days presented are for the year of the President’s
decision. Therefore, the original report and recommendation may have been sent to the
White House in a prior fiscal year.
              108
            We did not conduct audit work at the White House because it is outside of our
jurisdiction.



                                                               61 

 


that the OPA failed to follow up on 85 (43 percent) of the 198 referrals for
which a response was not provided to the OPA within 60 days. Further, for
130 referrals for which the OPA did conduct follow-up, on average follow-up
did not occur for 168 days (5.6 months).109

        Additionally, we found that the average response times for
five components - the BOP institutions or contract facilities, USAOs, Civil
Rights Division, FBI, and Criminal Division - materially exceeded the
established timeframes. The average response time for these 5 components
ranged from 105 days (3.5 months) to 489 days (1.3 years). Based on
interviews and questionnaires sent to DOJ components that received
referrals from the OPA, we found that common reasons provided as to why
the components took so long to respond included: (1) workload demands,
(2) management and staff changes, (3) time spent locating and reviewing
files, (4) the inmate was transferred, (5) time spent contacting or
coordinating with other components, and (6) the component lacked a system
to track and monitor the request.

      Further, we found that petitions were at the ODAG an average of
142 days (4.7 months) pending review of the report and recommendation,
while petitions were at the White House for an average of 282 days
(9.4 months) before a decision was made by the President. We believe the
length of these processing times significantly contributed to the increased
backlog of clemency petitions from FY 2005 to the end of FY 2010.

       We make the following 10 recommendations to assist the OPA, DOJ
components, and the ODAG in more efficiently processing clemency
petitions. We believe that these recommendations would facilitate a further
reduction of the clemency petition backlog and contribute to a more timely
process for deciding clemency petitions.

Recommendations

We recommend that the OPA:

1.	           Establish and implement a policy and procedure ensuring follow-up is
              conducted within established timeframes for outstanding referrals.

2.	           Process all future referrals electronically.



                                                            
              109
           This includes instances in which the OPA may have conducted follow-up prior to
its 60-day deadline.


                                                               62 

 


3.	   Include an aging report detailing all open referrals when following up
      with United States Attorneys’ Offices.

4.	   Develop procedures to ensure that its case management system is
      updated and documents changes in the status of referrals.

We recommend that the BOP:

5.	   Issue additional guidance to ensure that its Wardens comply with
      Program Statement 1330.15. The additional guidance should include
      procedures for monitoring or tracking these referrals.

We recommend that EOUSA:

6.	   Issue additional guidance to the United States Attorneys’ Offices
      reminding them to comply with the timeframes in the U.S. Attorneys’
      Manual and notify the OPA of expected delays in responding to the
      OPA within the 30 day request. The additional guidance should include
      examples of policies and procedures developed by the U.S. Attorneys
      in the Eastern District of Kentucky and the District of Massachusetts.

We recommend that the Civil Rights Division:

7.	   Develop procedures to ensure that it complies with the U.S. Attorneys’
      Manual in responding to the OPA’s referrals within the established
      timeframes. The procedures should be developed in collaboration with
      components that generally respond to the OPA within the established
      timeframes, including the Antitrust Division and the Civil Division.

We recommend that the FBI:

8.	   Evaluate its established timeframe to process clemency petitions and
      establish an internal deadline that is attainable based on prioritizations
      and resources.

We recommend that the Criminal Division:

9.	   Develop procedures to ensure that it formally responds to all OPA
      referrals in accordance with established timeframes, including those
      cases for which Criminal Division’s role is ancillary, even if the only
      response provided is to inform the OPA that based on its limited role in
      the case, the Criminal Division has no basis to opine on clemency
      matters related to the case.



                                      63 

 


We recommend that the ODAG:

10.	   Develop policies, procedures, and timeframes for reviewing the OPA’s
       clemency reports and recommendations to help ensure that it
       responds to the OPA in a timely manner.




                                     64 

 


              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the OPA’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The OPA’s management is responsible for the
establishment and maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in the
OPA’s internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the OPA’s ability to effectively and efficiently operate, to correctly
state financial and performance information, and to ensure compliance with
laws, regulations, and other applicable requirements.

      Because we are not expressing an opinion on the OPA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      65 

 


                   STATEMENT ON COMPLIANCE

                  WITH LAWS AND REGULATIONS 


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OPA’s management complied with federal laws, regulations, and
requirements, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. The OPA’s management is
responsible for ensuring compliance with federal laws, regulations, and
requirements applicable to the OPA. In planning our audit, we identified the
following laws, regulations, and requirements that concerned the operations
of the auditee and that were significant within the context of the audit
objectives:

        U.S. Constitution Article 2, Section 2

        28 C.F.R. § 0.35-0.36; and 1.1-1.11

      Our audit included examining, on a test basis, OPA’s compliance with
the aforementioned laws, regulations, and requirements that could have a
material effect on OPA’s operations, through interviewing auditee personnel,
analyzing ECTS data, reviewing a sample of petitions case files, and
examining procedural practices. Nothing came to our attention that caused
us to believe that the OPA was not in compliance with the aforementioned
laws, regulations, and requirements.




                                      66 

 


                                                                           APPENDIX I

                            OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of our audit were to determine whether the OPA has
established effective procedures for processing and reducing the backlog of
clemency petitions, and whether DOJ components have established effective
procedures to respond to the OPA's referrals in a timely manner.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       The scope of our audit generally included clemency petitions pending
at the beginning of FY 2005 and clemency petitions opened between
FYs 2005 and 2010.110 As a result, our audit included 12,897 clemency
petitions opened between November 1993 and September 2010, and
40,226 referral and status actions referred between December 1993 and
September 2010, reported in OPA’s Executive Clemency Tracking
System (ECTS).111 However, we considered information outside this period
if it was relevant to the audit, and the instances in which we considered such
information are noted in the report.

      While at the OPA, we conducted interviews and obtained information
on the OPA’s processes. Additionally, we obtained information from OPA’s


                                                            
              110
          Throughout this audit report we use the term “pending” to indicate the status of
clemency petitions included in the backlog. Petitions are pending at the OPA, ODAG, or
White House. For example, a petition processed by the OPA that is awaiting review by the
ODAG would be considered “pending” at the ODAG.
              111
            The referral actions documented in ECTS track all OPA referrals to the petitioner,
petitioner’s attorney, and referral agencies, including the USAOs, FBI, and BOP, for
information, comments, and recommendations on clemency petitions. Additionally, ECTS
tracks the status of the report during the time it is at the ODAG or the White House for
review.


                                                               67 

 


ECTS and conducted a case file review of 313 petitions.112 The case file
review focused on confirming the information in ECTS, and reviewing the
files for any additional information, including OPA referrals requesting
information from entities, OPA follow-up with these entities, and the entities’
responses.

      We conducted additional audit work at the ODAG, BOP, FBI, Executive
Office for U.S. Attorneys, and Criminal Division. Additionally, we sent
questionnaires to 10 DOJ components and judgmental samples of 30 of
93 USAOs, 37 of 116 BOP institutions, and 4 of 13 BOP contract facilities,
which are listed in Exhibit 29.113 The BOP institutions and contract facilities
included Federal Prison Camps (FPC), Federal Correctional Institutions (FCI),
United States Penitentiaries (USP), Federal Medical Centers (FMC), Federal
Transfer Center (FTC), Federal Detention Centers (FDC), Metropolitan
Correctional Centers (MCC), and Medical Centers for Federal
Prisoners (MCFP).




                                                            
              112
            A statistical sample of 313 petitions was selected to provide effective coverage of
audit relevant characteristics that include relief type, the number of referrals per petition,
referral dates, and petition date through stratified sample designs.
              113
           Not all of the 93 USAOs, 116 BOP institutions, and 13 BOP contract facilities were
included in the OPA’s ECTS data covering clemency petitions pending at the beginning of
FY 2005 and clemency petitions opened between FY 2005 and May 2010. Of the 93 USAOs,
90 were represented in the OPA ECTS data. Additionally, of the 116 BOP institutions and
13 BOP contract facilities as of October 2010, respectively 112 and 12 were represented in
the OPA ECTS data.


                                                               68 

 


                             EXHIBIT 29 

             DOJ COMPONENTS, U.S. ATTORNEYS OFFICES, AND 

              BOP INSTITUTIONS AND CONTRACT FACILITIES 

                  THAT RECEIVED OIG QUESTIONNAIRES 


    DOJ COMPONENTS
    ATF                       Civil Rights Division        FBI
    Antitrust Division        Criminal Division            Tax Division
    Civil Division            DEA
    U.S. ATTORNEY OFFICES
    Alaska                    Illinois, Central            New Jersey
    Alabama, Northern         Illinois, Northern           New York, Eastern
    Alabama, Southern         Kansas                       New York, Northern
    California, Central       Kentucky, Eastern            Ohio, Northern
    District of Columbia      Louisiana, Eastern           Ohio, Southern
    Florida, Middle           Massachusetts                South Carolina
    Florida, Northern         Michigan, Eastern            Texas, Western
    Florida, Southern         Montana                      Utah
    Hawaii                    North Carolina, Western Virginia, Eastern
    Iowa, Southern            New Hampshire                Wisconsin, Western
    BOP INSTITUTIONS
    Alderson FPC              Elkton FCI                   Oklahoma City FTC
    Ashland FCI               Florence High USP            San Diego MCC
    Beaumont Low FCI          Forrest City Low FCI         Schuylkill FCI
    Beaumont USP              Fort Dix FCI                 Seagoville FCI
    Big Spring FCI            Fort Worth FCI               SeaTac FDC
    Butner Low FCI            Gilmer FCI                   Springfield MCFP
    Butner Med II FCI         La Tuna FCI                  Tallahassee FCI
    Carswell FMC              Leavenworth USP              Talladega FCI
    Coleman II USP            Lexington FMC                Texarkana FCI
    Coleman Med FCI           Manchester FCI               Tucson USP
    Danbury FCI               Marianna FCI                 Victorville Med I FCI
    Dublin FCI                Miami FCI
    Edgefield FCI             New York MCC
    BOP CONTRACT FACILITIES
    Big Spring Correctional Center      Reeves County Detention Center I & II
    Eden Detention Center               Taft Correctional Institution
Source: OIG

     The interview and questionnaire questions that we presented to DOJ
components, USAOs, and BOP institutions and contract facilities were to gain
an understanding of:



                                         69
 


    	 the entity’s past performance of responding to OPA’s referrals, 

       specifically the causes of delayed and non-responses; 


    	 processes for receiving, responding to, and monitoring the responses
       to OPA’s referrals requesting information;

    	 established timelines for responding to OPA’s referrals; and

    	 suggestions for improvement.

      Our sampling methodology for the USAOs began by analyzing the
ECTS data related to OPA referrals made to the USAOs. We analyzed the
data in the following five categories:

    	 greatest number of outstanding OPA referrals, as of May 28, 2010;

    	 greatest amount of time outstanding for an OPA referral, as of May 28,
       2010;

    	 greatest number of responses to OPA referrals;

    	 greatest amount of time for a response to an OPA referral; and

    	 greatest average response time to OPA referrals.

      We ranked the results for each category and selected the top
10 USAOs from each category. Based on our results, 31 USAOs were to be
included in our sample since some USAOs were ranked in the top 10 for
more than one category. However, 1 USAO was removed from the sample
due to ECTS data entry errors and our sample was reduced to 30 USAOs.

       Our sampling methodology for the BOP institutions was slightly
different from the methodology used for the USAOs. For the
BOP institutions, we began by analyzing the ECTS data related to OPA
referrals made to the BOP institutions. We analyzed the data into the
following five categories:

    	 greatest number of outstanding OPA referrals, as of May 28, 2010;

    	 greatest amount of time outstanding for an OPA referral, as of May 28,
       2010;




                                       70 

 


       	 greatest number of actions on OPA referrals;114

       	 greatest amount of time for an action on an OPA referral; and

       	 greatest average amount of time for action on OPA referrals.

        We ranked the results for each category and selected the top
10 BOP institutions from each category.115 Based on our results, 37 BOP
institutions were included in our sample since some institutions were ranked
in the top 10 for more than one category. For the BOP contract facilities, we
began by analyzing the ECTS data related to OPA referrals made to BOP
contract facilities. The sampling methodology for the 12 BOP contract
facilities was based on ranking the contract facilities by number of OPA
referrals. We found that the top 4 BOP contract facilities received 468 of the
total 597 (78 percent) OPA referrals. Therefore, we selected the top
four BOP contract facilities to receive our questionnaire.

       In order to evaluate the reliability of the information in ECTS, we
reviewed the ECTS data included in our original scope, which was clemency
petitions pending at the beginning of FY 2005 and clemency petitions opened
between FY 2005 and May 28, 2010. This included 12,208 petitions with
37,122 referral and status actions. We found that this ECTS data included
62 data entry errors. Specifically, we found:

       	 30 instances in which the date of the referral to an entity was after the
          date of the entity’s response,

       	 26 instances in which the date the petition was received at the OPA
          was after the date a referral was made to an entity, and

       	 6 instances in which there was a response date but there was no date
          for the referral to an entity.

      We provided lists of all ECTS data entry errors to the Pardon Attorney
for review and explanation. The Pardon Attorney responded by providing
explanations for a few of the errors, but conceded that the majority were
data entry errors. When possible the OPA also corrected the ECTS data
entry errors.
                                                            
              114
           An action includes a response by the BOP Warden to the OPA referral, or the OPA
closed the referral due to the number of days outstanding and no response was received.
              115
          Due to ties in the category “greatest number of outstanding OPA referrals, as of
May 28, 2010,” 15 BOP institutions were included in the rankings for this category.



                                                               71 

 



      We further tested the ECTS data included in the scope of our audit,
covering clemency petitions pending at the beginning of FY 2005 and
clemency petitions opened between FYs 2005 and 2010. We found that this
ECTS data included 31 data entry errors. Specifically, we found:

    	 3 instances in which the date of the referral to an entity was after the
       date of the entity’s response,

    	 11 instances in which the date the petition was received at the OPA
       was after the date a referral was made to an entity,

    	 2 instances in which there was a response date but there was no date
       of the referral to an entity,

    	 11 instances in which the date of the referral to an entity was after the
       date of the final decision by either the White House or by the OPA, and

    	 4 instances in which there is a referral but there are no dates for the
       referral to the entity or the entity’s response.

       Therefore, we removed the data errors from our scope, which resulted
in 12,897 petitions opened between November 1993 and September 2010,
resulting in 40,226 referral and status actions referred between
December 1993 and September 2010. Based on the small percentage of
errors (less than 0.1 percent), we determined the ECTS data to be reliable.




                                       72 

 


                                                                             APPENDIX II

                                                      LAWS AND REGULATIONS

U.S. Constitution Article 2, Section 2

       The President may require the opinion, in writing, of the principal
officer in each of the executive departments, upon any subject relating to
the duties of their respective offices, and he shall have power to grant
reprieves and pardons for offenses against the U.S., except in cases of
impeachment.

28 C.F.R. § 1.1 to 1.11

§ 1.1 Submission of petition; form to be used; contents of petition

       A person seeking executive clemency by pardon, reprieve,
commutation of sentence, or remission of fine shall execute a formal
petition. The petition shall be addressed to the President and shall be
submitted to the OPA, except for petitions relating to military offenses.116
Petitions and other required forms may be obtained from the OPA. Petition
forms for commutation of sentence also may be obtained from the wardens
of federal penal institutions. Each petition for executive clemency should
include the information required in the form prescribed by the Attorney
General.

§ 1.2 Eligibility for filing petition for pardon

       No petition for pardon should be filed until the expiration of a waiting
period of at least 5 years after the date of the release of the petitioner from
confinement or, in case no prison sentence was imposed, until the expiration
of a period of at least 5 years after the date of the conviction of the
petitioner. Generally, no petition should be submitted by a person who is on
probation, parole, or supervised release.




                                                            
              116
            A petitioner applying for executive clemency with respect to military offenses
should submit his or her petition directly to the Secretary of the military branch that had
original jurisdiction over the court-martial trial and conviction of the petitioner. In such a
case, a form furnished by the Pardon Attorney may be used but should be modified to meet
the needs of the particular case.


                                                               73 

 


§ 1.3 Eligibility for filing petition for commutation of sentence

      No petition for commutation of sentence, including remission of fine,
should be filed if other forms of judicial or administrative relief are available,
except upon a showing of exceptional circumstances.

§ 1.4 Offenses against the laws of possessions or territories of the U.S.

      Petitions for executive clemency shall relate only to violations of laws
of the U.S. Petitions relating to violations of laws of the possessions of the
U.S. or territories subject to the jurisdiction of the U.S. should be submitted
to the appropriate official or agency of the possession or territory concerned.

§ 1.5 Disclosure of files

      Petitions, reports, memoranda, and communications submitted or
furnished in connection with the consideration of a petition for executive
clemency generally shall be available only to the officials concerned with the
consideration of the petition. However, they may be made available for
inspection, in whole or in part, when in the judgment of the Attorney
General their disclosure is required by law or the ends of justice.

§ 1.6 Consideration of petitions; notification of victims; recommendations to
the President

       Upon receipt of a petition for executive clemency, the Attorney General
shall cause such investigation to be made of the matter as he or she may
deem necessary and appropriate, using the services of, or obtaining reports
from, appropriate officials and agencies of the Government, including the
Federal Bureau of Investigation.

      When a person requests clemency for a conviction of a felony offense
for which there was a victim,117 and the Attorney General concludes from the
information developed in the clemency case that investigation of the
clemency case warrants contacting the victim, the Attorney General shall


                                                            
              117
            For the purposes of this paragraph, ‘‘victim’’ means an individual who: (1) Has
suffered direct or threatened physical, emotional, or pecuniary harm as a result of the
commission of the crime for which clemency is sought (or, in the case of an individual who
died or was rendered incompetent as a direct and proximate result of the commission of the
crime for which clemency is sought, one of the following relatives of the victim (in order of
preference): the spouse; an adult offspring; or a parent); and (2) Has on file with the
Federal Bureau of Prisons a request to be notified pursuant to 28 C.F.R. 551.152 of the
offender’s release from custody.


                                                               74 

 


cause reasonable effort to be made to notify the victim or victims of the
crime for which clemency is sought:118

       	 That a clemency petition has been filed;

       	 That the victim may submit comments regarding clemency; and

       	 Whether the clemency request ultimately is granted or denied by the
          President.

      In determining whether contacting the victim is warranted, the
Attorney General shall consider the seriousness and recency of the offense,
the nature and extent of the harm to the victim, the defendant’s overall
criminal history and history of violent behavior, and the likelihood that
clemency could be recommended in the case.119

      The Attorney General shall review each petition and all pertinent
information developed by the investigation and shall determine whether the
request for clemency is of sufficient merit to warrant favorable action by the
President. The Attorney General shall report in writing his or her
recommendation to the President, stating whether in his or her judgment the
President should grant or deny the petition.

§ 1.7 Notification of grant of clemency

       When a petition for pardon is granted, the petitioner or his or her
attorney shall be notified of such action and the warrant of pardon shall be
mailed to the petitioner. When commutation of sentence is granted, the
petitioner shall be notified of such action and the warrant of a commutation
shall be sent to the petitioner through the officer in charge of his or her
place of confinement, or directly to the petitioner if the petitioner is on
parole, probation, or supervised release.

§ 1.8 Notification of denial of clemency

       Whenever the President notifies the Attorney General that he has
denied a request for clemency, the Attorney General shall so advise the
petitioner and close the case. Except in cases in which a sentence of death
                                                            
              118
           For the purposes of this paragraph, ‘‘reasonable effort’’ is satisfied by mailing to
the last-known address reported by the victim to the Federal Bureau of Prisons under
28 C.F.R. 551.152.
              119
         The provisions of this paragraph apply to clemency cases filed on or after
September 28, 2000.


                                                               75 

 


has been imposed, whenever the Attorney General recommends that the
President deny a request for clemency and the President does not
disapprove or take other action with respect to that adverse
recommendation within 30 days after the date of its submission to him, it
shall be presumed that the President concurs in that adverse
recommendation of the Attorney General, and the Attorney General shall so
advise the petitioner and close the case.120

§ 1.9 Delegation of authority

      The Attorney General may delegate to any officer of DOJ any of his or
her duties or responsibilities under § 1.1 through 1.8.

§ 1.10 Procedures applicable to prisoners under a sentence of death imposed
by a U.S. District Court121

       The following procedures shall apply with respect to any request for
clemency by a person under a sentence of death imposed by a U.S. District
Court for an offense against the U.S. Other provisions set forth in this part
shall also apply to the extent they are not inconsistent with this section.

       Clemency in the form of reprieve or commutation of a death sentence
imposed by a U.S. District Court shall be requested by the person under the
sentence of death or by the person’s attorney acting with the person’s
written and signed authorization. No petition for reprieve or commutation of
a death sentence should be filed before proceedings on the petitioner’s direct
appeal of the judgment of conviction and first petition under 28 U.S.C. 2255
have terminated. A petition for commutation of sentence should be filed no
later than 30 days after the petitioner has received notification from the BOP
of the scheduled date of execution. All papers in support of a petition for
commutation of sentence should be filed no later than 15 days after the
filing of the petition itself.122 The petitioner’s clemency counsel may request
to make an oral presentation of reasonable duration to the OPA in support of
                                                            
              120
           According to OPA officials, the OPA does not employ the 30 day rule and does not
believe the rule has ever been enforced. This is because the OPA believes that the
President may have more pressing matters to deal with than deciding on clemency
petitions.
              121
           The provisions of § 1.10 apply to any person under a sentence of death imposed
by a United States District Court for whom an execution date is set on or after August 1,
2000.
              122
           Papers filed by the petitioner more than 15 days after the commutation petition
has been filed may be excluded from consideration.



                                                               76 

 


the clemency petition.123 The family or families of any victim of an offense
for which the petitioner was sentenced to death may, with the assistance of
the prosecuting office, request to make an oral presentation of reasonable
duration to the OPA.

      Clemency proceedings may be suspended if a court orders a stay of
execution for any reason other than to allow completion of the clemency
proceeding. Only one request for commutation of a death sentence will be
processed to completion, absent a clear showing of exceptional
circumstances.

§ 1.11 Advisory nature of regulations

      The regulations contained in this part are advisory only and for the
internal guidance of DOJ personnel. They create no enforceable rights in
persons applying for executive clemency, nor do they restrict the authority
granted to the President under Article II, Section 2 of the Constitution.

U.S. Attorneys’ Manual § 1-2.110 – 1-2.113

§ 1-2.110 Office of the Pardon Attorney

       The OPA assists the President in the exercise of his power under
Article II, Section 2, clause 1 of the Constitution. The OPA, under the
direction of the Deputy Attorney General, receives and reviews all petitions
for executive clemency, which includes pardon after completion of sentence,
commutation of sentence, remission of fine and reprieve; initiates and
directs the necessary investigations; and prepares a report and
recommendation for submission to the President in every case. In addition,
the OPA acts as a liaison with the public during the pendency of a clemency
petition, responding to correspondence and answering inquiries about
clemency cases and issues.

§ 1-2.111 Role of the U.S. Attorney in Clemency Matters

      The OPA routinely requests the U.S. Attorney to provide comments
and recommendations on clemency cases that appear to have some merit,
as well as on cases that raise issues of fact.124 These requests are made to
the U.S. Attorney in the district(s):
                                                            
              123
                      The presentation should be requested at the time the clemency petition is filed.
              124
            While the decision to grant clemency generally is driven by considerations that
differ from those that dictate the decision to prosecute, the U.S. Attorney's prosecutorial
perspective lends valuable insights to the clemency process.


                                                               77 

 



                            of conviction,

                            in which a petitioner currently resides, and

                            in which the petitioner cooperated with the government.

       The views of the U.S. Attorney are given considerable weight in
determining what recommendations DOJ should make to the President. For
this reason, and in order to ensure consistency, it is important that each
request sent to the district receive the personal attention of the U.S.
Attorney. Each petition is presented for action to the President with a report
and recommendation from DOJ, and the recommendation by the
U.S. Attorney is included in this report.125

       As a general matter, in clemency cases the correctness of the
underlying conviction is assumed and the question of guilt or innocence is
not generally at issue. However, if a petitioner refuses to accept guilt,
minimizes culpability, or raises a claim of innocence or miscarriage of
justice, the U.S. Attorney should address these issues.

      In cases involving pardon after completion of sentence, the
U.S. Attorney is expected to comment on the petitioner's post conviction
rehabilitation, particularly any actions that may evidence a desire to atone
for the offense. In pardon cases, the OPA will forward to the U.S. Attorney
copies of the pardon petition and relevant investigative reports. These
records should be returned to the OPA along with the response.

       In commutation cases, U.S. Attorney comments may be sought on
developments after sentencing that are relevant to the merits of a
petitioner's request for mercy. In cases involving requests for commutation
of sentence or remission of fine, copies of the clemency petition and such
related records as may be useful, including the presentence report,
judgment of conviction, prison progress reports, and completed statement of
debtor forms will be provided.


                                                            
              125
            The U.S. Attorney can contribute significantly to the clemency process by
providing factual information and perspectives about the offense of conviction that may not
be reflected in the presentence or background investigation reports or other sources, such
as the extent of the petitioner's wrongdoing and the attendant circumstances, the amount
of money involved or losses sustained, the petitioner's involvement in other criminal
activity, the petitioner's reputation in the community and, when appropriate, the victim
impact of the petitioner's crime. On occasion, the OPA may request information from
prosecution records that may not be readily available from other sources.


                                                               78 

 


      The OPA also routinely requests the U.S. Attorney to solicit the views
and recommendation of the sentencing judge. If the sentencing judge is
retired, deceased, or otherwise unavailable for comment, the U.S. Attorney's
report should so advise. In the event the U.S. Attorney does not wish to
contact the sentencing judge, the OPA should be advised accordingly so that
the judge's views may be solicited directly.126

       The U.S. Attorney may support, oppose or take no position on a
pardon request; however, it is helpful to have a clear expression of the
office's position. The OPA generally asks for a response within 30 days. If
an unusual delay is anticipated, the OPA should be advised when a response
may be expected. If desired, the official views of the U.S. Attorney may be
supplemented by separate reports from present or former officials involved
in the prosecution of the case. The U.S. Attorney may of course submit a
recommendation for or against clemency even if the OPA has not yet
solicited comments from the district. The OPA informs the U.S. Attorney of
the final disposition of any clemency petition on which he or she has
commented.

§ 1-2.112 Standards for Considering Pardon Petitions

      In general, a pardon is granted on the basis of the petitioner's
demonstrated good conduct for a substantial period of time after conviction
and service of sentence. DOJ’s regulations require a petitioner to wait a
period of at least 5 years after conviction or release from confinement
(whichever is later) before filing a pardon petition. In determining whether
a particular petitioner should be recommended for a pardon, the following
are the principal factors taken into account.

        1. Post-conviction conduct, character, and reputation - An
           individual's demonstrated ability to lead a responsible and productive
           life for a significant period after conviction or release from
           confinement is strong evidence of rehabilitation and worthiness for
           pardon. The background investigation customarily conducted by the
           FBI in pardon cases focuses on the petitioner's financial and
           employment stability, responsibility toward family, reputation in the
           community, participation in community service, charitable or other
           meritorious activities and, if applicable, military record. In assessing
           post-conviction accomplishments, each petitioner's life circumstances
           are considered in their totality: it may not be appropriate or realistic
           to expect "extraordinary" post-conviction achievements from
                                                            
              126
           Absent an express request for confidentiality, the Pardon Attorney may share the
comments of the U.S. Attorney with the sentencing judge or other concerned officials whose
views are solicited.


                                                               79 

 


               individuals who are less fortunately situated in terms of cultural, 

               educational, or economic background.


        2. Seriousness and relative recentness of the offense - When an
           offense is very serious, a suitable length of time should have elapsed
           in order to avoid denigrating the seriousness of the offense or
           undermining the deterrent effect of the conviction. In the case of a
           prominent individual or notorious crime, the likely effect of a pardon
           on law enforcement interests or upon the general public should be
           taken into account. Victim impact may also be a relevant
           consideration.

        3. Acceptance of responsibility, remorse, and atonement - The
           extent to which a petitioner has accepted responsibility for his or her
           criminal conduct and made restitution to its victims are important
           considerations. A petitioner should be genuinely desirous of
           forgiveness rather than vindication. While the absence of expressions
           of remorse should not preclude favorable consideration, a petitioner's
           attempt to minimize or rationalize culpability does not advance the
           case for pardon. Persons seeking a pardon on grounds of innocence
           or miscarriage of justice bear a formidable burden of persuasion.

        4. Need for relief - The purpose for which pardon is sought may
           influence disposition of the petition. A felony conviction may result in
           a wide variety of legal disabilities under state or federal law, some of
           which can provide persuasive grounds for recommending a pardon.
           However, the absence of a specific need should not be held against an
           otherwise deserving applicant, who may understandably be motivated
           solely by a strong personal desire for a sign of forgiveness.

        5. Official recommendations and reports - The comments and
           recommendations of concerned and knowledgeable officials,
           particularly the U.S. Attorney whose office prosecuted the case and
           the sentencing judge, are carefully considered. The likely impact of
           favorable action in the district or nationally, particularly on current law
           enforcement priorities, will always be relevant to the President's
           decision.127




                                                            
              127
          Apart from the significance to the individuals who seek them, pardons can play
an important part in defining and furthering the rehabilitative goals of the criminal justice
system.


                                                               80 

 


§ 1-2.113 Standards for Considering Commutation Petitions

      A commutation of sentence reduces the period of incarceration; it does
not imply forgiveness of the underlying offense, but simply remits a portion
of the punishment. It has no effect upon the underlying conviction and does
not necessarily reflect upon the fairness of the sentence originally imposed.
Requests for commutation generally are not accepted unless and until a
person has begun serving that sentence. Nor are commutation requests
generally accepted from persons who are presently challenging their
convictions or sentences through appeal or other court proceeding.

      The President may commute a sentence to time served or he may
reduce a sentence, either merely for the purpose of advancing an inmate's
parole eligibility or to achieve the inmate's release after a specified period of
time. Commutation may be granted upon conditions similar to those
imposed pursuant to parole or supervised release or, in the case of an alien,
upon condition of deportation.

       Generally, commutation of sentence is an extraordinary remedy that is
rarely granted. Appropriate grounds for considering commutation have
traditionally included disparity or undue severity of sentence, critical illness
or old age, and meritorious service rendered to the government by the
petitioner, such as cooperation with investigative or prosecutorial efforts that
has not been adequately rewarded by other official action. A combination of
these and/or other equitable factors may also provide a basis for
recommending commutation in the context of a particular case.

      The amount of time already served and the availability of other
remedies (such as parole) are taken into account in deciding whether to
recommend clemency. The possibility that DOJ itself could accomplish the
same result by petitioning the sentencing court, through a motion to reward
substantial assistance under Rule 35 of the Federal Rules of Criminal
Procedure, a motion for modification or remission of fine under
18 U.S.C. § 3573, or a request for compassionate relief under
18 U.S.C. § 3582(c)(1), will also bear on the decision whether to
recommend Presidential intervention in the form of clemency. When a
commutation request is based on the serious illness of the petitioner,
transmission of the U.S. Attorney's response by facsimile in advance of
mailing the original is always appreciated.

       When a petitioner seeks remission of fine or restitution, the ability to
pay and any good faith efforts to discharge the obligation are important
considerations. Petitioners for remission also should demonstrate
satisfactory post-conviction conduct.


                                       81 

 



      On January 21, 1977, the President by Proclamation 4483 granted
pardon to persons who committed non-violent violations of the Selective
Service Act between August 4, 1964, and March 28, 1973, and who were not
Selective Service employees. Although a person who comes within the
described class was immediately pardoned by the proclamation, the OPA
issues certificates of pardon to those within the class who were actually
convicted of a draft violation and who make written petition to the
Department on official forms. When these petitions are received by the OPA,
they are forwarded to the U.S. Attorney for the district in which the applicant
was convicted to verify the facts of the case. The verification should be
returned to the OPA promptly.




                                      82 

 


                                                                       APPENDIX III

                          CLEMENCY DEFINITIONS AND GUIDELINES

Pardons

       A pardon is an indication of forgiveness. While a Presidential pardon
will restore certain rights lost as a result of the pardoned offense and should
lessen to some extent the stigma arising from a conviction, it will not erase
or expunge the record of conviction.128

       Under DOJ’s rules governing petitions for executive clemency, there is
a minimum waiting period of 5 years after completion of sentence before
petitioners are eligible to apply for a Presidential pardon. The waiting period
begins on the date of the petitioner's release from confinement.
Alternatively, if the conviction resulted in probation or a fine, but no term of
imprisonment, the waiting period begins on the date of sentencing. A waiver
of any portion of the waiting period is rarely granted and then only in the
most exceptional circumstances. In order to request a waiver, a petitioner
must complete the pardon petition and submit it with a letter explaining why
the petitioner believes the waiting period should be waived.

       Pardon petitions for individuals who are not residents of the United
States cannot be processed by the OPA. If the petitioner is in the United
States unlawfully, the OPA returns the petition to the petitioner with a letter
explaining that the petition cannot be processed because the petitioner is
breaking the law with their unlawful presence in the country. If the
petitioner resides outside the United States, the OPA is still unable to
process the pardon petition because the FBI would not be able to conduct a
background investigation.

Military Pardon

      A person wishing to seek a Presidential pardon for a military conviction
may apply under the regular pardon procedure. Petitioners for pardon of
military courts-martial are subject to the same 5-year waiting period as a
regular pardon petitioner. However, petitions for pardon of a military
offense should first be sent to the Secretary of the military branch that had
                                                            
              128
            In 1992, a Presidential pardon became the sole means by which a federally
convicted felon could seek relief from the firearms disabilities attendant to his or her
conviction. Since that time, Congress has prohibited the Bureau of Alcohol, Tobacco,
Firearms and Explosives from expending appropriated funds to process and investigate
petitions for relief from firearms disabilities pursuant to the program authorized by
18 U.S.C. § 925(c).


                                                               83 

 


original jurisdiction. Once the military pardon petition has been reviewed by
the appropriate Secretary of the military, the petition along with any
required documentation is forwarded to the OPA for processing. Pardon of a
military offense will not change the character of a military discharge.129

Commutation

       A commutation is a reduction of a sentence imposed upon conviction
of a federal offense, which is different than a pardon after completion of a
sentence. According to the U.S. Attorneys’ Manual Standards for
Consideration of Clemency Petitions, “[g]enerally, commutation of sentence
is an extraordinary remedy that is rarely granted.” The President's clemency
power also includes the authority to remit, or reduce, the amount of a fine or
restitution order that has not already been paid.130

      Petitioners seeking reduction of a period of probation, supervised
release, or special parole should state this on the petition and the particular
reasons why this portion of the sentence should be reduced, including the
reasons that being on probation, supervised release, or special parole would
be an unusual hardship to the petitioner. Petitioners should also explain why
requesting the sentencing court to grant early termination of a term of
supervision, pursuant to 18 U.S.C. § 3583(e)(1) or 18 U.S.C. § 4211, is not
an adequate remedy.

      Requests for commutation of a prison sentence generally are not
accepted unless and until the petitioner has begun serving the sentence. In
addition, commutation requests are generally not accepted from a petitioner
who is currently challenging his or her conviction or sentence through appeal
or other court proceeding. Accordingly, a petitioner should not complete and
submit a commutation petition until they have concluded all judicial
challenges to their conviction and sentence and have begun serving their
sentence. In evaluating the merits of a commutation petition, clemency
authorities take into consideration the amount of time the petitioner has
already served and the availability of other remedies to secure the relief
sought, such as parole or judicial action.

      For individuals who are not United States citizens, it should be noted
that commutation of sentence only shortens the prison sentence and will not
                                                            
              129
            An upgrade or other change to a military discharge may only be accomplished by
action of the appropriate military authorities.
              130
          Requests for the remission of a special assessment are not accepted. The special
assessment is not considered to be a fine, and should not be included on a clemency
petition.


                                                               84 

 


result in a change of immigration status. A full pardon is the only form of
executive clemency that might affect a person's immigration status.
However, a person who is currently serving a prison term is not eligible to
apply for a pardon. Accordingly, if a detainer has been lodged against the
petitioner for deportation or removal, commutation of sentence, even if
granted, will not prevent deportation or removal from the United States and
may actually hasten the process.

Vietnam War Era Draft Evasion Pardon

       President Carter, by Proclamation of January 21, 1977, pardoned
certain persons who, during the Vietnam War era, violated the Military
Selective Service Act by draft evasion acts or omissions committed between
August 4, 1964, and March 28, 1973. The certificate of pardon will be
issued only if the petitioner was convicted of such an offense. If the
petitioner was arrested for or charged with a Military Selective Service Act
violation for an offense committed during the relevant time period, but
prosecution ended in some fashion other than conviction (such as dismissal
of charges or an acquittal), the petitioner is not eligible to seek a certificate
of pardon. Furthermore, President Carter’s Pardon Proclamation applies only
to violations of the Military Selective Service Act by civilians. In addition,
the Proclamation does not apply to Military Selective Service Act violations
involving force or violence, or to offenses committed by agents, officers, or
employees of the Military Selective Service system in connection with duties
or responsibilities arising out of their employment.131

Posthumous Clemency

       It is the general policy of DOJ that requests for posthumous pardons
for federal offenses are not processed for adjudication. The policy is
grounded in the belief that the time of the officials involved in the clemency
process is better spent on the pardon and commutation requests of living
persons. Many posthumous pardon requests would likely be based on a
claim of manifest injustice, and given that decades have likely passed since
the event and the historical record would have to be scoured to objectively
and comprehensively investigate such petitions, it is DOJ's position that the
limited resources which are available to process requests for Presidential
clemency are best dedicated to petitions submitted by persons who can truly
                                                            
              131
            Because President Carter’s Pardon Proclamation immediately pardoned all
members of the class of offenders who met its criteria, the Pardon Attorney will issue a
certificate evidencing the fact that the Proclamation applies to a specific individual if that
person is able to demonstrate through appropriate court documentation that the Military
Selective Service Act offense of which the person was convicted falls within the criteria
described in the Proclamation.


                                                               85 

 


benefit from a grant of clemency. The policy also recognizes that requests
for posthumous pardons are less likely to involve issues generally explored
in routine pardon investigations (such as the recent, or ongoing,
rehabilitative efforts of a clemency petitioner), and are therefore less likely
to derive benefit from the investigative techniques commonly used in the
pardon process. The President, of course, is not bound by this policy.




                                       86 

 


                                                                             APPENDIX IV

                CLEMENCY PETITION RECEIPT AND PROCESSING

Processing Clemency Petitions

      The OPA has few documented policies and procedures for processing
clemency petitions. As a result, we identified and documented the following
detailed procedures used by the OPA in processing clemency petitions.

Receipt of Clemency Petitions

       When a clemency petition is received, the OPA runs a name check in
ECTS to determine if the petitioner has filed for clemency previously.132 If
an open petition is found in ECTS then the new petition is handled as
case-related correspondence and given to the assigned OPA staff member
for action. If a previously closed petition is found in ECTS, a new case is
opened as long as the reason for any previous administrative closure is no
longer valid, such as the prior petition was administratively closed because
the petitioner had not met the 5-year waiting period. If the petitioner has
not filed previously, a case is opened and a hardcopy file is created to
include the petition and any other information and documents that were
submitted with the petition.

Processing Pardon Petitions

       Pardon petitions are processed by OPA attorneys under the supervision
of the Pardon Attorney. For new pardon petitions, the OPA verifies the date
of conviction and release from incarceration using BOP’s SENTRY. For
petitioners that served a period of probation, the date of conviction is
verified with information from the U.S. Probation Office. If the petitioner has
met the 5-year waiting period or a waiver is granted, the Pardon Attorney
assigns the petition to one of the OPA attorneys for processing.133

       At every stage in the processing of a pardon petition, the merit of the
petitioner is assessed using the standards included in the U.S. Attorneys’
Manual. These standards include:
                                                            
              132
            The OPA requires an original signature; therefore, the OPA cannot accept
petitions via facsimile and will notify the petitioner of the missing original signature if it is
not on the petition.
              133
           Attorney assignment is designated by the Pardon Attorney, based on the current
Attorney caseloads, other workloads, and whether one Attorney has a specific skill or
expertise that would assist in processing the petition.


                                                               87 

 



       	 post-conviction conduct, character, reputation, and involvement in
          community service, charitable, or other meritorious activities;

       	 the nature, seriousness, and relative recentness of the offense;

       	 acceptance of responsibility, remorse, and atonement;

       	 need for relief; and

       	 official recommendations and reports.

      If at any stage during the process of reviewing and investigating
pardon petitions, the petition is found not to be of sufficient merit, a report
recommending denial is prepared and submitted to the ODAG for review and
signature.

       The OPA's initial processing steps include screening the petition to
determine whether the petitioner is eligible to apply for a pardon and
obtaining additional information from the petitioner or the petitioner’s
attorney to complete or clarify the petition. In addition, the OPA requests
that the U.S. Probation Office in the district of conviction provide: (1) the
presentence investigation report; (2) the judgment of conviction, including
the statement of reasons the sentence was imposed under the Sentencing
Reform Act, if applicable; and (3) information concerning the petitioner's
adjustment to supervision and satisfaction of financial obligations imposed
as part of the sentence. Based upon the totality of this information, the
petition is assessed to determine whether or not the pardon request appears
to be of sufficient merit or raises questions of such significance that a further
investigation of the petitioner's background should be undertaken by the
FBI. The FBI’s background check for petitioners is similar in type to the
background investigation conducted of federal appointees.

       If an FBI background investigation is conducted, the merit of the
petition is reassessed based on the information provided by the FBI. If
further investigation is still warranted, the OPA requests the views and
recommendation of the USAO in the district of conviction and the sentencing
judge.134 If the petitioner’s crime(s) involved an identifiable victim, the OPA
will ask the USAOs to contact the victim to inform them of the petitioner’s
request for pardon and obtain the victim’s views, if they wish to comment on

                                                            
              134
             The OPA may also request the views and recommendation of the USAO in the
district in which the petitioner currently resides.



                                                               88 

 


the request. If the case was prosecuted by one of DOJ’s litigating divisions,
such as the Criminal Division or Tax Division, the OPA requests the views
and recommendation of the Assistant Attorney General of the appropriate
Division. Additionally, the OPA may request the views of other government
components due to the component’s involvement or knowledge of the crime,
such as the Drug Enforcement Administration; Bureau of Alcohol, Tobacco,
Firearms and Explosives; or U.S. Immigration and Customs Enforcement.

       After all relevant information is obtained the OPA reassesses the
petition and makes a recommendation regarding the clemency request.
Based on the OPA’s recommendation, the appropriate report is prepared and
transmitted to the Deputy Attorney General for review and signature.

      Once the ODAG approves the report and recommendation, the Deputy
Attorney General signs the report and returns it to the OPA. The OPA
prepares a new cover sheet for the White House and transmits the report to
the White House for a final decision.

Processing Commutation Petitions

       The commutation petition includes check boxes for the petitioner to
indicate the form of relief sought, including: (1) reduction of prison
sentence only, (2) reductions of prison sentence and remission,
(3) remission of fine and/or restitution, and (4) “other” that allows the
petitioner to fill in the blank. Presently, the Pardon Attorney processes all
commutation petitions with the assistance of two OPA support staff
members, rather than assigning the commutations to OPA attorneys. The
OPA’s initial review includes determining whether the presentence report,
order of judgment and conviction, and the most recent BOP progress report
were included with the petition. If the required documentation is not
provided, the OPA will request the missing information from the BOP Warden
of the facility in which the petitioner is currently incarcerated.135
Additionally, the petition is reviewed for merit and whether the petition
indicates that clemency might be an appropriate remedy. The OPA staff also
obtains additional information about the petitioner, the prosecution, and, if
relevant, any codefendants from the BOP SENTRY, and the Public Access to
Electronic Court Records system, as well as any available, relevant judicial
opinions in Westlaw.


                                                            
              135
          While we were conducting fieldwork, the process for requesting reports from the
BOP was revised. The OPA established a separate e-mail address to request and receive
documentation electronically from the BOP. Previously, all referrals were processed through
the mail.


                                                               89 

 


       After required documentation has been provided, the OPA evaluates
the merit of the petitioner. If further investigation is still warranted, the OPA
refers the matter to the USAO in the district of conviction and sentencing
judge for comments and recommendation, and if applicable, requests the
USAOs to contact the victim to obtain the victim’s views, if they wish to
comment on the request. Depending on the circumstances related to the
petitioner’s offense, the OPA may also contact one of DOJ’s litigating
divisions or other government components to request comments and
recommendations on the petitioner’s request for clemency.

       After all relevant information is obtained the OPA reassesses the
petition and makes a recommendation regarding the clemency request.
Based on the OPA’s recommendation, the appropriate report is prepared and
transmitted to the Deputy Attorney General for review and signature.

      Once the ODAG approves the report and recommendation, the Deputy
Attorney General signs the report and returns it to the OPA. The OPA
prepares a new cover sheet for the White House and transmits the report to
the White House for a final decision.

Review of Clemency Report and Recommendations

       The Pardon Attorney reviews each report and recommendation to
ensure that the recommendation complies with the standards established in
the U.S. Attorneys’ Manual. In addition, all OPA reports and
recommendations are reviewed by the ODAG, as it is the ODAG’s
recommendation that represents DOJ in these matters. Finally, the
recommendation is reviewed by the White House and the power to grant
clemency is vested solely in the President. If at any time during the process
the reviewer believes that the recommendation should be reconsidered, the
report is returned to the OPA for additional review and a revised report is
submitted. This process does not necessarily result in a different
recommendation; only that additional consideration should be given to the
petition.136

      It is important to note that for petitions for which a final decision has
been pending for a significant amount of time, the OPA will conduct
additional checks throughout the process to ensure all information is current
and that the recommendation is still valid. These checks include follow-up
                                                            
              136
           Whether the OPA reaffirms a recommendation or makes a “new”
recommendation on a petition, the report will be staffed through the ODAG and then back to
the White House, as it is the Deputy Attorney General’s recommendation that represents
DOJ in these matters.



                                                               90 

 


FBI background investigations, contact with the petitioner for additional
information, and contact with the USAOs.

Clemency Decisions and Notification

       After a final decision is made by the President, the White House
notifies the OPA. If the President grants the request for clemency, the OPA
prepares the appropriate certificates for the President’s signature.
Regardless of whether or not the President’s final decision is to grant or deny
clemency, the OPA notifies the petitioner and all parties contacted during its
review and investigation of the President’s final decision.137

OPA Reports

     The OPA produces three types of reports for providing
recommendations on clemency petitions to the ODAG and the White House.

       	 The summary (group) report is used to recommend denials of
          multiple pardon or commutation petitions. This report summarizes the
          petitions included in the report, and includes the following basic
          information about the petitioner in an appendix: petitioner’s name,
          offense, district, sentence dates, and release date or projected release
          date.

       	 The summary (short narrative) report is used for recommending
          denials of individual pardon and commutation petitions. The report
          includes a one page or slightly longer narrative summarizing the
          petition, the results of the OPA’s review and investigation, and the
          basis for recommending denial. This format is utilized when the
          petition for clemency presently lacks merit, but may become more
          meritorious in future years, or when the petitioner or the petitioner’s
          offenses are publicly known and higher authority requires sufficient
          information concerning the petition to answer any inquiries it might
          receive.

       	 The full (long narrative) report is the only report used for
          recommendations to grant clemency for pardon and commutation
          petitions. It may also be used to recommend the denial of clemency
          for petitioners and cases of great notoriety, when there is considerable
          prosecutorial importance, or for petitioners of sufficient merit to
          warrant further investigation, including the views and
                                                            
              137
         These agencies and individuals may include the BOP, U.S. Probation Office, FBI,
USAOs, sentencing judge, and any victims contacted.


                                                               91 

 


    recommendations of the investigative agency, USAOs, or prosecuting
    agency, sentencing judge, any identifiable victims, and investigating
    agency. This format provides detailed information related to the
    petitioner, the petitioner’s reason for the clemency request, comments
    of officials, and the OPA’s reasons for recommending a grant or denial
    of clemency.




                                   92 

 
                                                                                         APPENDIX V

                                                           u.s. De partm ent of Justice
                                                           Offi ce of the Pardon Attorney




                                                           Wm/rUl/llOn.   D.C. 20jJO
                                                                  AUG 1 9 1011
    MEMORANDUM

    TO,            Raymond J. Beaudet
                   Assistant Inspector General for Audit
                   Office of the Inspector General

    FROM:          Ronald L. Rodgers   tftl-
                   Pardon Attorney

    SUB),          Office of Inspector General Audit of Department of Justice Processing
                   of Clemency Applications; Formal Comments on Draft Report

           Subject audit resulted in the issuance offour recommendations to assist the Office of the
    Pardon Attorney (OPA) in more efficiently processing clemency applications. We agree with
    each of these four recommendations, which wil l be discussed in brief detail below.

            The first recommendation called for OPA to "Establish and implement a policy and
    procedure ensuring that follow-up is conducted within established timeframes for outstanding
    referrals" (requests to external agencies for comment or information regarding clemency
    applications under review in OPA). Commencing immediately, at the end of each month, the
    Pardon Attorney will review a report that identifies which referrals have not been answered by
    the requested completion date (nonnally 30 days). At the direction of the Pardon Attorney,
    appropriate support siaffpersonnel will send an electronically generated reminder to the
    organization to which the request was directed before the expiration of60 days from the date of
    the original request The electronic reminder notices will be repeated thereafter on a monthly
    basis until the referral response is received.

            The second recommendation called fo r OPA to "Process all fu lure referrals electroni­
    cally." Since earlier in 2011 , OPA has processed the overwhelming majority of its clemency
    referrrus to United States Probation Offices and Department of Justice components by means of
    electronic transmission. We will continue to send referrals electronically to the United States
    Probation Offices, which have been very receptive to this form of communication, and hence·
    forth will process all refermls with Departmental components by electronic means. We arc
    committed to the electronic transfer of clemency referrals, but we are mindful that there may be a
    few situations in which electronic communication with non-Department of Justice agencies or
    individuals (such as federa l district judges who sentenced clemency petitioners) may not be
    possible because the agency or individual to whom the referral is directed is reluctant to
    communicate in this fashion. In that event, OPA wi ll be fo rced to process the referral lhrough
    standard mailing, but \yjll monitor the response time of the recipient in accordance with the
    procedures noted in connection with the first recommendation, above, and will conduct




                                                      93
 




                                                   ·2·

    appropriate follow-up efforts by available means within established timeframcs

            The third recommendation called for OPA to "Include an aging report detailing all open
    referrals when following-up with United States Attorneys Offices." Commencing immediately,
    this infonnation will be transmitted in follow-up efforts regarding untimely referral responses
    from United States Attorneys Offices to which clemency matters have been referred for com­
    ment.

             The fourth recommendation called for OPA to "Develop procedures to ensure that its case
    management system is updated and documents changes in the status of referrals." Through the
    centralization of the follow-up process with the Pardon Attorney described in the response to the
    first recommendation, the Pardon Attorney and support staff persormci dedicated to this effort
    will ensure the timely updating of the referral process in the presently employed Executive
    Clemency Tracking System. With OPA's future adoption of the IQ tracking system (presently in
    development and projected to become operational in FY 2012), the updating process will be
    substantially streamlined when fol1ow~up correspondence is initiated.

            Our official comments regarding subject audit would be incomplete without our taking
    the opportunity to express our appreciation to the auditing team from the Denver Regional Audit
    Office of the Office of the Inspector General, Department of Justice, for their fair and compre~
    hensive audit and review of our activities. The audit team members could not have been more
    professional in the performance of their duties, and their suggestions to us for improving the
    efficiency of the manner in which we process applications for executive clemency were ex­
    tremely usefuL

            Attached hereto is the record of sensitivity review that has been completed. We are aware
    of no reason thaI the audit report cannot be publicly released.

    Enclosure

    cc: David M. Sheeren
    Regional Audit Manager
    Denver Regional Audit Officc




                                                         94 

 
,-------------------------------~:L_             APPENDIX VI
~~
                                                    ________
                         U.S. DClmrtmcnt or JusLice

                                                 Federal Bureau of Prisons




                                                 Sep t ember 1 , 2 011




        MEMORANDUM FOR DAVID M. SHEEREN
                       REGIONAL AUDIT MANAGER
                       DENVER REGIONAL AUDIT OFFICE




                        L~~ f{9;::ng
        FROM

        SUBJECT .   r
                    ,
                                                    Direcror

                          Response to the Office of Inspector General ' s (OrG)
                          Draft Report :   Audit of the Department of Justice
                          processing o f Clemency Petitions

       The Bureau of Prison s (BOP) appreciates the opportunity to respond
        to the o p en recommendation from the draft report entitled Audit o f
        the Department of Justice     processi~of      Cl emency Petitions .

        please find the Bureau's response to the recommendation be l ow:

       Recommendation #5:  Issue additional guidance to ensure that its
       Wardens comply with Progr am Statement 1330.15. The additional
        guidance should include procedures for monitoring or tracking these
        referrals .

       Response: The Bure au concurs with the recomme ndation. Additional
       guidance was issued on August 18, 2011, ensuring wardens comply with
       Program Statement 1330 . 15, Pet i tion for Commutation of Sentence .
       This guidance inc l uded procedures for monitoring and tracking
       referrals . We request this recommendation be closed .

        I f you have any questions regarding this response, please contact
        H. J. Marberry, Assistant Director, Program Review Division, at (202)
        353 - 2302 .




                                            95
 
                                                                                                APPENDIX VII


                                                                 U.S. Department of Justice

                                                                 Executive Office for United Slates Attorneys



    OffIce ofthc: O"eCior                                        Room }]61, RFK Mo,n JU J/'C( Buildmg           (10 ]) ] j}· / OOO
                                                                 950 Pennry/vama A~"IU!. NW
                                                                 Washmgtoll. ex; l05JO




    MEMORANDUM

    DATE:                   AUG 3 0 1011
    TO:                     David M. Sheeren

                       ~~nager
    fROM:                   l'tb rman Wong   0
                            Deputy Director/COunse l to the Director
                            Executive Office for United States Attorneys

    SUBJECT:                Response to DIG's Report Entitled: Audit a/the Department a/Justice Processing
                            of Clemency Petitions


            Thi s memorandum is submitted by the Executive Office for United States Attorneys
    (EOUSA) in response to the August 2011 audit report by the Office of Inspector General (OIG)
    entitled, "Audit o/the Department 0/Justice Process;ng a/Clemency Petitions."

          We appreciate the o pportunity to comment on the report. The report makes one
    recommendation fo r EOUSA. Recommendation No.6 on page 65 states that EOUSA:

               Issue additional guidance to the United States Attorneys' Offices reminding them to
               comply with the timeframes in the U.S. Attorneys' Manual and notity the OPA of
               expected delays in responding to the OPA within the 30 day request. The add it ional
               guidance should include examples of policies and procedures developed by the U.S.
               Attorneys in the Eastern District of Kentucky and the District of Massachusetts.

    EOUSA agrees with this recommendation and has already taken responsive action. In response
    to the OIG recommendation, EOUSA recently issued the attached guidance memorandum to the
    United States Attorneys' Offices regarding their responses to OPA requests.

            In light of th is action, EOUSA requests that DIG close recommendation No.6 in this
    audit report.

    Attachment




                                                            96
                                                                              I APPENDIX VIII


    Memorandum




    Subj :    CRT ReSpOnfle re: Draft Audit Report - DOJ            Date    September 6, 20 11
              Processing of Clemency Petitions




    To:                                                  From:
             Office of the Inspector General                      Roy L. Austin, Jr.
                                                                  Deputy Assistant Attorney General
                                                                  Civil Right Division


            Through this memorandum, the Civil Rights Division (CRT) would respectfully request
    that you reconsider how it is rcf{''Tcnccd in your Final Report of the "Audit of the Department of
    Justice Processing of Clemency Petitions."

             Based on your Draft Audit Report ("Draft Report"), CRT had only two clemency
    petitions at issue between 2005 and 201 O. One or the petitions was referred to CRT on January
    10,2002 and CRT responded on September 30,2002,263 days later. Of the employees who
    worked on the petition, the last one len 001 in 2005, which is why we cannot cxplain thc
    delayed response. The fact that this petition was apparently still at issue more than two years
    later, in 2005, wa~ certainly not the fault of CRT.

            Tht: second petition was purportedly referred to CRT on August 9, 2000 and we
    explained that we have no record of receiving it. Due to the enormous amount of
    correspondence received by CRT's Criminal Section, the Section has a robust cOTTespondence
    management system and this was checked and there is no record of having received this petition.
    Notably, your D raft RepOit notes that OPA often failed to fo llow up on referrals to components .
    Ifpossiblc, we would he intere.o.;ted in any inJonnation that you have that shows that OPA
    followed up with CRT during the 6.2 years that this petition was pending. If there is no record of
    any follow up or a clear record that CRT received the petition, a fair conclus ion would be that
    CRT never received it. It would be highly unlikely that CRT would not respond had it received
    the petition. I know the United States Attorney's Offices ("USAO") also questioned the quality
    ofFCfS data. Considering the poor quality ofOPAs follow up in the early 2000s, the fact that
    some agencies said that they never received petitions supposedly sent should be stated in the
    Executive Summary in the list of explanations for delayed responses. It is also noteworthy that
    due to the length of time this second petition was pending, it is not part of your calcu lation of
    averages and though CRT is shown with an average of 263 days, it is actually just an average of
    one and there should probably be a footnote explaining that. (Sec Exhibit 19). Accordingly,
    given the considerable uncer1<1.inty about whether CRT ever received this petition, it seems
    reasonable to rcflect this fact in the report.

          Wc also are concerned that the manner in which CRT is noted in the reporl is misleading.
    On pages vii and xv of the Executive Summary, and pages 27, 41 and 64 afthe Report, CRT is




                                                    97
 



                                                   -2-


    grouped with BOP, the USA Os, FBI and Criminal Division as "components that materially
    exceeded the established timeframes for responding to OPA referrals." BOP received
    approximately 4,400 referrals, USAOs 788, FBI 1,110 and the Criminal Division 19. As noted
    above, CRT received one petition in a decade, with the receipt of other petition in question. It
    seems that the reader should get some context as to the nature of your concern from the first time
    that it is mentioned. At a minimum, the first mention in the Executive Summary and the Report
    should note the number of referrals reportedly sent to each agency by OPA and the date the most
    recent referral was scnt. We feel that Exhibit 20 supports the need for this clarification, In
    Exhibit 20, CRT is the only agency for which there arc no applications at the agency during the
    time period analyzed. It is not until very late in the Report, on pages 51 and 52, iliat some
    context regarding CRT's situation is provided.

           While we certainly intend to implement your recommcndation La ensure that we comply
    with the United States Attomcys' Manuel ("USAM") for processing petitions in the future, it
    should come a<; little surprise that there is no current formal protocol beyond following the
    USAM when the Division is aware of having received just one referral in the last decade, ifnot
    longer.

            TIlallk you in advance for considering this additional infonnation. I would be happy to
    further discuss this with you. Tcan be reached at 202.514.3845.




                                                   98 

 
                                                                                            APPENDIX IX




                                                          U.S. Department of Juslice


                                                          Federal Bureau of Investigation


                                                          Washington, D. C. 20535·0001

                                                           August 30, 20 II


    Cynthia A. Schnedar
    Acting Inspector General
    Office of the Inspector General
    U.S Department of Justice
    Suite 4706
    950 Pennsylvania Avenue, N.W.
    Washington, D.C. 20530


    Dear Ms. Schnedar:
                   The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
    and respond to your draft report entitled. "Audit of the Department of Justice Processing of
    Clemency Petitions" (hereinafter "Report").

                    We are pleased that your Report recognizes the "unique role" the FBlrlays in the
    clemency process, Specifically. your report notes that requests made by the Office 0 the Pardon
    Attorney (OPA) to the FBI are often "more complex" than referrals to other DOJ law
    enforcement agencies. This is because, in addition to rendering an opinion on the clemency
    petition, the FBI performs backgroWld investigations on petitioners and provides foreign
    language translation services to OPA. The need for thoroughness in the FBI's backgroWld
    investigations is self-evident, given the impact of the clemency decision, which affects
    significant interests, including the petitioner's right to possess a fireann, We are also pleased that
    your audit reports that the FBI responds to OPA's translation requests within established
    timeframes .- on average within 14 days.
                    We remain concerned that readers may mistakenly conclude that OPA's Executive
    Clemency Tracking System (BeTS) data reported in the examples contained in your Report at
    Exhibits 7 and 25 reflect FBI's uctual processing times, Three examples are listed with "ECTS
    Total Time" of 1,431 days, I ,479 days and 2,692 days. In fact, it took the FBI 53 days, 161 days
    and approximately 105 days (respectively) to process those three cases. The Report does not
    focus on these actual time frames and instead highlights ECTS data. As OPA acknowledged
    through its case files, the Eel'S entries do not accurately reflect FBI's actual processing and
    response times. Focusing on ECfS infonnation unfairly suggests FBI took up to 27 rimes longer
    to process and respond to OPA's request than it actually did take in those three cases. While we
    acknowledge that we exceeded our internal deadlines for processing and responding to OPA
    requests, and we concur with your recommendation that the FBI establi sh an internal deadline to
    process clemency petitions that is attainable, we do not reel these exhibits fairly represent the
    FBI's actual processing performance during the review period,
                   In conclusion, the FBI appreciates the professionalism exhibited by your staff
    throughout this audit. Enclosed herein is the FBI's response to your recommendation. Please




                                                      99
 




    feel free to contact me at 202-324-2903 should you have any questions or need further
    infonnation.



                                                        ~::;;;;',m ~
                                                       :ie::Ufer  Smith Love
                                                          Acting Assistant Director
                                                         Inspection Division

    Enclosure




                                                   2




                                                   100 

 




                 The Federal Bureau of Investigation's (FBI) Response to the
     Office of the Inspector General's Audit of the Department of Justice Processing of
                                    Clemency Petitions


    Recommendation #1: Evaluate its established timeframe 10 clemency petitions and establish an
    internal deadline that ;s allainable based on priorilizations and resources.

    FBI Response to Recommendation #1: Concur - The FBI, Security Division, concurs with
    this recommendation. The FBI has revisited its internal milestones based upon prioritizations
    and resources and detennined that the 120 calendar day timeframe is appropriate for processing
    clemency petitions. Since May 2011, the FBI has seen a decrease in the average time to process
    a clemency petition case, averaging 152 calendar days to process clemency petitions for full field
    cases and 65 calendar days to process clemency petitions for limited cases. The FBI will
    continue to prioritize caseloads to achieve the 120 calendar day milestone.




                                                  101 

 
                                                                                              APPENDIX X


                                                                 u.s. Department of Justice
                                                                 Criminal Division



    Office of1M A.f$Ulanl AIIQmry General                        W(1JhingICTI. D.C. 20530




    MEMORANDUM FOR THE OFFICE OF THE INSPECTOR GENE RAL

    TO:                            Raymond J. Beaudet
                                   Assistant Inspector General For Audit

    FROM:                          Adam S. Lurie ifL
                                   Scnior Counsel to the Assistant Attorney General, Criminal Division

    SUBJECT:                       Draft Audit Report - Audit of Department of Justice Processing of
                                   Clemency Petitions: Comments on Recommendations

    DATE:                          August 30, 20 11

            I write on behalf of the Criminal Divis ion to provide comments on the recommendations
    contained in the Draft Audit Report - Audit of Department of Justice Processing of Clemency
    Petitions (the " Draft Report"). As d iscussed in further detail below, and as explained to the
    Office of the Inspector General (OIG) during the audit, the Criminal Division does not agree
    with the Draft Report's findings in support of its recommendation concerning the Criminal
    Division (the " Recommendation").

     1. In concludine: that the C riminal Division takes an averaee of 489 davs to respond to an
        OIG " referral," the Draft Report unfairly relies upon cases in which the Criminal
        Division played an ancillary role, andlor does not properly credit the C riminal
        Division for its prompt res ponse time in cases in which it played a primary litigating
        role: In the Draft Report, OIG disagrees with the Cri minal Division's view that cases in
          which the Cri minal Division played an ancillary role should not be relied upon in O IG's
          ca lculation of the number of days taken by the Division to respond to O IG referrals. As we
          explained to 0 10 in several emails in July and August 2011, in seven cases that O IG
          counted in its calculation, the Criminal Division played minor, anci llary roles . For instance,
          OIG included in its calculation one case in whi ch the Division's response time was 334
          days; the Division's only role in that case, however, was to mediate a d ispute concerning the
          use ofa cooperating witness between two U.s. Attorney's Offices. In another matter where
          the Divisioll 's re~pom;t: timt: wu~ 539 day~, the Criminal Division merely helped place an
          individual in the Witness Security Program. While the Division may have eventua lly
          provided some response 10 OPA in some of these ancillary matters, the delay in providing a
          formal response would not be unexpected, as the Division would have naturally deferred to
          the primary prosecuting office for a formal response regard ing c lemency or other matters.




                                                            102 

 



    MEMORANDUM FOR THE OFFICE OF THE INSPECTOR GENERAL                                          Page 2

    SUBJECT:    Draft Audit Report - Audit of Department of Justice Processing of Clemency
                  Petitions: Comments on Recommendations



        Moreover, the Criminal Division submits that - al a minimum - the Draft Report should
        morc fu lly credit the Criminal Division for its prompt response time where it played a
        primary litigating rolc. The Draft Report notes this much shorter response time in cases in
        which the Division played a primary litigating role (66 days), but states only that OIG
        "disagree[s] with the Criminal Di vision's assertion" that this response time should be the
        one reported. Draft Report, at 58 . We strongly believe that the OIG should credit the
        Criminal Division in a more mt:aningful way for this substantially lower response time in
        cases in which the Division played the primary litigating role.

        By continuing to emphasize the 489-day calculation throughout the Draft Report, yet failing
        to credit adequately the Division for its short turnaround time in cases in which the Division
        had the primary litigating role, the Draft Report fails to credit the number that most
        accurately reflects the manner in which criminal prosecutions are actually handled by the
        Department. Further, as written, the Draft Report unfairly leaves readers with the
        misimpression that the Criminal Division typically fails to respond to referrals in a timely
        tashion. This, however, is not accurate.

    2. The Draft Re port unfairly relies upon questionab le OPA records when calculating the
       Division's response time: During the audit, the Criminal Division repeatedly questioned to
       OIG the rel iability ofOPA's Executive Clemency Tracking System ("ECTS"). Given the
       age of the Division 's cases that OIG reviewed, and the Division 's ancillary role in many
       matters (as discussed above), the Division did not have evidence to challenge ECTS'
       accuracy in every case. The Criminal Division, however, did provide evidence to OIG that
       the Criminal Division provided a response to OPA in more than one case; yet, ECTS did not
       have a record of those responses . For example, as Mythili Raman, Principal Deputy
       Assistant Attorney General and Chief of Staff, explained to OIG in her email dated July 22,
       20 11 , in one recent case where the Division's Public Integrity Section served as the primary
       prosecuting entity, the Criminal Division provided a response to OPA within 30 days of the
       referral. ECTS records, however, incorrectly indicated that the Division did nOT provide any
       response to OPA.

       Notwithstanding OPA 's questionable records, the Draft Report does not account for the
       possibility that OPA 's data concerni ng the Criminal Division may not be accurate. The
       Draft Report's failure to note this fact is not fair, particularly because the Division has
       provided clear evidence that ECtS was not always accurate with respect to Division cases.

    3. The Draft Report. at page 58. erroneously claims that the Criminal Division stated that
       OIG "should nol include older cases" when calculatiug the C rimimd DivIsion's
       averac:e response time: The Di vision did not suggest that the 010 should not include older
       cases in its audit. Instead, the Criminal Division suggested that OIO should explicitly note
       in its Report that the cases that OPA referred to the Criminal Division were very old
       (involving criminal cases in which the sentences were handed down anytime between 1977




                                                    103 

 



    MEMORANDUM FOR THE OFFICE OF THE INSPECTOR GENERAL                                            Page 3

    SUBJECT:    Draft Audit Report - Audit of Department of Justice Processing of Clemency
                  Petitions: Comments on Recommendations

        and 2002), and should note that the age of these cases made it difficult to confirm the
        accuracy of the Division 's response time. Put another way, the Division asked 010 to
        explicitly provide in its report this much-needed context for the OIG 's findings.

        In an email datedJuly22.2007. Ms. Raman explained that OIO's "findings cover an
        extraordinarily broad time period, which has made it difficult for O IG, OPA or the relevant
        componenllo find documents relating to those cases." Similarly, in my e mai l dated August
        1,201 1, to OIG, I explained that "[g] iven the age ormese cases, it has been difficult to find
        additional information [regarding whether the Criminal Division provided a response to
        OPA that may not be reflected in OPA 's records] - but that should not be counted agaill.st"
        the Criminal Division. As these email s make clear, the Draft Report's claim that the
        Criminal Division stated that OIG "should not include o lder cases" is not accurate.

    4. The Draft Report un fa irlv uses cases t hat the Co untercspional!e Section prosecuted
       when caiculatinl! the C .-iminal Divis ion ' s aver age response time: When calculating the
       Criminal Di vision 's average response time of 489 days, the Draft Report includes three
       cases that were prosecuted by the Department's Counterespionage Section. The
       Counterespio nage Section, however, is no longer part of the Criminal Division . Thus, it is
       not appropriate, in our view, fo r the Draft Report to make a recommendation to the ex.isting
       Criminal Division based, in part, upon the apparent practices o r a section that is no longer a
       part of the Criminal Division . As the Draft Report notes, if allthree of these cases are
       excluded from consideration, the "average response time for the Criminal Division would be
       233 days" per petition. Draft Report, at 57.

    5. The Draft Report erroneously claims that t he Crimin:.1 Division did not dispute the
       in clusio n of a ll three cases that the Counleres pionaee Section prosecuted : The Draft
       Report states that " [w]e also note that the Criminal Divisio n did not dispute the one
       [Counterespionage Section case where] a response was provided in 40 days, during the time
       that it was part of the Cri minal Division." This statement in the Draft Report is not
       accurate. In my e mail datedAugustl.2011.to OrG, I explained that the Counterespionage
       Section, not the Criminal Division, prosecuted this third matter. Then, in my e mail dated
       August 2. 2011 , I explained that the Criminal Division continued to "maintain that the
       Counterespionage cases should not count" in the Criminal Divis ion's average response time.
       Therefore, the suggestion in the Draft Report that the Di vision did not o bject to the inclusion
       of favorable turnaround times, but did object when the tumaround times were not favorable
       to the Division, is simply incorrect and leaves a misimprcssion about the Division's good­
       faith approach to th is OIG audit.




                                                     104 

 
                                                                                               APPENDIX XI 


                                                               U.S. D c partnlc n t of Ju.s ti cc

                                                               Office of the Deputy Attorney G", neral




                                                             September 6 , 20 11




    MEMORAN D U M

    TO:                             Raym o n d J . Beaudet, Ass istan t Inspec tor Gt:n e ral for Audi t
                                    Office of the Ins pec to r General

    FROM:                           Da vid A. O'NeiIQ~'!'~t
                                    Ch ief of S taff and Assoc iate D e puty Attom",y General

    SU B J ECT:                     Res ponse to the Office of the Ins p ec tor General"s Draft Report:
                                    Aud it of the D epartme nt o f Ju stice ProecssilH! of Clemency
                                    Petitio ns



    The Office of the D eput y Allomey General (ODAG) appreciates the opponun it y to respond to
    t he recomme ndation contained in the draft report entitled. Audit of the Department o f J ustice
    Processi ng of C lemenc y P e ti lio n s . Please find be10w the relevant recommendat io n a nd O D AG's
    respo n se.

    RecolI.mendation II 10 : Develop p o licics. procedures, and tim",frames for reviewi ng the OPA's
    c lemency reports and reco mme ndations to help ens ure that it respo nds to th e OPA in a timely
    manner.

    Res pons e : ODAG concurs in the recommenda tio n \0 develop policies, procedures, a nd
    time fra m es for review of th e OPA ' s c leme nc y reports a nd reco mmendations. ODAG inte nds to
    develop these policies, procedures, and timeframes within the nex t 60 days. W e intend to
    co ns ult w ith the U .S. Attorneys' Man ual. w h ich stales that th ", OPA gcnera ll y requests a
    respo nse with in )O da ys an d when an unu s ual delay is expected, 10 advi se Ihe OPA accordi ngly.




                                                         105 

 


                                                                       APPENDIX XII

                                  OFFICE OF THE INSPECTOR GENERAL 

                                 ANALYSIS AND SUMMARY OF ACTIONS

                                   NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this audit
report to the Office of the Pardon Attorney (OPA); Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Drug Enforcement
Administration (DEA); Federal Bureau of Investigation (FBI); Federal Bureau
of Prisons (BOP); Executive Office for U.S. Attorneys (EOUSA); Antitrust
Division; Civil Division; Civil Rights Division; Criminal Division; Tax Division;
National Security Division; and Office of the Deputy Attorney
General (ODAG). The OPA, BOP, EOUSA, Civil Rights Division, FBI, Criminal
Division, and ODAG responses are incorporated in Appendices V through XI
of this final report.138

      The responses from the Civil Rights Division, FBI, and Criminal Division
addressed information in our report that did not pertain to our
recommendations. The next three sections present our analysis of this
information. The final section provides the OIG analysis of the specific
responses to the recommendations and summary of actions necessary to
resolve and close the report.

Analysis of Civil Rights Division’s Response

      In response to our audit report, the Civil Rights Division concurred
with our recommendation and stated in its response that it intended to
implement our recommendation. However, the Civil Rights Division also
responded to information in our report that did not pertain to our
recommendation. We provide the following reply to these statements before
discussing the Civil Rights Division’s specific response to the
recommendation and action necessary to close the recommendation.

      In its response, the Civil Rights Division correctly noted that it only
had two clemency petitions covered by this audit. One of the petitions was
referred to the Civil Rights Division on January 10, 2002, and the Civil Rights
Division acknowledged that it responded to this referral on September 30,
2002 (263 days later). According to the Civil Rights Division’s response, the
last employees to work on the referral left DOJ in 2005, which is why it
                                                            
              138
            Because we did not offer formal recommendations to the ATF, DEA, Antitrust
Division, Civil Division, or Tax Division, these components did not formally respond to our
report.


                                                               106 

 


cannot explain the delayed response. We recognize that this referral was
older and because of its age the Civil Rights Division was not able to explain
the delay. However, the Civil Rights Division does not dispute the length of
time it took to respond to the referral and we believe this referral serves as
an example of why we recommend in our report that the Civil Rights Division
implement a procedure that ensures future referrals are handled in
accordance with the U.S. Attorneys Manual.

       The Civil Rights Division’s response also stated that the second referral
referenced in our report was purportedly referred to Civil Rights Division on
August 9, 2000. According to the Civil Rights Division, it has no record of
receiving this referral and it questions the quality of the OPA data that shows
that the Civil Rights Division did not respond to the referral. The Civil Rights
Division also took issue with Exhibit 19 in Finding II of the report which
shows the total number of petitions referred to certain entities and the
average number of days referrals spent at each entity. According to the
Civil Rights Division’s response, we should have included a footnote
explaining that the average shown for the Civil Rights Division was based
only on the first petition. First, it should be noted that we state in the body
of our report that the Civil Rights Division told us during the audit that it had
“no record of processing this case, the petitioner, or receiving the request.”
As for Exhibit 19, we added a footnote explaining that the average number
of days column in the exhibit only includes the referrals that were closed.

      Finally, in the Civil Rights Division’s response it stated that it was
concerned in the manner in which Civil Rights Division is grouped with the
BOP, U.S. Attorney’s Offices, FBI, and Criminal Division as components that
materially exceeded the established timeframes for responding to OPA
referrals. We disagree with the Civil Rights Division on this point. Our
report clearly points out (in places where the Civil Rights Division is
discussed) that OPA only sent it two referrals during the scope of our audit.
However, as we note above, we believe that the response time of 263 days
materially exceeded the response time established by the U.S. Attorneys
Manual.

Analysis of FBI’s Response

      In response to our audit report, the FBI concurred with our
recommendation and discussed the action it is taking to implement our
recommendation. However, the FBI also responded to information in our
report that did not pertain to our recommendation. We provide the following
reply to these statements before discussing the FBI’s specific response to
the recommendation and action necessary to close the recommendation.



                                      107 

 


       Particularly, the FBI stated that it is concerned readers may mistakenly
conclude that OPA's Executive Clemency Tracking System (ECTS) data
reflects the FBI's actual processing times. According to the FBI, its records
indicate processing times that were significantly less than the processing
times reflected in ECTS. Nevertheless, the FBI acknowledges in its response
that it exceeded FBI internal deadlines for processing and responding to OPA
requests.

      In our report we clearly state, where appropriate, when ECTS is the
source of the information we present. Therefore, we do not share the FBI’s
concern that a reader could mistakenly conclude that these timeframes were
based on FBI data. In addition, we note that our findings and
recommendation to the FBI are based solely on FBI data which shows, as
the FBI acknowledges in its response, that the FBI materially exceeded its
internal timeframes for processing OPA referrals requesting background
investigations.

Analysis of Criminal Division’s Response

      In response to our audit report, the Criminal Division does not concur
with our recommendation. Additionally, the Criminal Division responded to
information in our report that did not pertain to our recommendation. We
provide the following reply to these statements before discussing the
Criminal Division’s specific response to the recommendation and action
necessary to resolve the recommendation.

       In its response the Criminal Division highlighted five aspects of our
report with which it disagrees. First, the Criminal Division stated in its
response that in concluding that the Criminal Division takes an average of
489 days to respond to an OPA referral, the draft report unfairly relies upon
cases in which the Criminal Division played an ancillary role, and does not
properly credit the Criminal Division for its prompt response time in cases in
which it played a primary litigating role. As stated in our report, we disagree
with the Criminal Division’s assertions that instances where it played an
ancillary role should be treated differently than cases for which it was the
primary prosecuting agency. As our report states, the OPA solicits
information from a number of entities when preparing a recommendation for
the President on a clemency petition. Some of these entities have more
direct roles than others. For example, the OPA will solicit information from
the USAO that prosecuted the case and may also request information from
the USAO for the district where the petitioner currently resides. Clearly, the
prosecuting USAO would have played a more direct role in the original case;
however, that does not mean insight from the USAO in the petitioner’s
district would be any less valuable. As the report notes, it is the


                                     108 

 


responsibility of the OPA to assist the President in the exercise of his
constitutional pardoning power by providing him with the best information
available on which to base a fair and just decision in cases in which
applicants seek clemency. Therefore, the OPA must solicit, and all DOJ
components should provide, any and all information available to assist the
President in this process whether the role in the case was direct or ancillary.
We also note in the report, in any of the cases where the Criminal Division
claims an ancillary role it could have simply informed the OPA that it had a
limited role in the case, and therefore believed that it had no basis to opine
on clemency matters related to the case.

      The second disagreement noted in the Criminal Division’s response is
the draft report unfairly relies upon questionable OPA records when
calculating the Division's response time. According to the Criminal Division’s
response, the draft report does not account for the possibility that OPA’s
data concerning the Criminal Division might not be accurate. We disagree
with this assertion. In each instance where the Criminal Division provided us
with information that supplemented the ECTS data we considered this
information and presented a revised average processing time in the report
that assumed the validity of the Criminal Division’s information. For
example, on page 56 of the report we state:

      Criminal Division officials also stated that a written response was
      provided to the OPA for one OPA petition that was not reflected in the
      ECTS data, which we confirmed with the OPA. If we included this
      petition in our calculation, as of September 30, 2010, the average
      response time for the Criminal Division would be 458 days
      (15.3 months) or slightly less than the Criminal Division average per
      the ECTS data. Criminal Division officials also indicated that they
      verbally communicated with the OPA regarding an additional four
      petitions. If we included all petitions for which written or verbal
      responses were provided in our calculations, as of September 30,
      2010, the average response time for the Criminal Division would be
      417 days (13.9 months).

      Next, the Criminal Division’s response states that the draft report, at
page 58, erroneously claims that the Criminal Division stated that OIG
should not include older cases when calculating the Criminal Division's
average response time. In support of this statement the Criminal Division
refers to an August 2011 email which states, “[g]iven the age of these
cases, it has been difficult to find additional information on this point - but
that should not be counted against us [Criminal Division].” Based on this
e-mail and numerous conversations with the Criminal Division, including the
exit conference, we reasonably understood that the Criminal Division did not


                                      109 

 


believe older petitions should be “counted against” it when computing the
average processing times. We appreciate the Criminal Division’s clarification
of this point and continue to believe that all of the petitions related to the
Criminal Division discussed in this report were appropriately considered.

      In addition, the Criminal Division’s response states that the draft
report unfairly uses cases that the Counterespionage Section prosecuted
when calculating the Criminal Division's average response time. We
disagree with the Criminal Division because the OPA referrals related to
these petitions were made when the Counterespionage Section was part of
the Criminal Division. In addition, as we note in the report (and as the
Criminal Division acknowledges in its response) when these cases are
excluded the average processing time was 233 days per petition. While we
agree that this is significantly lower than the 489 day average processing
time when these cases are included, it still materially exceeds the
U.S. Attorneys Manual timeframe of 30 days. Therefore, whether these
cases are included or not included, our recommendation to the Criminal
Division remains valid.

       Finally, in its response, the Criminal Division states that the draft
report erroneously claims that the Criminal Division did not dispute the
inclusion of all three cases that the Counterespionage Section prosecuted.
Specifically, the Criminal Division takes issue with the report statement that
says:

      We also note that the Criminal Division did not dispute one case that
      was included in our average, which was also prosecuted by its former
      Counterespionage Section, while it was still part of the Criminal
      Division. In this case, a response was provided in 40 days, during the
      time that it was part of the Criminal Division.

Again, the Criminal Division relies on emails sent to us in August 2011.
However, the Criminal Division’s response fails to note its response to our
questionnaire sent during the audit which only disputed the two cases
related to the former Counterespionage Section that were closed without a
response after 5 years on average. When we considered this information,
along with subsequent conversations with Criminal Division officials, and the
non-specific emails referred to in the Criminal Division’s response, we
reached the reasonable conclusion that the Criminal Division only took
exception to the two cases related to the former Counterespionage Section
that were closed without a response after 5 years on average. We
appreciate the Criminal Division’s effort to clarify its point, but once again,
we note that our report presents the average processing times with, and
without, these three Counterespionage cases.


                                      110 

 



Summary of Actions Necessary to Resolve and Close Report

1.	   Resolved (OPA). The OPA concurred with our recommendation to
      establish and implement a policy and procedure ensuring follow-up is
      conducted within established timeframes for outstanding referrals.
      The OPA stated in its response that at the end of each month, the
      Pardon Attorney will review a report that identifies which referrals
      have not been answered by the requested completion date (normally
      30 days). At the direction of the Pardon Attorney, appropriate support
      staff personnel will send an electronically generated reminder to the
      organization to which the request was directed before the expiration of
      60 days from the date of the original request. The electronic reminder
      notices will be repeated thereafter on a monthly basis until the referral
      response is received.

      This recommendation can be closed when we receive evidence
      supporting that the procedure described in OPA’s response has been
      fully implemented.

2.	   Closed (OPA). We recommended that the OPA process all future
      referrals electronically. The OPA concurred with our recommendation
      and provided evidence in its response regarding a detailed explanation
      of its procedure to process referrals electronically. Therefore, this
      recommendation is closed.

3.	   Resolved (OPA). The OPA concurred with our recommendation to
      include an aging report detailing all open referrals when following up
      with U.S. Attorneys’ Offices. The OPA stated in its response that this
      information will be transmitted in follow-up efforts regarding untimely
      referral responses from U.S. Attorneys’ Offices to which clemency
      matters have been referred for comment.

      This recommendation can be closed when we receive evidence
      supporting that the OPA consistently includes an aging report detailing
      all open referrals when following up with U.S. Attorneys’ Offices.

4.	   Resolved (OPA). The OPA concurred with our recommendation to
      develop procedures to ensure that its case management system is
      updated and documents changes in the status of referrals. The OPA
      stated in its response that through the centralization of the follow-up
      process described in the first recommendation, the Pardon Attorney
      and support staff dedicated to this effort will ensure timely updating of
      the referral process in the Executive Clemency Tracking System. The


                                     111 

 


      OPA also stated in its response that with the future adoption of the IQ
      tracking system (projected to be operational in FY 2012) the updating
      process will be substantially streamlined when follow-up
      correspondence is initiated.

      This recommendation can be closed when we receive evidence
      supporting that the procedure described in OPA’s response has been
      fully implemented and ensures that OPA’s case management system is
      updated and documents changes in the status of referrals.

5.	   Resolved (BOP). The BOP concurred with our recommendation to
      issue additional guidance to ensure that its Wardens comply with
      Program Statement 1330.15. The additional guidance should include
      procedures for monitoring or tracking these referrals. The BOP stated
      in its response that additional guidance was issued on August 18,
      2011, ensuring wardens comply with Program Statement 1330.15,
      Petition for Commutation of Sentence. The BOP also stated in its
      response that this guidance included procedures for monitoring and
      tracking referrals.

      This recommendation can be closed when we receive a copy of the
      August 18, 2011, guidance referred to by the BOP in its response and
      we confirm that the guidance ensures that BOP Wardens comply with
      Program Statement 1330.15 and includes procedures for monitoring or
      tracking OPA referrals.

6.	   Closed (EOUSA). We recommended that the EOUSA issue additional
      guidance to the U.S. Attorneys’ Offices reminding them to comply with
      the timeframes in the U.S. Attorneys’ Manual and notify the OPA of
      expected delays in responding to the OPA within the 30-day request.
      The additional guidance should include examples of policies and
      procedures developed by the U.S. Attorneys in the Eastern District of
      Kentucky and the District of Massachusetts. The EOUSA concurred
      with the recommendation and provided documentation demonstrating
      the issuance of additional guidance to the U.S. Attorneys’ Offices
      regarding their responses to OPA requests.

      We reviewed the documentation demonstrating the issuance of
      additional guidance to the U.S. Attorneys’ Offices regarding their
      responses to OPA requests, and determined that it adequately
      addressed our recommendation. Therefore, this recommendation is
      closed.




                                     112 

 


7.	   Resolved (Civil Rights Division). The Civil Rights Division
      concurred with our recommendation to develop procedures to ensure
      that it complies with the U.S. Attorneys’ Manual in responding to the
      OPA’s referrals within the established timeframes. The
      recommendation further states that these procedures should be
      developed in collaboration with components that generally respond to
      the OPA within the established timeframes, including the Antitrust
      Division and the Civil Division. The Civil Rights Division stated in its
      response that it intends to implement our recommendation to ensure
      that it complies with the U.S. Attorney’s Manual for processing
      petitions in the future.

      This recommendation can be closed when we receive evidence that
      supports the procedures developed by the Civil Rights Division that
      ensure that it complies with the U.S. Attorneys’ Manual when
      responding to OPA referrals.

8.	   Resolved (FBI). The FBI concurred with our recommendation to
      evaluate its established timeframe to process clemency petitions and
      establish an internal deadline that is attainable based on prioritizations
      and resources. The FBI stated in its response that is has revisited its
      internal milestones based upon prioritizations and resources and
      determined that the 120 calendar day timeframe is appropriate for
      processing clemency petitions.

      This recommendation can be closed when we receive evidence
      supporting that the FBI evaluated its timeframe to process clemency
      petitions and established an internal deadline that is attainable based
      on prioritizations and resources.

9.	   Unresolved (Criminal Division). The Criminal Division’s response
      states that it does not agree with the findings in our report that
      support the single recommendation to the Criminal Division. The
      Criminal Division’s response does not specifically address the
      recommendation to develop procedures to ensure that it formally
      responds to all OPA referrals including those cases for which Criminal
      Division’s role is ancillary. Therefore, this recommendation is
      unresolved.

      This recommendation can be resolved and closed when we receive
      evidence that the Criminal Division has developed procedures to
      ensure that it formally responds to all OPA referrals in accordance with
      established timeframes, including those cases for which Criminal
      Division’s role is ancillary.


                                      113 

 



10.	   Resolved (ODAG). The ODAG concurred with our recommendation
       to develop policies, procedures, and timeframes for reviewing the
       OPA’s clemency reports and recommendations to help ensure that it
       responds to the OPA in a timely manner. The ODAG stated in its
       response that it intends to develop the policies, procedures, and
       timeframes within the next 60 days.

       This recommendation can be closed when we receive documentation of
       the policies, procedures, and timeframes that the ODAG developed for
       reviewing the OPA’s clemency reports and recommendations to help
       ensure that it responds to the OPA in a timely manner.




                                    114 

